<html>
<title> - LOOKING FORWARD: AVIATION 2050</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]




 
                     LOOKING FORWARD: AVIATION 2050

=======================================================================

                                (116-6)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 12, 2019

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure
             
             
             
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
           
             


     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                             
                             
                             
                            ______

             U.S. GOVERNMENT PUBLISHING OFFICE 
 35-497               WASHINGTON : 2019                            
                             
                             


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                    PETER A. DeFAZIO, Oregon, Chair

ELEANOR HOLMES NORTON,               SAM GRAVES, Missouri
  District of Columbia               DON YOUNG, Alaska
EDDIE BERNICE JOHNSON, Texas         ERIC A. ``RICK'' CRAWFORD, 
ELIJAH E. CUMMINGS, Maryland         Arkansas
RICK LARSEN, Washington              BOB GIBBS, Ohio
GRACE F. NAPOLITANO, California      DANIEL WEBSTER, Florida
DANIEL LIPINSKI, Illinois            THOMAS MASSIE, Kentucky
STEVE COHEN, Tennessee               MARK MEADOWS, North Carolina
ALBIO SIRES, New Jersey              SCOTT PERRY, Pennsylvania
JOHN GARAMENDI, California           RODNEY DAVIS, Illinois
HENRY C. ``HANK'' JOHNSON, Jr.,      ROB WOODALL, Georgia
Georgia                              JOHN KATKO, New York
ANDRE CARSON, Indiana                BRIAN BABIN, Texas
DINA TITUS, Nevada                   GARRET GRAVES, Louisiana
SEAN PATRICK MALONEY, New York       DAVID ROUZER, North Carolina
JARED HUFFMAN, California            MIKE BOST, Illinois
JULIA BROWNLEY, California           RANDY K. WEBER, Sr., Texas
FREDERICA S. WILSON, Florida         DOUG LaMALFA, California
DONALD M. PAYNE, Jr., New Jersey     BRUCE WESTERMAN, Arkansas
ALAN S. LOWENTHAL, California        LLOYD SMUCKER, Pennsylvania
MARK DeSAULNIER, California          PAUL MITCHELL, Michigan
STACEY E. PLASKETT, Virgin Islands   BRIAN J. MAST, Florida
STEPHEN F. LYNCH, Massachusetts      MIKE GALLAGHER, Wisconsin
SALUD O. CARBAJAL, California, Vice  GARY J. PALMER, Alabama
Chair                                BRIAN K. FITZPATRICK, Pennsylvania
ANTHONY G. BROWN, Maryland           JENNIFFER GONZALEZ-COLON,
ADRIANO ESPAILLAT, New York            Puerto Rico
TOM MALINOWSKI, New Jersey           TROY BALDERSON, Ohio
GREG STANTON, Arizona                ROSS SPANO, Florida
DEBBIE MUCARSEL-POWELL, Florida      PETE STAUBER, Minnesota
LIZZIE FLETCHER, Texas               CAROL D. MILLER, West Virginia
COLIN Z. ALLRED, Texas               GREG PENCE, Indiana
SHARICE DAVIDS, Kansas
ABBY FINKENAUER, Iowa
JESUS G. ``CHUY'' GARCIA, Illinois
ANTONIO DELGADO, New York
CHRIS PAPPAS, New Hampshire
ANGIE CRAIG, Minnesota
HARLEY ROUDA, California

                                  (ii)

  


                        Subcommittee on Aviation

                     RICK LARSEN, Washington, Chair

ANDRE CARSON, Indiana                GARRET GRAVES, Louisiana
STACEY E. PLASKETT, Virgin Islands   DON YOUNG, Alaska
STEPHEN F. LYNCH, Massachusetts      DANIEL WEBSTER, Florida
ELEANOR HOLMES NORTON,               THOMAS MASSIE, Kentucky
  District of Columbia               SCOTT PERRY, Pennsylvania
DANIEL LIPINSKI, Illinois            ROB WOODALL, Georgia
STEVE COHEN, Tennessee               JOHN KATKO, New York
HENRY C. ``HANK'' JOHNSON, Jr.,      DAVID ROUZER, North Carolina
Georgia                              LLOYD SMUCKER, Pennsylvania
DINA TITUS, Nevada                   PAUL MITCHELL, Michigan
JULIA BROWNLEY, California           BRIAN J. MAST, Florida
ANTHONY G. BROWN, Maryland           MIKE GALLAGHER, Wisconsin
GREG STANTON, Arizona                BRIAN K. FITZPATRICK, Pennsylvania
COLIN Z. ALLRED, Texas               TROY BALDERSON, Ohio
JESUS G. ``CHUY'' GARCIA, Illinois   ROSS SPANO, Florida
EDDIE BERNICE JOHNSON, Texas         PETE STAUBER, Minnesota
SEAN PATRICK MALONEY, New York       SAM GRAVES, Missouri (Ex Officio)
DONALD M. PAYNE, Jr., New Jersey
SHARICE DAVIDS, Kansas
ANGIE CRAIG, Minnesota
GRACE F. NAPOLITANO, California
SALUD O. CARBAJAL, California
PETER A. DeFAZIO, Oregon (Ex 
Officio)


                                 (iii)
                                 
                                 

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                   STATEMENTS OF MEMBERS OF CONGRESS

Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, and Chair, Subcommittee on Aviation:

    Opening statement............................................     1
    Prepared statement...........................................     4
Hon. Garret Graves, a Representative in Congress from the State 
  of Louisiana, and Ranking Member, Subcommittee on Aviation:

    Opening statement............................................     6
    Prepared statement...........................................     7
Hon. Sam Graves, a Representative in Congress from the State of 
  Missouri, and Ranking Member, Committee on Transportation and 
  Infrastructure, prepared statement.............................    69

                               WITNESSES

David McBride, Director, Armstrong Flight Research Center, 
  National Aeronautics and Space Administration:

    Oral statement...............................................     9
    Prepared statement...........................................    11
Diana Marina Cooper, Senior Vice President of Policy and 
  Strategy, PrecisionHawk, Inc.:

    Oral statement...............................................    16
    Prepared statement...........................................    17
Eli Dourado, Head of Global Public Policy and Communications, 
  Boom Supersonic:

    Oral statement...............................................    20
    Prepared statement...........................................    22
Eric Allison, Head of Elevate, Uber Technologies, Inc.:

    Oral statement...............................................    23
    Prepared statement...........................................    24
Captain Joseph G. DePete, President, Air Line Pilots Association, 
  International:

    Oral statement...............................................    26
    Prepared statement...........................................    28

                       SUBMISSIONS FOR THE RECORD

Post-hearing response from Diana Marina Cooper, Senior Vice 
  President of Policy and Strategy, PrecisionHawk, Inc., to 
  request for information from Hon. Graves of Louisiana..........    62
Statement of Mark Baker, President and CEO, Aircraft Owners and 
  Pilots Association, submitted for the record by Hon. Larsen....    69
  
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                             March 8, 2019

    SUMMARY OF SUBJECT MATTER

    TO:       Members, Subcommittee on Aviation
    FROM:   Staff, Subcommittee on Aviation
    RE:       Subcommittee Hearing on ``Looking Forward: 
Aviation 2050''

                                PURPOSE

    The Subcommittee on Aviation will meet on Tuesday, March 
12, 2019, at 10 a.m. in HVC-210 of the Capitol Visitor Center 
to hold a hearing titled, ``Looking Forward: Aviation 2050.'' 
The hearing will explore the future of U.S. aviation and the 
National Airspace System (NAS), including how the NAS is 
evolving as a result of new aviation and aerospace 
technologies, as well as how new and future entrants (including 
unmanned aircraft, passenger air taxis, and supersonic 
aircraft) will change our airspace. The Subcommittee will hear 
testimony from the National Aeronautics and Space 
Administration (NASA), PrecisionHawk, Boom, Uber Elevate, and 
the Air Line Pilots Association.

                 FUTURE OF U.S. AVIATION AND AEROSPACE

    Civil aviation plays a central role in the United States, 
supporting more than $1.5 trillion of economic activity and 
more than 11 million jobs, according to industry groups. This 
role will only grow with the introduction of new airspace 
users, such as unmanned aircraft and passenger air taxis, and 
the development of new aerospace technologies that change the 
way we operate in the airspace. The Federal Aviation 
Administration (FAA)--the Federal agency responsible for 
ensuring the safe and efficient operation of the NAS--along 
with NASA and industry are continuously exploring ways to make 
current airspace operations safer and more efficient, as well 
as to prepare our airspace for the arrival and integration of 
new users and technology.
    The FAA's William J. Hughes Technical Center--a world 
renowned air transportation system laboratory--conducts 
extensive research and development to find solutions to air 
transportation safety challenges. The Technical Center also 
supports the FAA's Next Generation Air Transportation (NextGen) 
portfolio--an effort to modernize air traffic control systems 
to increase the safety and efficiency of the NAS.\1\ NASA's 
Armstrong Flight Research Center has numerous flight test and 
research projects underway that seek to improve fuel efficiency 
and reduce emissions, reduce or mitigate aircraft noise, and 
support systems to safely integrate unmanned aircraft.\2\ These 
Government programs, along with industry efforts, and public-
private collaboration will ensure the United States remains the 
world leader in civil aerospace.
---------------------------------------------------------------------------
    \1\ See William J. Hughes Technical Center, https://www.faa.gov/
about/office_org/headquarters_offices/ang/offices/tc/; FAA, NextGen by 
the Numbers, https://www.faa.gov/nextgen/by_the_numbers/.
    \2\ NASA, Overview (Feb. 16, 2015), https://www.nasa.gov/centers/
armstrong/about/overview.html.
---------------------------------------------------------------------------

                       UNMANNED AIRCRAFT SYSTEMS

    Unmanned aircraft systems (UAS)--ranging in size from those 
that can fit in your hand to 40-foot military drones weighing 
16,000 pounds--are proliferating in the NAS. In fact, in its 
most recent aerospace forecast, the FAA estimates that the 
hobbyist (recreational) UAS fleet will more than double over 
the next 4 years--to more than three million units by 2022. For 
the commercial UAS fleet, the FAA projects an increase from 
110,000 units in 2017 to 450,000 units by 2022.\3\ The 
Association for Unmanned Vehicle Systems International (AUVSI) 
estimates that by 2025, the UAS industry will have created more 
than 100,000 new jobs in the United States and have a total 
economic impact of more than $80 billion.\4\
---------------------------------------------------------------------------
    \3\ FAA Aerospace Forecast Report Fiscal Years 2018 to 2038: 
Unmanned Aircraft Systems, available at https://www.faa.gov/
data_research/aviation/aerospace_forecasts/media/FY2018-
38_FAA_Aerospace_Forecast.pdf.
    \4\ AUVSI, The Economic Impact of Unmanned Aircraft Systems 
Integration in the United States (Mar. 2013), available at http://
www.auvsi.org/our-impact/economic-report.
---------------------------------------------------------------------------
    UAS can be small, lightweight, inexpensive, easy to 
operate, and equipped with various technologies, such as 
cameras and infrared or thermal sensors, offering a virtually 
unlimited number of potential applications. UAS can perform 
work that manned aircraft cannot, such as close inspections of 
bridges, pipelines, railroad tracks, runways, and other 
critical infrastructure. UAS can also, among other things, 
image and survey wide swaths of land to monitor wildlife and 
combat animal poaching, inventory and classify forests, and 
deliver products such as medicine or medical supplies to rural 
and physically isolated areas. Over the past 2 years, UAS were 
vital in recovery efforts following hurricane events affecting 
several U.S. States and territories and in responding to 
wildfires that blazed across multiple Western States.\5\
---------------------------------------------------------------------------
    \5\ See, e.g., Andy Pasztor, Drones Play Increasing Role in Harvey 
Recovery Efforts, THE WALL ST. J. (Sept. 4, 2017, 6:51 PM), https://
www.wsj.com/articles/drones-play-increasing-role-in-harvey-disaster-
recovery-efforts-1504474194; Elizabeth McLaughlin, National Guard Using 
Reaper Drone to Fight Wildfires, ABC NEWS (Aug. 15, 2018, 5:17 PM), 
https://abcnews.go.com/US/national-guard-reaper-drone-fight-wildfires/
story?id=57199785.
---------------------------------------------------------------------------

UAS INTEGRATION

    The FAA Modernization and Reform Act of 2012 (Pub. L. 112-
95) required the FAA, in consultation with other Federal 
agencies and industry, to develop a comprehensive plan to 
accelerate the safe integration of civil UAS into the NAS\6\ 
and subsequently issue regulations applicable to the operation 
of small commercial UAS.\7\ In June 2016, the FAA issued its 
final rule on small commercial UAS operations--``Operation and 
Certification of Small Unmanned Aircraft Systems'' (14 C.F.R. 
part 107)--which significantly expanded and standardized the 
ability to conduct commercial UAS activities.\8\ For commercial 
UAS operations, part 107 imposed requirements on UAS pilots\9\ 
and aircraft,\10\ as well as operational limitations. Most 
notably, the UAS must remain within the visual line of sight 
(VLOS) of the remote pilot in command and must not to fly over 
people not involved in the operation.\11\ Operations outside of 
the defined limitations require an FAA-waiver signifying the 
FAA finds the proposed operation can be performed safely. 
Notably, under part 107, no waivers can be issued for 
commercial UAS operations carrying property for compensation or 
hire beyond-VLOS.\12\ This, in effect, bars the ability of U.S. 
companies to conduct package delivery via UAS.
---------------------------------------------------------------------------
    \6\ Pub. L. 112-95, Sec. 332(a).
    \7\ Id. Sec. 332(b).
    \8\ FAA, Operation and Certification of Small Unmanned Aircraft 
Systems, https://www.faa.gov/uas/media/RIN_2120-AJ60_Clean_Signed.pdf. 
See also 14 C.F.R. Sec. 107 (2016).
    \9\ A pilot must be at least 16 years old, obtain a remote pilot 
airman certificate (or be under the direct supervision of a certificate 
holder), demonstrate aeronautical knowledge in order to obtain such a 
certificate, and pass vetting by the Transportation Security 
Administration.
    \10\ An aircraft must weigh less than 55 pounds, and any aircraft 
that weighs more than 0.55 pounds must be registered with the FAA 
online. The aircraft must undergo a pre-flight check to ensure it is in 
a safe operating condition.
    \11\ FAA, Summary of Small Unmanned Aircraft Rule (Part 107), 
https://www.faa.gov/uas/media/Part_107_Summary.pdf. The UAS must also 
fly under 400 feet and at or below 100 miles per hour, during the day, 
yield right of way to manned aircraft, and not from a moving vehicle. 
Id.
    \12\ FAA, Beyond the Basics, https://www.faa.gov/uas/
beyond_the_basics/.
---------------------------------------------------------------------------
    The FAA Extension, Safety, and Security Act of 2016 (Pub. 
L. 114-190) includes a subtitle on UAS safety. Notable 
provisions include requiring the expeditious authorization of 
UAS in support of firefighting operations and fines for those 
who interfere with such operations, and permitting expanded UAS 
operations involving critical infrastructure, such as pipelines 
and facilities that generate electric energy or produce oil or 
gas. The FAA Reauthorization Act of 2018 (Pub. L. 115-254) 
authorizes the FAA to fully regulate hobby and recreational UAS 
in order to ensure the safety and security of U.S. airspace; 
advances the safe and efficient integration of UAS into U.S. 
airspace through the development and testing of new UAS 
technologies; and directs the FAA to move forward with 
authorization of certain advanced operations (e.g., package 
delivery).

OTHER UAS INTEGRATION EFFORTS

    UAS Integration Pilot Program. In October 2017, under the 
directive of a Presidential Memorandum, the Department of 
Transportation (DOT) announced a 3-year ``UAS Integration Pilot 
Program.'' Under the program, DOT selected and entered into 
agreements with ten State, local, or tribal governments, in 
partnership with private entities, to test and validate 
advanced UAS operations and technologies.\13\ The program, 
designed to accelerate the testing of UAS operations that are 
currently restricted (such as beyond-VLOS operations and 
flights over people) allows lower levels of government to 
participate in the development of Federal UAS guidelines and 
regulations.\14\
---------------------------------------------------------------------------
    \13\ DOT, Press Release--U.S. Transportation Secretary Elaine L. 
Chao Announces Unmanned Aircraft Systems Integration Pilot Program 
Selectees (May 9, 2018), https://www.faa.gov/news/press_releases/
news_story.cfm?newsId=22755.
    \14\ FAA, UAS Integration Pilot Program, https://www.faa.gov/uas/
programs_partnerships/uas_integration_pilot_program/splash/.
---------------------------------------------------------------------------
    UTM. The FAA, NASA, other Federal agencies, and industry 
are working closely on the development of UAS Traffic 
Management (UTM).\15\ Similar to how air traffic systems manage 
manned aircraft operations today, UTM will include systems 
necessary to manage UAS traffic in low-altitude airspace, 
allowing the FAA to communicate real-time airspace status and 
constraints to operators,\16\ and provide services to prohibit 
UAS from operating in certain airspace or colliding with other 
aircraft.\17\ UTM will enable complex UAS operations, such as 
beyond-VLOS operations, and is critical to the full integration 
of UAS into the NAS.
---------------------------------------------------------------------------
    \15\ FAA, Unmanned Aircraft System Traffic Management, https://
www.faa.gov/uas/research_development/traffic_management/.
    \16\ Id.
    \17\ NASA, UAS Traffic Management, https://utm.arc.nasa.gov/
index.shtml.
---------------------------------------------------------------------------
    Government-Industry Collaboration. Government and industry 
have collaborated extensively on UAS issues. Key partnerships, 
which have resulted in data and research to help integrate UAS, 
include:
    <bullet>  The Drone Advisory Committee, formed in 2016 to 
support the safe and efficient introduction of UAS into the 
NAS;\18\
---------------------------------------------------------------------------
    \18\ See FAA, Drone Advisory Committee, https://www.faa.gov/uas/
programs_partnerships/drone_advisory_committee/.
---------------------------------------------------------------------------
    <bullet>  UAS Test Sites, established under the 2012 
law,\19\ to develop research findings and operational 
experiences that will help ensure the safe integration of UAS 
through regulations and operational procedures;\20\
---------------------------------------------------------------------------
    \19\ Pub. L. 112-95, Sec. 332(c). Current UAS test sites are 
located in Alaska, Nevada, New Mexico, New York, North Dakota, Texas, 
and Virginia.
    \20\ FAA, Fact Sheet--FAA UAS Test Site Program (Dec. 30, 2013), 
https://www.faa.gov/news/fact_sheets/news_story.cfm?newsId=15575.
---------------------------------------------------------------------------
    <bullet>  The FAA's UAS Center of Excellence--the Alliance 
for System Safety of UAS through Research Excellence (ASSURE)--
comprises more than 20 leading aviation research universities 
that work to provide the FAA with the research needed to safely 
and efficiently integrate UAS into the NAS;\21\ and
---------------------------------------------------------------------------
    \21\ See ASSURE, About Us, http://www.assureuas.org/about.php.
---------------------------------------------------------------------------
    <bullet>  The Low Altitude Authorization and Notification 
Capability (LAANC) (pronounced like ``Lance''), launched in 
October 2017, is a system that can enable efficient (almost 
instantaneous) authorizations for otherwise-permissible UAS 
operations in controlled airspace (e.g., near an airport). 
LAANC supplements a manual process that takes 80 days on 
average to complete. LAANC is available today at nearly 300 FAA 
air traffic control facilities across the United States, 
covering approximately 500 airports.\22\
---------------------------------------------------------------------------
    \22\ FAA, UAS Data Exchange (LAANC), https://www.faa.gov/uas/
programs_partnerships/data_exchange/.
---------------------------------------------------------------------------

CHALLENGES TO UAS INTEGRATION

    Safety. The FAA receives more than 100 UAS sighting reports 
each month.\23\ While the Government Accountability Office 
(GAO) has concluded that the extent to which these reports 
represent actual incidents of unsafe UAS use is unclear,\24\ 
the volume of the reported sightings reflects the risk of 
collision between UAS and manned aircraft near airports, 
critical infrastructure, and over populated areas. For example, 
in late 2017, a UAS collided with and damaged a U.S. Army UH-60 
Black Hawk helicopter near Staten Island, New York.\25\ Another 
UAS struck a commercial plane with 8 passengers onboard as it 
approached the Jean Lesage International Airport in Quebec 
City, Canada.\26\ More recently, a UAS spotted near London's 
Gatwick Airport led to the cancellation or diversion of 
approximately 1,000 flights, affecting nearly 150,000 
passengers.\27\ UAS technology such as geofencing, collision 
avoidance, automatic landing, and return-to-home technology can 
help UAS prevent accidents with other aircraft, infrastructure, 
and people; however, the standardization, security, and 
availability of this technology are limited and not currently 
mandated.\28\
---------------------------------------------------------------------------
    \23\ FAA, UAS Sightings Report, https://www.faa.gov/uas/resources/
public_records/uas_sightings_report/.
    \24\ GAO, Small Unmanned Aircraft Systems, FAA Should Improve Its 
Management of Safety Risks, GAO-18-110 (May 2018).
    \25\ David Shepardson, U.S. Probing Collision Between Civilian 
Drone, Army Helicopter, REUTERS (Oct. 5, 2017, 12:30 PM), https://
www.reuters.com/article/us-usa-military-drone/u-s-probing-collision-
between-civilian-drone-army-helicopter-idUSKBN1CA1Z0.
    \26\ Travis Andrews, A Commercial Airplane Collided With a Drone in 
Canada, a First in North America, WASH. POST (Oct. 16, 2017), https://
www.washingtonpost.com/news/morning-mix/wp/2017/10/16/a-commercial-
airplane-collided-with-a-drone-in-canada-a-first-in-north-america/
?utm_term=.1337b42f8e49.
    \27\ Jamie Grierson, Gatwick Returns to Normality but Drone Threat 
Remains, THE GUARDIAN (Jan. 4, 2019, 12:32 PM), https://
www.theguardian.com/world/2019/jan/04/gatwick-returns-to-normality-but-
drone-threat-remains.
    \28\ Tim Moynihan, Things Will Get Messy if We Don't Start 
Wrangling Drones Now, WIRED MAG. (Jan. 30, 2016, 7:00 AM), https://
www.wired.com/2016/01/things-will-get-messy-if-we-dont-start-wrangling-
drones-now.
---------------------------------------------------------------------------
    Security. Identification of UAS operators is a key concern 
of the FAA and law enforcement community. The FAA Extension, 
Safety, and Security Act of 2016 required the FAA to convene 
industry stakeholders to facilitate the development of 
consensus standards for remotely identifying operators and 
owners of UAS, which would assist the FAA in the issuance of 
subsequent regulations or guidance, including those that allow 
expanded commercial UAS operations over people and beyond-VLOS. 
On December 20, 2018, the FAA issued a request for information 
to inform ongoing remote identification rulemaking. To date, 
the FAA has not issued a proposed rule on remote identification 
standards for UAS operations.

                        URBAN AIR MOBILITY (UAM)

    Americans lost, on average, 97 hours a year due to traffic 
congestion in the United States, costing them nearly $87 
billion in 2018, according to a recent industry report.\29\ 
This not only impacts drivers, but also has harmful effects on 
businesses.\30\ With recent advances in technology, flying 
cars, passenger air vehicles or taxis, and personal hovercraft 
may take to the skies as early as 2020. More than 70 concepts 
are reportedly in development and testing.\31\ These concepts 
have the potential to reduce traffic congestion on U.S. roads 
and commute times, especially in cities and urban areas, and 
lessen the current burden on surface infrastructure.
---------------------------------------------------------------------------
    \29\ INRIX, Congestion Costs Each American 97 Hours, $1,348 A Year 
(Feb. 11, 2019), http://inrix.com/press-releases/scorecard-2018-us/.
    \30\ See id.
    \31\ Samantha Masunaga, A New Generation of Flying Cars is Taking 
to the Air. But Without the Cars, L.A. TIMES (Feb. 22, 2019, 5:00 AM), 
https://www.latimes.com/business/la-fi-flying-cars-20190222-story.html.
---------------------------------------------------------------------------
    Take Off and Landing. These aircraft must be small and 
lightweight, compared to conventional aircraft, so many 
concepts will rely on batteries and electric engines. While 
some concepts are designed to drive on the road before 
transitioning to flight mode with airplane-like wings,\32\ 
others will operate as vertical takeoff and landing (VTOL) 
aircraft, with multiple rotors like a helicopter.\33\ VTOL 
aircraft can lift off from existing city infrastructure (such 
as modified parking garage rooftops) instead of airports or 
long runways.\34\
---------------------------------------------------------------------------
    \32\ See, e.g., Terrafugia, The Transition, https://terrafugia.com/
transition/.
    \33\ See, e.g., Aurora Flight Sciences: A Boeing Company, PAV--
Passenger Air Vehicle, https://www.aurora.aero/pav-evtol-passenger-air-
vehicle/.
    \34\ See Gideon Lichfield, When Will We Have Flying Cars? Maybe 
Sooner Than You Think, MIT TECH. REV. (Feb. 13, 2019), https://
www.technologyreview.com/s/612891/when-will-we-have-flying-cars-maybe-
sooner-than-you-think/.
---------------------------------------------------------------------------
    Anticipated Operations. Unlike conventional aircraft, these 
aircraft are intended to fly at low altitudes and across short 
to medium distances, often in heavily congested areas.\35\ Some 
UAM concepts include plans to fly more than 100 miles per hour 
and close to 1 hour on a single battery charge. Current models 
can be single-seated, or carry as many as five passengers.\36\
---------------------------------------------------------------------------
    \35\ CRS, Flying Cars and Drones Pose Policy Challenges for 
Managing and Regulating Low-Altitude Airspace (July 23, 2018), 
available at https://fas.org/sgp/crs/misc/IN10934.pdf.
    \36\ See Jeremy Bogaisky, Your Flying Car May Be Almost Here, 
FORBES (May 31, 2018), https://www.forbes.com/sites/jeremybogaisky/
2018/05/24/your-flying-car-is-almost-here/#4c7d6aeb5724.
---------------------------------------------------------------------------
    Ownership. While some of these concepts contemplate 
personal ownership and use, other companies' models rely on 
ride-sharing (i.e., air taxis) to reduce operational costs and 
ensure accessibility. These companies anticipate these concepts 
will be an affordable and a viable option for the traveling 
public, especially in urban areas.\37\ Some companies claim 
their air taxi concepts will be less expensive than personal 
car ownership.\38\
---------------------------------------------------------------------------
    \37\ See MIT, supra note 34.
    \38\ See Uber Elevate, Fast-Forwarding to a Future of On-Demand 
Urban Air Transportation, 3 (Oct. 2016), available at https://
www.uber.com/elevate.pdf.
---------------------------------------------------------------------------

UAM INTEGRATION AND CHALLENGES

    Safety and Security. Unlike small UAS, which generally 
weigh less than 55 pounds, UAM concepts will be heavier, 
typically with a pilot and one or more passengers on board. A 
mid-flight event, such as a failed battery or structural 
failure, could pose significant safety risks to the vehicle's 
occupants and to people and property on the ground, 
particularly if the vehicle is used in congested urban areas. 
UAM concepts, like small UAS, will fly in low-altitude 
airspace, and will need to be safely integrated with 
conventional airspace users, especially around airports. Not 
unlike unauthorized helicopter operations, unauthorized UAM 
operations, such as those over critical infrastructure or other 
restricted or sensitive areas, could pose even greater safety 
and security risks than small UAS.\39\
---------------------------------------------------------------------------
    \39\ See id. See also CRS, supra note 35.
---------------------------------------------------------------------------
    Air Traffic Management. Like small UAS, these aircraft 
would generally operate in low-altitude airspace (below 400-500 
feet); however, some may fly as high as 2,000 feet above ground 
level. Such operations would pose challenges to traditional FAA 
air traffic control methods of managing air traffic and 
separation, particularly in urban settings and with large 
volumes of these vehicles and small UAS in the vicinity.\40\ 
Technologies currently in development such as UTM--a system 
that can provide airspace design, dynamic geofencing, conflict 
avoidance, and separation and sequencing for small UAS--will 
assist the FAA in safely separating flying cars from other 
aircraft.\41\
---------------------------------------------------------------------------
    \40\ Id.
    \41\ Id.
---------------------------------------------------------------------------
    Pilot Training and Certification. The FAA is charged with 
ensuring aviation safety, which includes establishing the 
requirements for a pilot's license and the standards for the 
design, production, and maintenance of aircraft. In many cases, 
the FAA's current regulatory framework does not contemplate UAM 
concepts and their anticipated business models.\42\ The FAA 
will need to provide this framework to allow the safe 
integration of these new technologies and operations.
---------------------------------------------------------------------------
    \42\ See id.; MIT, supra note 34.
---------------------------------------------------------------------------
    Noise and Emissions. Many UAM concepts would rely on 
electric propulsion technology to operate, thereby having no 
direct emissions and emitting little noise relative to 
conventional airplanes and large trucks. Low noise and 
emissions will be necessary to their acceptance and utility in 
heavily populated settings.\43\
---------------------------------------------------------------------------
    \43\ Uber Elevate, supra note 38, at 6.
---------------------------------------------------------------------------
    Weather. A UAM aircraft, like other aircraft, would be much 
more sensitive than a traditional ground vehicle to inclement 
weather. To ensure safe operations, these concepts will require 
the physical and operational standards necessary to avoid 
unsafe weather and to fly safely in weather conditions like 
rain and strong wind that do not preclude safe flight.\44\
---------------------------------------------------------------------------
    \44\ See id. at 70-73.
---------------------------------------------------------------------------
    State and Local Participation. Federal aviation statutes 
and regulations preempt State and local laws respecting 
aviation,\45\ which includes the regulation of aviation safety, 
the use of airways, and aircraft certification. The supremacy 
of Federal authority has led to a consistent regulatory 
structure for all airspace users, ensuring safety and 
efficiency across the NAS.\46\ In the UAS context, States and 
cities have sought to enact laws and regulations that control 
or restrict UAS operations,\47\ potentially in contradiction to 
Federal law. Defining and delineating Federal, State, and local 
responsibilities with respect to both UAS and urban air 
mobility will continue to be a topic of discussion and need to 
be addressed as these operators are safely integrated into the 
NAS.
---------------------------------------------------------------------------
    \45\ See, e.g., city of Burbank v. Lockheed Air Terminal, Inc., 411 
U.S. 624, 638-39 (1973) (recognizing the need for a ``uniform and 
exclusive system of Federal regulation if the congressional objectives 
underlying the Federal Aviation Act are to be fulfilled'').
    \46\ See CRS, supra note 35.
    \47\ See id.
---------------------------------------------------------------------------

                          SUPERSONIC AIRCRAFT

    Supersonic flight is faster than the speed of sound, which 
can be upwards of 750 miles per hour.\48\ The Concorde aircraft 
performed the first trans-oceanic commercial supersonic 
passenger flight in 1976, flying at twice the speed of sound 
and at a cruising altitude of 65,000 feet. Concorde flights 
could cut the duration of a subsonic trans-Atlantic flight in 
half. More than 2.5 million passengers flew at supersonic 
speeds along a limited number of routes until the Concorde 
terminated service in 2003; no supersonic passenger aircraft 
have flown since that time.\49\
---------------------------------------------------------------------------
    \48\ CRS, Supersonic Passenger Flights, 1 (Nov. 14, 2018), 
available at https://fas.org/sgp/crs/misc/R45404.pdf.
    \49\ Id. at 1-3.
---------------------------------------------------------------------------
    Several factors contributed to the Concorde's lack of 
widespread success. Concorde aircraft were expensive to 
operate, particularly due to high fuel consumption. These high 
operating costs meant a roundtrip on the Concorde could cost as 
much as $15,000 U.S. dollars today.\50\ The aircraft itself 
also had limited cargo space, preventing airlines from 
generating additional revenue by transporting cargo or mail. In 
addition, unlike traditional subsonic flight, the Concorde's 
design and speed created a ``shock wave,'' experienced by 
people on the ground as a ``sonic boom'' as it passed overhead. 
This aircraft noise led to many countries banning supersonic 
flights from their airspace, limiting the number of routes the 
Concorde could fly.\51\
---------------------------------------------------------------------------
    \50\ Id.
    \51\ See id.
---------------------------------------------------------------------------
    There has been a revival of interest in supersonic flight 
since the end of the Concorde in 2003. In addition to the time 
that can be saved traveling at supersonic speeds, the 
advancement of technology, materials and composites, aircraft 
design, and manufacturing can make the aircraft lighter, 
improve fuel efficiency, and reduce noise impacts. Several 
domestic and foreign airlines have already purchased options 
for supersonic aircraft in design and testing, and the first 
delivery of a supersonic aircraft to an airline may occur as 
early as 2025.\52\
---------------------------------------------------------------------------
    \52\ See id. at 6-7.
---------------------------------------------------------------------------

SUPERSONIC AIRCRAFT INTEGRATION AND CHALLENGES

    There are several challenges to the integration of 
supersonic aircraft into U.S. airspace, beyond aircraft design 
and public acceptance. Today, there are no international 
certification, noise, or emission standards for supersonic 
aircraft under development.\53\ In addition, varying 
operational standards from country-to-country will prohibit 
many routes at the start. For instance, FAA regulations 
prohibit supersonic flight in the continental United States 
that cause a sonic boom.\54\
---------------------------------------------------------------------------
    \53\ Id. at 7.
    \54\ Id. at 3, 8.
---------------------------------------------------------------------------
    Congress sought to address some of these issues in the FAA 
Reauthorization Act of 2018. The law requires the FAA to 
exercise international leadership in the creation of Federal 
and international policies and standards regarding the 
certification and operation of supersonic aircraft. The FAA is 
required to submit a report to Congress with recommended 
regulatory changes related to supersonic aircraft and a 
timeline for executing those changes. The law also requires 
that, within the next 2 years, the FAA issue notices of 
proposed rulemaking to update noise standards for supersonic 
aircraft and to modernize the application process to operate 
supersonic aircraft.\55\
---------------------------------------------------------------------------
    \55\ See Pub. L. 115-294, Sec. 181.
---------------------------------------------------------------------------

                  OTHER FUTURE AEROSPACE TECHNOLOGIES

    Looking ahead to 2050, there are a number of exciting 
technologies, designs, and operational models that have the 
potential to vastly change transportation. Advances in 
aircraft, commercial space vehicle, and engine designs, such as 
the use of composite airframes and parts, hybrid-electric and 
all-electric engines, and highly flexible, lightweight wings, 
as well as new commercial space transportation launch vehicles 
are under development and promise more efficient and 
environmentally friendly operations. Alternative fuels and fuel 
sources also show great promise to reduce aviation's 
environmental footprint. Commercial space transportation will 
continue to grow and will need to be safely integrated into the 
NAS. What this new mode of transportation will mean for travel 
and shipping on a global level is still to be determined. 
Technologies to improve air traffic control and space traffic 
management will need to keep up with new entrants, 
technologies, and business models. In the next 30 years, there 
will doubtless be other examples of American innovation and 
ingenuity that cannot even be conceived of today, but will 
change and improve the safety, availability, and efficiency of 
the National and global transportation system.

                               WITNESSES

    <bullet>  Mr. David McBride, Director, Armstrong Flight 
Research Center, National Aeronautics and Space Administration
    <bullet>  Ms. Diana Cooper, Senior Vice President, Policy & 
Strategy, PrecisionHawk, Inc.
    <bullet>  Dr. Eli Dourado, Head of Global Policy and 
Communications, Boom
    <bullet>  Mr. Eric Allison, Head of Elevate, Uber 
Technologies, Inc.
    <bullet>  Captain Joe DePete, President, Air Line Pilots 
Association, International


                     LOOKING FORWARD: AVIATION 2050

                              ----------                              


                        TUESDAY, MARCH 12, 2019

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:01 a.m. in 
room HVC-210, Capitol Visitor Center, Hon. Rick Larsen 
(Chairman of the subcommittee) presiding.
    Mr. Larsen. The subcommittee will come to order. I will 
start with my opening statement, and then I want to say good 
morning and thank you to today's witnesses to join the 
subcommittee's discussion on aviation 2050.
    However, I do want to start today by acknowledging the 
tragedy of Sunday's crash of Ethiopian Airlines flight 302 near 
Addis Ababa, Ethiopia. Eight Americans and twenty-one United 
Nations employees were among the 157 people who died in the 
crash.
    Chair DeFazio, committee staff, and I have been in contact 
with the National Transportation Safety Board, the Federal 
Aviation Administration, and Boeing about the accident, and we 
continue to closely monitor the investigation.
    I want committee members to know a couple of things. First, 
that the NTSB, the U.S.-accredited representative and lead for 
the United States, will assist and is assisting Ethiopian 
authorities in this investigation, and currently has people in 
Ethiopia. Right now the important thing is that relevant 
agencies are allowed to conduct a thorough and careful 
investigation. The Ethiopian Accident Investigations Bureau is 
the lead on this investigation, with support from NTSB and 
others.
    Second, the FAA and Boeing, as well, have personnel in 
Ethiopia to assist the investigation.
    Third, the FAA issued a continued airworthiness 
notification to the international community yesterday stating 
pilots should continue to use Boeing's operational safety 
protocols, as previously directed, following the Lion Air 
crash, and American carriers must install design changes no 
later than April of 2019.
    The notification does not currently call for the grounding 
of the 737 MAX fleet.
    I encourage all Members to monitor the situation 
themselves, and I want you to know that staff is available to 
any Member for any questions that you have surrounding the 
investigation, and can provide updates to you as they become 
available.
    Now on with my statement for the hearing.
    Certainly with safety as a guiding principle for this 
subcommittee, I look forward to spending time exploring what is 
on the horizon for aviation and aerospace. For this 
subcommittee, aviation and aerospace 2050 means fostering 
technological innovation and improving the Nation's 
competitiveness in the global marketplace.
    One of the reasons we are holding this hearing is because 
we want to set the record of this subcommittee for the future. 
Today's witnesses represent several of the emerging entrants in 
the national airspace, from unmanned aircraft to passenger air 
vehicles and supersonic flight.
    I am also very pleased current users are at the table. You 
will all play a vital role in the discussion on how to safely 
integrate these new technologies in our national airspace.
    As we discuss the possibilities for aviation and aerospace 
in the next 30 years, Congress must also ensure the U.S. 
remains the global safety standard in flight.
    Last fall Congress passed the longest Federal Aviation 
Administration reauthorization in decades. The bipartisan 5-
year agreement supports important aerospace jobs across the 
U.S., as well as better prepares and diversifies the aviation 
workforce. The new law raises the bar on aviation safety, 
increases global competitiveness of domestic aerospace 
manufacturers and suppliers, and safely advances drone 
operations in U.S. airspace.
    With the FAA bill as a foundation, the subcommittee can now 
look ahead to explore not only what is possible and on the 
horizon in aviation and aerospace, but what is needed to ensure 
the United States keeps innovating.
    One area we will continue to see tremendous growth is in 
unmanned aircraft systems, or UAS, or drones. UAS are 
flourishing in the skies at a pace we did not imagine 10 years 
ago. The FAA estimates that the use of small hobbyist drones 
will double in size to more than 3 million units by 2022, and 
the commercial drone fleet will quadruple to approximately 
450,000 units in that same timeframe.
    There is no denying the extensive societal and commercial 
benefits of unmanned aircraft and their applications. Drones 
are used to perform critical infrastructure inspections of 
bridges and railroads, and assist in recovery efforts following 
natural disasters and wildfires.
    With new and advanced operations aiming to take flight, 
several issues need to be explored. Inherent in the growth of 
this technology are the risks to critical assets, like 
airports. And while we want UAS integration to be efficient, we 
first must ensure it is safe.
    Just skipping ahead, on supersonic, because of the 
advancements in technology, materials, and manufacturing, 
supersonic aircraft are on the horizon. Actually, they are back 
on the horizon. These flights can cut trans-oceanic traveling 
times in half, supporting passengers and international 
business. The United States does not yet have the regulatory 
framework to allow supersonic flight, and Congress must stay 
ahead of the curve or this may lead to missed opportunities.
    One question you might answer in today's testimony is how 
is this different from what is currently available. Foreign 
airlines are already investing in a U.S. supersonic aircraft 
company.
    Last year's FAA reauthorization directs the agency to 
exercise leadership in the creation of Federal regs and 
standards relating to the certification and safe and efficient 
operation of civil supersonic aircraft. The FAA says it will 
initiate two rulemaking activities on civil supersonic 
aircraft. Congress must ensure these initiatives stay on track.
    I look forward to hearing from today's witness about the 
potential benefits of supersonic transport and challenges we 
have to address to ensure there is safe and appropriate 
integration of technology.
    With timely input from new entrants and legacy users, U.S. 
aviation will be able to tailor products and services to better 
meet growing passenger demands and address local challenges, 
such as noise and greenhouse gas emissions. Two weeks ago the 
Transportation and Infrastructure Committee held a hearing 
about pragmatic solutions to address the impacts of climate 
change, as well as the aviation industry's role in these 
efforts.
    The aviation industry has already committed to improving 
fuel efficiency by 1.5 percent per year, which began in 2010, 
achieving carbon neutral growth starting next year, and cutting 
net carbon dioxide emissions by 50 percent by 2050. I have had 
the chance to visit a few of these companies in my district at 
the forefront of innovative, energy-efficient aviation 
technology.
    For example, Zunum Aero in Bothell, Washington, is 
developing hybrid electric aircraft capable of flying up to 12 
people between 350 and 500 miles. The company aims to bring the 
aircraft to market as soon as 2022. Zunum projects its 
electrical propulsion prototype will cut community and cabin 
noise by an estimated 75 percent, and emissions by 80 percent.
    And finally, the future of work. Emerging tech advances in 
U.S. aviation are only possible if Congress invests in and 
supports the next generation of engineers, mechanics and 
innovators. Unfortunately, the U.S. is not keeping pace with 
growing demands for talented individuals in the STEM fields. 
According to the Boston Consulting Group, there are 25,000 
unfilled STEM jobs in Washington State alone, just in 1 State.
    Last year's FAA bill includes a comprehensive workforce 
development title, including my provision to create a new task 
force to come up with ways to encourage high school students to 
enroll in aviation manufacturing, maintenance and engineering 
apprenticeships. The bill also creates two new grant programs 
to support pilot education and recruit aviation maintenance 
workers. Improving access to workforce training and preparing 
students to succeed is an all-around win for employers, job 
seekers, and the aviation and aerospace sectors.
    U.S. innovation is the backbone of the Nation's economy and 
culture, and aviation 2050 is the next chapter in our 
leadership in this field. Communities have already seen and 
experienced the significant impact of emerging technologies, 
and we must prepare for what is to come.
    The future of U.S. aviation and aerospace industries is 
bright. But Congress must play an important role to ensure the 
FAA takes steps to outline today in a timely manner, so U.S. 
companies can continue to innovate and remain globally 
competitive.
    So again, thank you to today's witnesses. I look forward to 
this discussion.
    [Mr. Larsen's prepared statement follows:]

                                 <F-dash>
 Prepared Statement of Hon. Rick Larsen, a Representative in Congress 
   from the State of Washington, and Chair, Subcommittee on Aviation
    Good morning and thank you to today's witnesses for joining the 
Subcommittee's discussion on ``Aviation 2050.''
    I want to start today by acknowledging the tragedy of Sunday's 
crash of Ethiopian Airlines Flight 302 near Addis Ababa, Ethiopia.
    Eight Americans and 21 United Nations employees were among the 157 
people who died in the crash.
    Chair DeFazio, Committee staff and I are in contact with the 
National Transportation Safety Board, the Federal Aviation 
Administration and Boeing about the accident and continue to closely 
monitor the investigation.
    Committee members should know:
    First, the NTSB, the U.S. accredited representative and lead for 
the United States, will assist Ethiopian authorities in this 
investigation and has people in Ethiopia.
    Right now, the most important thing is that relevant agencies are 
allowed to conduct a careful and thorough investigation.
    The Ethiopian Accident Investigations Bureau is the lead on the 
investigation with support from NTSB and others.
    Second, the FAA and Boeing have personnel in Ethiopia to assist in 
the investigation.
    Third, the FAA issued a Continued Airworthiness Notification to the 
International Community yesterday stating pilots should continue to use 
Boeing's operational safety protocols as previously directed following 
the Lion Air crash, and American carriers must install design changes 
no later than April 2019.
    The Notification does not currently call for the grounding of the 
737 MAX fleet. I encourage all Members to monitor this situation 
themselves, but staff is available to Members for any questions you 
have surrounding the investigation and can provide updates as they 
become available.
    With safety as the guiding principle for this Subcommittee, I look 
forward to spending time today exploring what is on the horizon for 
aviation and aerospace.
    For this Subcommittee, aviation and aerospace 2050 means fostering 
technological innovation and improving the nation's competitiveness in 
the global marketplace.
    One of the reasons we are holding this hearing is because we want 
to set the record of this Subcommittee for the future.
    Today's witnesses represent several of the emerging entrants in the 
national airspace from unmanned aircraft to passenger air vehicles and 
supersonic flight.
    I am also pleased current users are at the table. You will play a 
vital role in the discussion on how to safely integrate these new 
technologies.
    As we discuss the exciting possibilities for aviation and aerospace 
in the next 30 years, Congress must also ensure the U.S. remains the 
global safety standard in flight.
    Last fall, Congress passed the longest Federal Aviation 
Administration (FAA) reauthorization bill in decades.
    The bipartisan five-year agreement supports important aerospace 
jobs across the U.S., key to my home state of Washington, as well as 
better prepares and diversifies the aviation workforce.
    The new law raises the bar on aviation safety, increases the global 
competitiveness of domestic aerospace manufacturers and suppliers and 
safely advances drone operations in U.S. airspace.
    With the FAA bill as a foundation, the Subcommittee can now look 
ahead to explore not only what is possible and on the horizon in 
aviation and aerospace, but what is needed to ensure the United States 
keeps innovating.
    One area where we will continue to see tremendous growth is in 
unmanned aircraft systems (UAS), or drones.
    UAS are flourishing in the skies at a pace we did not imagine ten 
years ago.
    The FAA estimates the use of small hobbyist drones will double in 
size to more than 3 million units by 2022 and the commercial drone 
fleet will quadruple to approximately 450,000 units in that same 
timeframe.\1\
---------------------------------------------------------------------------
    \1\ FAA Aerospace Forecast Report Fiscal Years 2018 to 2038: 
Unmanned Aircraft Systems, available at https://www.faa.gov/
data_research/aviation/aerospace_forecasts/media/FY2018-
38_FAA_Aerospace_Forecast.pdf.
---------------------------------------------------------------------------
    There is no denying the extensive societal and commercial benefits 
of unmanned aircraft and their applications.
    Drones are used to perform critical infrastructure inspections of 
bridges and railroads and assist in recovery efforts following natural 
disasters and wildfires.
    With new and advanced operations aiming to take flight, several 
issues need to be explored.
    Inherent in the growth of this technology are the risks to critical 
assets, like airports.
    While we want UAS integration to be efficient, we first must ensure 
it is safe.
    The FAA reauthorization bill includes a robust title on UAS to help 
the commercial drone industry safely thrive, while also addressing the 
complexities of integration into U.S. airspace.
    Paramount to any comprehensive regulatory framework for drone 
operations is the development and implementation of the FAA's remote 
identification rule.
    Without a reliable mechanism to remotely identify and track drones, 
successful and advanced UAS operations will be nearly impossible.
    The U.S. aviation economy cannot risk domestic companies going 
abroad for testing, development and deployment if this rule is not in 
place.
    There are lessons to be learned from the FAA's efforts to integrate 
drones to keep the agency ahead of the curve when it comes to future 
entrants.
    I look forward to exploring these topics with today's witnesses.
    Further, passenger air vehicle concepts will continue to expand and 
have many potential benefits to communities like reducing traffic 
congestion.
    These vehicles can reduce demand on structurally compromised roads 
and bridges by carrying commuters through the air, at low altitudes.
    Because of the advancements in technology, materials and 
manufacturing, supersonic aircraft are on the horizon.
    These flights can cut trans-oceanic traveling times in half, 
supporting passengers and international business.
    The United States does not yet have the regulatory framework to 
allow supersonic flight. Congress must stay ahead of the curve or this 
may lead to missed opportunities.
    One question you might answer in today's testimony is how is this 
different from what is currently available?
    Foreign airlines are already investing in a U.S. supersonic 
aircraft company.
    Last year's FAA reauthorization directs the agency to exercise 
leadership in the creation of federal regulations and standards 
relating to the certification and safe and efficient operation of civil 
supersonic aircraft.
    The FAA says it will initiate two rulemaking activities on civil 
supersonic aircraft. Congress must ensure these initiatives stay on 
track.
    I look forward to hearing from today's witness about the potential 
benefits of supersonic transport and challenges we must address to 
ensure the safe and appropriate integration of this technology.
    With timely input from new entrants and legacy users, U.S. aviation 
will be able to tailor products and services to better meet growing 
passenger demands and address local challenges, such as noise and 
greenhouse gas emissions.
    Two weeks ago, the Transportation and Infrastructure Committee held 
a hearing about pragmatic solutions to address the impacts of climate 
change, as well as the aviation industry's role in these efforts.
    The aviation industry has already committed to improving fuel 
efficiency by 1.5 percent per year, which began in 2010, achieving 
carbon neutral growth starting next year and cutting net carbon dioxide 
emissions by 50 percent by 2050.
    I have had the chance to visit a few companies in my district at 
the forefront of innovative, energy efficient aviation technology.
    For example, Zunum Aero in Bothell, Washington, is developing 
hybrid electric aircraft capable of flying up to 12 people between 350 
and 500 miles. The company aims to bring the aircraft to market as soon 
as 2022.
    Zunum projects its electric propulsion prototype will cut community 
and cabin noise by an estimated 75 percent and emissions by 80 
percent.\2\
---------------------------------------------------------------------------
    \2\ https://zunum.aero/our-charge/
---------------------------------------------------------------------------
    Emerging technological advances in U.S. aviation are only possible 
if Congress invests in and supports the next generation of engineers, 
mechanics and innovators.
    Unfortunately, the U.S. is not keeping pace with growing demands 
for talented individuals to work in STEM fields.
    Part of global competitiveness means ensuring a robust pipeline of 
talent.
    According to the Boston Consulting Group, there are 25,000 unfilled 
STEM jobs in Washington state alone.
    Last year's FAA bill includes a comprehensive workforce development 
title, including my provision to create a new task force to come up 
with ways to encourage high school students to enroll in aviation 
manufacturing, maintenance and engineering apprenticeships.
    The bill also creates two new grant programs to support pilot 
education and recruit aviation maintenance workers.
    Improving access to workforce training and preparing students to 
succeed is an all-around win for employers, job seekers and the 
aviation and aerospace sectors.
    U.S. innovation is the backbone of the nation's economy and 
culture.
    Aviation 2050 is the next chapter in our leadership in this field.
    Communities have already seen and experienced the significant 
impact of emerging technologies and must prepare for what is to come.
    The future of U.S. aviation and aerospace industries is bright. 
Congress must play an important role to ensure the FAA takes the steps 
outlined today in a timely manner, so U.S. companies can continue to 
innovate and remain globally competitive.
    Again, thank you to today's witnesses. I look forward to this 
discussion.

    Mr. Larsen. And I call on the ranking member of the 
subcommittee, Mr. Graves, for an opening statement.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman. And I 
want to thank all of you for being here today. And similarly, 
before I start my opening remarks, I do want to make note that 
we certainly are paying close attention to the multiple 
aviation accidents that have occurred in recent days, and 
paying a special attention to the Ethiopian Air accident that 
occurred that killed 157, including 8 Americans.
    We have also been in touch with Chairman Larsen, with FAA, 
NTSB, Boeing, and other stakeholders.
    But I also want to point out, as included in Mr. McBride's 
testimony, that air travel is the safest form of transportation 
in the world today. That doesn't mean we need to stop. We need 
to continue striving to ensure that it becomes even safer every 
single year, as we learn lessons from different incidents and 
accidents.
    We don't know yet what caused these accidents, but we are 
going to be paying close attention, and ensure that lessons 
learned from these accidents are applied to the future, as 
well.
    It is important with this hearing focusing on 2050 that we 
actually take a look back, and look at how air travel--for 
example, back in 1988, you had well over 700 deaths from air 
travel from different airlines. I think it was nearly 30 
different accidents across the world. And looking back at the 
extraordinary reduction in deaths, while we have seen an 
exponential increase in the number of airline passengers that 
are boarding airplanes annually.
    Back in 1988 Chairman DeFazio just finished his first 
congressional hearing. Don Young, after teaching pilgrims how 
to grow corn, became the longest-serving Republican Member of 
Congress from Alaska. And I want to make note that just in 
recent weeks Congressman Young is the longest-serving 
Republican Member of Congress ever. Nineteen eighty-eight was a 
while ago. Airlines like Pan Am, TWA, and Eastern were crossing 
our skies. We had just implemented the smoking ban on airplanes 
in that year. We have come a long way, and it is an exciting 
opportunity to think about what 31 years from now will truly 
look like.
    We have a chance to totally reinvent the airspace, not only 
incorporating new entrants like drones, flying cars, commercial 
space travel, but also the chance to pave the way for the next 
big idea that changes the way that Americans travel.
    We in Congress usually are responding or being reactive. We 
are dealing with how things are, not the way that we want them 
to be.
    And having worked for many years in areas like water 
infrastructure and transportation infrastructure, aviation is 
exciting. And that, as witnessed by the folks on the panel 
today--this industry is driven by the private sector and 
obviously, Mr. McBride, as you note in your testimony, with 
much R&D and support from NASA and our Federal partners, but it 
is driven by the private sector.
    And as Ms. Cooper notes in her testimony with part 107 
implementation it somewhat allowed us to lead the world in 
different types of innovation and technology. But we also, if 
we do not continue to be pushing, to be planning for the 
future, to listen to folks like you on how we can lay the 
groundwork to continue innovation, we risk losing that 
competitive edge. We risk losing innovation. We risk losing the 
opportunity to truly lead the world in infrastructure.
    My home State of Louisiana, Baton Rouge and New Orleans are 
two of the most traffic-congested areas in the Nation. And 
looking at technologies like we are going to hear from Mr. 
Allison on Uber Elevate, and how that type of technology can 
play into addressing our traffic transportation and 
infrastructure planning in the future, is truly exciting.
    And Captain DePete, hearing about how we are going to 
address, as is noted in testimony, the nearly 790,000 pilots 
that are going to be needed in the future, and addressing that 
demand for aviation travel, is something that we are going to 
need to be spending a lot of time on.
    Last note. When you look back at the onset of aviation 
travel, we were using prop planes. And when we transitioned 
into jets, we were able to reduce to nearly one-third the 
amount of time it took to travel. With technology--we are going 
to hear from Mr. Dourado today--we could potentially cut that 
again by one-half. I mean this is really exciting times. It is 
not like transportation infrastructure or water infrastructure, 
roads and water. This is an opportunity for us to be thinking 
forward, leaning forward, and truly planning for the future.
    I am looking forward to hearing your testimony and learning 
how we can lay the groundwork to ensure that we are a partner, 
and not an obstacle.
    [Mr. Graves's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Hon. Garret Graves, a Representative in Congress 
   from the State of Louisiana, and Ranking Member, Subcommittee on 
                                Aviation
    Thank you, Mr. Chairman, for calling today's hearing.
    Before we begin, I want to acknowledge the multiple aviation 
accidents that occurred worldwide over the weekend, including the crash 
in Ethiopia that killed 157 people, eight of whom were Americans. While 
we don't yet know what caused the accident, it is a sobering reminder 
that safety must always be our first priority. That is true today, and 
will still be the case in 2050.
    It's hard for me to imagine what our aerospace industry will be 
like that far in the future, so it's worth looking at what it was like 
31 years ago in 1988.
    Chairman DeFazio had just finished up his first year in Congress. 
Representative Don Young was already the longest serving House member 
in Alaskan history.
    Only 450 million passengers boarded airlines and 481,000 people 
worked in an industry that still included airlines like Pan Am, TWA, 
and Eastern. The skies weren't as safe--729 passengers died in 28 fatal 
airline accidents, including the bombing over Lockerbie, Scotland that 
killed 259.
    The planes we flew were different too; twin-engine flights over 
oceans had just been permitted by regulation, so many flights across 
the Atlantic or Pacific were still using 727s, 747s, and DC-8s. Many 
planes had three people on the flight deck, having been designed to 
require the use of a flight engineer. And Americans were just getting 
used to breathing easier as the aircraft smoking ban began phasing in 
that year.
    When we look at how far we've come over the past 31 years, it's 
clear that our future possibilities are endless. We have the chance to 
totally reinvent the way our airspace is used, not only incorporating 
today's new entrants like drones, flying cars, and commercial space 
transportation, but also the chance to pave the way for the next big 
idea that changes the way Americans travel.
    We in Congress usually have to deal with how things are, not how we 
want them to be. We have to think in terms of three- or four- or five-
year reauthorizations or 10-year budget windows. Today, we're asking 
you to imagine what's possible eight FAA authorizations into the 
future.
    What will the aircraft we fly look like? What will the flight deck 
look like? How are Americans going to use the airspace? How do we 
ensure the continued safety of the system? And what role is our 
aviation system and industry going to play in our economy?
    We want to hear what's possible, and we want to hear how Congress 
can ensure that there is the space and collaboration necessary to turn 
these dreams into reality. We can't predict what the future will be, 
but I hope when someone in 2050 looks back on this hearing record, they 
not only get a good laugh at what we thought would happen, but they see 
where we took a moment to step back and consider what the future might 
hold for aviation. Finally, I hope they will be able to recognize that 
we seriously considered how our actions now helped lay the groundwork 
for the aviation system of the future.

    Mr. Larsen. Thank you, Representative Graves. I now want to 
welcome our witnesses: Mr. David McBride, Director, Armstrong 
Flight Research Center of NASA; Ms. Diana Cooper, senior vice 
president of policy and strategy, at PrecisionHawk, 
Incorporated; Mr. Eli Dourado, head of global policy and 
communications at Boom; Mr. Eric Allison, head of Elevate, Uber 
Technologies, Incorporated; and Captain Joe DePete, president 
of the Air Line Pilots Association, International.
    Thank you all for being here today, and we all look forward 
to your testimony. I ask unanimous consent that our witnesses' 
full statements be included in the record.
    Without objection, so ordered.
    Since your written testimony has been made part of the 
record, the subcommittee requests that you limit your oral 
testimony to 5 minutes.
    And with that, we will start with Mr. David McBride of 
NASA.
    You are recognized for 5 minutes.

TESTIMONY OF DAVID MCBRIDE, DIRECTOR, ARMSTRONG FLIGHT RESEARCH 
 CENTER, NATIONAL AERONAUTICS AND SPACE ADMINISTRATION; DIANA 
 MARINA COOPER, SENIOR VICE PRESIDENT OF POLICY AND STRATEGY, 
PRECISIONHAWK, INC.; ELI DOURADO, HEAD OF GLOBAL PUBLIC POLICY 
  AND COMMUNICATIONS, BOOM SUPERSONIC; ERIC ALLISON, HEAD OF 
ELEVATE, UBER TECHNOLOGIES, INC.; AND CAPTAIN JOSEPH G. DEPETE, 
     PRESIDENT, AIR LINE PILOTS ASSOCIATION, INTERNATIONAL

    Mr. McBride. Thank you for that opening comment. Chairman 
DeFazio, Ranking Member Sam Graves, Chairman Larsen, Ranking 
Member Garret Graves, and members of the committee, thank you 
for this opportunity to testify on the vision of the national 
airspace for 2050 and NASA's role in shaping the future 
developments of the airspace.
    Imagine with me for just a moment a vision of what our 
Nation's transportation system could look like in 2050. Imagine 
you are a businessperson in Arlington, Virginia. You leave home 
early, you hop in a rideshare to the airport, a car, or an air 
taxi. A supersonic passenger jet takes you from DC to Seattle 
in about 2 hours. Upon arrival you fly from the airport to your 
meeting in an air taxi. Your business partners order a fresh 
lunch delivered by a drone. And perhaps you are studying 
wildfire damage with images sent in real time from first 
responders using unmanned vehicles flying over remote areas. By 
early afternoon you head back to the airport. That evening you 
are at home in time for dinner with your family.
    Enabled by aviation, this is a world with urban air taxis, 
drones delivering packages and collecting data, new 
opportunities for mobility benefitting consumers and 
passengers, expanding tourism and business travel, and U.S. 
companies delivering these products and developing aviation 
services of the future, creating high-quality manufacturing and 
service jobs.
    Aviation generates $1.6 trillion in total U.S. economic 
activity per year, and contributes about 5 percent to U.S. GDP. 
Aviation in the U.S. supports 10.6 million direct and indirect 
jobs, and generates the largest positive trade balance of any 
manufacturing sector, over $84 billion a year.
    Innovation and growing economies will double global 
passenger air travel in the next 20 years. Industry predicts 
the demand for over 42,000 new transport aircraft in the next 
20 years, and a market worth over $6 trillion, plus another $3 
trillion in after-market services.
    This growth in aviation means jobs. Industry estimates that 
aviation will need almost 800,000 new pilots by 2037, and there 
will be similar growth in jobs for manufacturing, technicians, 
and aviation services. Global competition is fierce in this 
sector, as companies and countries seek to capture a larger 
share of this growing market and high-wage jobs.
    NASA Aeronautics is uniquely positioned to be the catalyst 
for this exciting future, and to ensure the U.S. maintains a 
strong leadership role. NASA research is in the DNA of every 
aircraft flying today. The United States has the safe global 
air transportation system we have today because of NASA 
research. We also work closely with FAA leaders and technical 
experts to ensure our research meets their long-term goals and 
can inform their investment decisions. Our research transition 
teams serve as the bridge between NASA's long-term, game-
changing technology R&D and FAA's near-term R&D to support 
implementation and certification.
    NASA is investing in the discovery of new concepts and 
technologies in key areas. Over the past decade, NASA 
fundamental research has demonstrated the possibility of 
supersonic flight with greatly reduced supersonic booms. NASA 
is now building a quiet supersonic experimental aircraft, the 
X-59 QueSST, to provide proof. While subsonic aircraft will 
still carry the majority of passengers in 2050, those aircraft 
will be different from today.
    Large leaps in aircraft efficiency, coupled with reductions 
in noise and harmful emissions, are critical to the 
sustainability of aviation. Future aircraft will look 
different, will be made from different materials, will be 
powered differently, and will even be designed and manufactured 
differently. NASA is leading research into new components, 
technologies, and architectures for electric or hybrid electric 
systems that can bring about revolutionary improvements in 
small and large transport aircraft. Ground tests this year and 
flight tests next year will provide valuable insights into the 
challenges and opportunities of electric aircraft and serve as 
the building blocks for industry to create future safe and 
certifiable aircraft designs.
    Autonomy and increased automation will also bring new 
opportunities to do the things we do already even better. In 
2050, UAS, or unmanned aerial systems, will be fully integrated 
into the airspace. NASA research will enable the safe 
integration with the ability to detect and avoid other 
aircraft, assured command and control communication between the 
UAS and the operator on the ground, human systems integration 
capability, and approaches to determining airworthiness 
requirements.
    The potential benefits of UAS grow exponentially if they 
can operate safely in great numbers. NASA has developed a 
concept called UAS traffic management, or UTM, to overcome this 
challenge. UTM developed software tools used by air traffic 
controllers and airlines to fly more efficiently in 
increasingly congested airspace and investigate applications of 
UTM concepts to the entire airspace.
    NASA is preparing a series of grand challenges that will 
provide a means to assess maturity of key systems for urban air 
mobility. And although initially UAM operators are likely to 
use piloted vehicles, autonomy and increased automation will 
make it truly accessible to all citizens.
    NASA is developing software tools used by air traffic 
controllers and airlines to fly more efficiently in 
increasingly congested airspace, and NASA will hand off 
research results of our cutting-edge research to U.S. industry 
for further development and commercialization.
    Thank you for the opportunity to testify today, and I look 
forward to your questions.
    [Mr. McBride's prepared statement follows:]
                                 <F-dash>
    Prepared Statement of David McBride, Director, Armstrong Flight 
     Research Center, National Aeronautics and Space Administration
    Chairman DeFazio, Ranking Member Sam Graves, Chairman Larsen, 
Ranking Member Garret Graves, and members of the Subcommittee: thank 
you for this opportunity to testify on the vision of the National 
Airspace for 2050 and NASA's role in shaping future developments of the 
airspace.
    Imagine with me for just a moment a vision of what our nation's 
transportation system could look like in 2050 and the possibilities 
that are unlocked for our citizens.
    Imagine you are a business person in Arlington, VA. You wake up 
early in your home, then hold a quick virtual meeting with your staff. 
You hop in a ride share to the airport . . . car or air taxi, whichever 
is faster at the moment. A supersonic passenger jet takes you from DC 
to Seattle in about 2 hours. Upon arrival at the airport in Seattle, 
you fly from the airport to your meeting in an air taxi for a morning 
meeting.
    You and your business partners order a fresh seafood lunch 
delivered by drone to a portal in the office building.
    Perhaps you are studying wildfire damage in the state, with images 
sent in real time from first responders using unmanned vehicles flying 
over remote areas. Or you are reviewing construction of a new renewable 
energy infrastructure monitored by security drones. Or perhaps you are 
meeting with business leaders to discuss the new local manufacturing 
facility being built to assemble the new commercial aircraft for export 
around the world.
    By early afternoon you wrap up your meeting and head back to the 
airport. On the plane ride home you remember you forgot to reorder your 
dog's heart medication, so you order an emergency shipment to be 
delivered by drone to your house, and it is waiting for you when you 
arrive.
    That evening you are home in time for dinner with your family and a 
good night's sleep in your own bed.
    This is a world enabled by aviation, where you can fly across the 
country in 2 hours, or to the other side of the world in five. A world 
with:
    <bullet>  Urban air taxis, drones delivering packages and 
collecting data, all available at your fingertips;
    <bullet>  New opportunities for mobility we haven't yet thought of 
across America and around the world benefiting consumers and 
passengers;
    <bullet>  Booming tourism and business travel fueled by inexpensive 
and quiet air travel for vacationers and business people alike; and,
    <bullet>  U.S. companies capitalizing on this vision to deliver 
these products and develop aviation services of the future, creating 
high quality manufacturing jobs.
    This vision is closer than you might think. NASA and the U.S. 
aerospace industry currently are working on the technologies to make 
this vision a reality.
    Today's aviation system moves the world--moving people and packages 
around the world contributing to jobs and trade. Today's aviation 
system is safe and efficient. It is centered around commercial air 
travel and airports. U.S. companies are global leaders in aircraft and 
engine manufacturing, commercial airlines and cargo delivery.
    Aviation generates $1.6 trillion in total U.S. economic activity a 
year, and contributes about 5 percent of the U.S. Gross Domestic 
Product.\1\ Aviation in the U.S. supports 10.6 million direct and 
indirect jobs,\2\ and generates the largest positive trade balance of 
any manufacturing sector, over $84.8 billion per year.\3\
---------------------------------------------------------------------------
    \1\ ``The Economic Impact of Civil Aviation on the U.S. Economy,'' 
Federal Aviation Administration, November 2016, Page 20, PDF
    \2\ ``The Economic Impact of Civil Aviation on the U.S. Economy,'' 
Federal Aviation Administration, November 2016, Page 20, PDF
    \3\ ``Leading Indicators for the U.S. Aerospace Industry,'' 
International Trade Administration, March 13, 2018, PDF
---------------------------------------------------------------------------
    Tomorrow's aviation system will change the world. People and 
packages will move more quickly, and in new ways. Tomorrow's aviation 
system will still be safe and efficient, but now much more widely 
accessible to all citizens. Aviation enables new ways of living, 
working and connecting with others. Exciting new technology and 
changing consumer demand will change our relationship with aviation. 
Today's explosion of new business models for ground transportation 
(such as ride sharing and package delivery) is taking to the air, 
enabling an entirely new aviation mobility market and opportunity space 
for tomorrow.
    These trends are real. Innovation and growing global economies will 
double global passenger air travel in the next 20 years as new products 
are introduced. Air travel will expand as economies grow and 
develop.\4\ Boeing predicts demand of 42,730 new aircraft in the next 
20 years and a market worth over of $6 trillion.\5\ According to 
Airbus, there will be another $3 trillion in aftermarket services 
needed in that time period.\6\ High speed flight--faster than the speed 
of sound--will open up new routes and new opportunities for air travel 
around the world.
---------------------------------------------------------------------------
    \4\ ``2036 Forecast Reveals Air Passengers Will Nearly Double to 
7.8 Billion,'' International Air Transport Association, October 24, 
2017, Web Page
    \5\ https://www.boeing.com/commercial/market/commercial-market-
outlook/
    \6\ https://www.airbus.com/newsroom/press-releases/en/2016/07/
airbus-forecasts-3-trillion-commercial-aviation-aftermarket-services-
over-the-next-20-years.html
---------------------------------------------------------------------------
    This growth in aviation means jobs. Boeing has projected that 
aviation will need 790,000 new pilots by 2037 to meet growing demand, 
with 96,000 pilots needed to support the business aviation sector.\7\ 
There will be similar growth in jobs for manufacturing, technicians, 
and aviation services, as well as new jobs created as a result of new 
economic opportunities which will be created.
---------------------------------------------------------------------------
    \7\ https://www.boeing.com/commercial/market/pilot-technician-
outlook/2018-pilot-outlook/
---------------------------------------------------------------------------
    Global competition is fierce in this sector as companies and 
countries seek to capture a larger share of this growing market and 
high wage jobs. U.S. and European companies traditionally have divided 
the global market for large civil aircraft and equipment. Now China is 
investing heavily in aerospace, starting up a new company to build 
large commercial aircraft to lure some of the large civil aircraft 
market share. Russia and Japan are seeking to break into the regional 
jet market, and companies from all around the world are seeking market 
share for smaller unmanned systems and vehicles.
    NASA Aeronautics is uniquely positioned to be the catalyst for this 
exciting future, and to ensure that the U.S. maintains a strong 
leadership role. We have been a global leader in creating and realizing 
amazing advances in aviation for generations, developing new 
technologies and new concepts for how the aviation system can be 
better, faster, and more efficient. NASA Aeronautics research is in the 
DNA of every aircraft flying today. The United States has the safe, 
global air transportation system we have today in part because of NASA 
research.
    NASA's cutting edge research today in areas such as composite 
materials, new airplane concepts, air traffic management, and safe 
routine integration of unmanned aerial systems (UAS) into the National 
Air Space is forging the path to this new vision for 2050.
    NASA works with the U.S. aviation community and government partners 
to create opportunities for American businesses, raising the level of 
performance for all participants. NASA has a vision of what is 
possible, based on deep insight into the goals and needs of the 
aviation community and U.S. industry engagement early in the technology 
development cycle. We invest in aeronautics research to address the 
most critical challenges, always with an eye toward the practical 
application of the results. We bring the most promising technologies to 
flight to demonstrate them in a realistic environment, in collaboration 
with our U.S. industry partners whenever appropriate. Partners leverage 
NASA's investments through joint efforts that complement the agency's 
internal capabilities, provide access to a wide range of technologies 
beyond the traditional aeronautics portfolio, and facilitate technology 
transfer to more mature states of development and eventual 
implementation.
    One critical government partner to NASA is the Federal Aviation 
Administration. We work closely with FAA leaders and technical experts 
in Washington and around the country, and the FAA Technical Center in 
Atlantic City to ensure our research meets their long term needs, and 
the results of our research can be transitioned and inform their 
investment decisions. Our successful model for collaboration is 
embodied in Research Transition Teams (RTTs), which are designed to 
enhance progress for NextGen advancements in critical areas and 
effectively transition advanced capabilities to the FAA for 
certification and implementation. RTTs serve as the bridge between 
NASA's long term, technology R&D, and FAA's near term R&D to support 
implementation and certification. Under RTTs, NASA and FAA develop 
joint research plans and fund their respective portions of the planned 
research according to the nature of the research, stage of research, 
and their relative capabilities. Data from our research results are 
used to develop standards and regulations through rulemaking committees 
and domestic and international standards bodies.
    To achieve our vision for 2050, NASA is investing in discovery of 
new concepts and technologies in a few key areas.
    Routine supersonic passenger travel will enable passengers to make 
current long journeys into day trips. However, current rules prohibit 
supersonic flight over land, the result of public objection to noisy 
supersonic Concorde flights in the 1970's. Over the past decade, NASA 
fundamental research and experimentation has demonstrated the 
possibility of supersonic flight with greatly reduced sonic boom noise, 
but the rules prohibiting over-land supersonic flights remain. In order 
for this sector to take off, regulators need to know how quiet the 
public will want these supersonic flights to be. NASA now is building a 
quiet supersonic experimental aircraft--X-59 QueSST--to help answer 
this question.
    NASA researchers will measure public acceptance of the technology 
by flying the X-59 over a handful of U.S. cities. This data will be 
delivered to the Federal Aviation Administration and the International 
Civil Aviation Organization to allow these organizations to develop new 
regulations that permit commercial supersonic flight over land under 
conditions acceptable to the general public. This capability will 
position the U.S. aviation industry to supply global customers with 
future supersonic aircraft products.
    As we push for ever faster flight we may even see initial 
applications of hypersonic flight. The challenges are enormous for 
commercially feasible hypersonics, but with NASA's productive 
partnership with the Department of Defense, we continue to make 
progress on key technical challenges that may 1 day unlock a high-value 
commercial market.
    Subsonic aircraft will still carry the majority of passengers in 
2050, but those aircraft will be different from today. Large leaps in 
aircraft efficiency coupled with reductions in noise and harmful 
emissions are critical to the environmental sustainability of aviation. 
Future aircraft will look different, will be made from different 
materials, will be powered differently, and will even be designed and 
manufactured differently.
    NASA is collaborating with U.S. industry to investigate innovative 
technology for subsonic aircraft such as advanced configurations and 
wing design, transformative structures, propulsion-airframe 
integration, and small core turbine engines.
    NASA also is leading research into new components, technologies and 
powertrain architectures for electric or hybrid electric systems that 
can bring about revolutionary improvements in small and large transport 
aircraft. NASA work on the X-57 Maxwell aircraft--an all-electric, 
general aviation size plane--already is delivering to the community 
important lessons about designing, building and operating an all-
electric system.
    Ground tests this year and flight tests next year will provide 
valuable insights into the challenges and opportunities of electric 
aircraft and serve as the building blocks for industry to create future 
safe and certifiable aircraft designs.
    NASA recently completed single-aisle transport aircraft concept 
studies with industry to develop hybrid gas-electric propulsion 
concepts and assess the potential benefits for larger vehicles such as 
regional transports and airplanes as large as a Boeing 737.
    Building on these activities, NASA has begun a multi-year effort to 
solve the technical challenges of a 1-Megawatt (MW) power electric 
propulsion system--enough energy to power 165 homes. NASA will refine 
concepts and technologies and validate new electric systems through 
ground and flight tests. High power electric propulsion systems 
represent a potential major change for aviation propulsion similar to 
moving from turbojets to modern turbofan engines. Realizing a practical 
1-MW electric propulsion system has never been accomplished and is an 
area of notable international competition. To support this work, NASA 
has developed a world-leading NASA Electric Aircraft Test Facility 
(NEAT) capable of conducting full scale ground test of high-power 
electric propulsion systems.
    Aerospace design and manufacturing processes in 2050 will be more 
efficient, reducing the time and cost required to build aircraft. 
Future computational design and certification capabilities of advanced 
materials required for emerging aeronautical vehicle applications are 
identified in NASA's ``Vision 2040: A Roadmap for Integrated, 
Multiscale Modeling and Simulation'' report. Next year, NASA will 
complete the Advanced Composites Project, a 6-year focused effort with 
industry to significantly reduce the time needed to develop and certify 
new composite structures for aerospace applications.
    Autonomy and increased automation bring new opportunities to do the 
things we already do even better, but also hold the potential to open 
new markets and create new benefits that are not yet possible.
    In 2050, UAS will be fully integrated into the airspace. These 
could be large, high altitude UAS providing communications relays or 
gathering scientific data; mid-sized drones delivering cargo through 
mid-altitude airspace; or small surveillance drones operating at low 
altitude. An increasing number of UAS will operate safely and securely 
over cities, suburban areas and in congested skies.
    NASA is developing the building blocks for safe UAS integration:
    <bullet>  the ability to detect and avoid other aircraft, currently 
the ultimate responsibility of the pilot on board an aircraft;
    <bullet>  assured secure command and control communications between 
the UAS and the operator on the ground;
    <bullet>  human systems integration capabilities; and,
    <bullet>  approaches to determining airworthiness requirements.
    NASA is developing this technology for the most basic business 
case--one remote pilot, one UAS, one mission. In this model, FAA 
manages the UAS operations like that of any other aircraft, or requires 
to UAS to operate entirely separate from other aviation traffic, such 
as low altitude operations over a farmer's field or surveying a 
historical building or inspecting a power plant.
    NASA will conduct a series of test flights next year and will 
deliver data on these UAS technologies to FAA rulemaking committees to 
serve as the basis for certifying UAS for safe flight.
    The potential benefits of UAS grow greatly if multiple aircraft can 
safely perform the same mission simultaneously or if UAS can be used 
for a broad diversity of missions. This means enabling one pilot to 
control multiple UAS, or removing the pilot entirely from fully 
autonomous vehicles. In this model, it is impossible for the FAA to 
manage the UAS operations like all other aircraft--there are too many 
vehicles to control, and there may not even be pilots to talk to.
    NASA has developed a concept called UAS Traffic Management or UTM 
to overcome this challenge. UTM enables widespread low altitude UAS 
operations by providing air traffic management services to UAS 
operators, as an intermediary between the FAA and UAS operators. NASA 
has collaborated with industry and the FAA to develop and test the UTM 
system through increasingly complicated flight trials at FAA test sites 
across the U.S. The final demonstrations--flying UAS in dense urban 
environments--will take place in Reno, Nevada, and Corpus Christi, 
Texas, this summer. Companies participating in these demonstrations are 
maturing and proving their technical capabilities. Industry-led 
domestic and international standards development organizations and 
trade groups have established working groups focused on UTM Services 
and supporting UAS technologies utilizing NASA research, prototypes, 
and specifications to form the basis for UTM standards.
    Data from these demonstrations inform FAA rulemaking, technology 
development and investments. NASA's UTM Flight Information Management 
System (FIMS) is being used for FAA's UTM Pilot Program, and NASA 
partner-developed UTM services are being used at most of the awarded 
test sites for the DOT UAS Integration Pilot Program. The FAA has 
adopted the UTM architecture and deployed the first operational UTM 
service, low altitude authorization and notification capability 
(LAANC), which reduces UAS airspace access approval from weeks to near 
real-time. NASA has provided the FAA requested information and research 
results to inform upcoming rulemaking activities (e.g. Remote UAS 
Identification, Operation over people, etc.)
    As a result of these technical innovations and a clear path to 
implementation, we have jump started a fledgling U.S. industry of UTM 
service providers and drone manufacturers and operators.
    These efforts provide the foundation for another major 
transformation of the aviation sector being led by NASA--creation of an 
urban air mobility or UAM system that is safe, economical and 
environmentally friendly to move people and packages in population 
centers, forever changing how citizens around the world benefit from 
aviation. UAM vehicles might range from small delivery drones to 
passenger-carrying air vehicles that have electrically powered Vertical 
Take Off and Landing (eVTOL) capability.
    NASA is preparing a series of ``Grand Challenges'' that will 
provide a means to assess the maturity of key systems for Urban Air 
Mobility. Through these Grand Challenges, NASA will serve as a catalyst 
for companies to rapidly develop and demonstrate their capabilities, 
while setting the course for the research and investment needed to 
realize the potential of UAM. One key objective of the Grand Challenges 
is to provide the means and opportunity to develop and test UAM 
innovations in the U.S. so that U.S. companies don't have to go 
overseas to test their vehicles and systems. Another is to provide 
opportunities for close collaboration among NASA, FAA, industry and 
local authorities to understand and overcome together the challenges 
facing UAM, enabling innovation to take place within our borders.
    Although initial UAM operations are likely to use piloted vehicles, 
autonomy and increased automation will be a game changer for UAM, 
making it truly accessible to all citizens. The demand for ride-sharing 
or ride-hailing aviation operations is likely to be constrained by a 
lack of certified pilots available to operate the vehicles.
    The aviation community will need new technologies and operational 
concepts to manage this higher operational tempo air travel. The UTM 
system provides a look at what the future might bring for the entire 
airspace in 2050. UTM has a user service-oriented architecture where 
third party service providers deliver the various services that make up 
the airspace environment. A similar federated, user service-oriented 
architecture for the National Airspace, where third party service 
providers play critical roles in a collaborative air traffic management 
structure, provides the scalability to accommodate the large number of 
expected operations in the airspace in 2050. This new system will need 
to provide seamless access to the airspace for all users and missions 
ranging from traditional operations to on-demand UAM, UAS and to 
emergent scheduled services such as supersonic travel and space launch. 
It will be scalable for increased demand across users and missions, 
flexible whenever possible, and will provide structure only when 
necessary. The system of the future will also be collaborative through 
integrated information exchange, and resilient to uncertainty, 
degradation, and disruptions.
    The path toward this future airspace vision is being forged today 
as NASA develops software tools used by air traffic controllers and 
airlines to fly more efficiently in increasingly congested airspace. 
Through a series of Airspace Technology Demonstrations with the FAA, 
airlines and airport operators, NASA is demonstrating new capabilities 
for managing efficient airline operations. These capabilities are 
fundamental building blocks of the Next Generation Air Transportation 
System, or NextGen.
    The first set of demonstrations focused on enabling efficient 
arrivals utilizing the FAA's precision navigation RNAV/RNP approaches 
into the most congested airports at peak traffic volume times. This 
essentially has eliminated the practice of airlines circling while 
waiting for a landing spot at a busy airport, saving fuel, time and 
reducing noise. The second set of demonstrations is delivering 
technologies to the FAA and airlines for efficient terminal area 
operations. This represents a significant step toward user preferred 
service options--where the airline gets to choose what they would like 
to do within the constraints set by the FAA. This is being demonstrated 
in Charlotte, NC, and soon Dallas, TX, in preparation for national 
deployment in FY2021. The third set of demonstrations is focused on 
providing services to airlines to allow them to fly around weather, and 
supporting efficient traffic flows from gate departure to gate arrival. 
In each of these cases, NASA is handing off these software tools and 
concepts to the FAA to inform their investment and rulemaking 
decisions.
    How do we get all of this innovation into the system? Commercial 
aviation is the safest mode of travel today, a result of decades of 
continuous improvement through proactive hazard management. As I have 
described, aviation is on the verge of a significant transformation 
with the rapid evolution of new technologies, vehicles, and operations 
on the horizon. Maintaining a safe system will require recognition and 
timely mitigation of safety issues as they emerge, before they become 
hazards or lead to accidents. We must adopt a proactive risk mitigation 
approach, using aviation data, commercial data analytics methods, 
architectures, and the ``internet of things'' to monitor ongoing 
operations, assess operations in real-time for emerging risks, and 
provide in-time strategies to mitigate those risks.
    We must also mature our ability to Verify and Validate (V&V) that 
these new systems are safe, of particular concern in light of 
significant technical challenges associated with certifying 
increasingly complex and autonomous systems. The methods to assure the 
safety of autonomous systems are in their infancy, and thus approaches 
will need to be investigated and evaluated for effectiveness. Given our 
past success in applying new safety assurance methods to autonomous 
systems for space missions, NASA is uniquely positioned to address this 
challenge. We have already performed initial demonstration of some 
valuable tools and capabilities in this area with industry partners, 
and are collaborating with other governmental agencies, like FAA and 
the Air Force, to map a course to our future vision.
    The nature of the aerospace industry and workforce will also be 
different in 2050. The increasingly entrepreneurial nature of the 
aerospace industry enabled by increases in computing power, design 
tools and high-fidelity Multi-disciplinary Analysis & Optimization 
(MDAO) analytic tools will enables smaller teams to rapidly produce 
high-confidence, complex system designs. Advances in manufacturing such 
as additive manufacturing and robotic assembly will enable smaller and 
more agile manufacturing teams.
    We need a next generation workforce with the mindset, system ideas, 
and capabilities to work in this future. NASA has a long history of 
collaboration with academia to explore new ideas and foster the next 
generation aerospace workforce. We have expanded and deepened this 
engagement through our University Leadership Initiative, where we 
provide opportunities for universities to identify the most important 
challenges facing aviation and collaborate across institutions and 
disciplines to develop solutions.
    NASA will enable this future as a partner to government and 
industry, providing test infrastructure to evaluate and demonstrate new 
concepts in ground and flight tests, such as ranges at NASA's Armstrong 
Flight Research Center to test everything from unmanned systems and x-
planes to high speed vehicles.
    NASA is developing the technology that enables continuous 
innovation in aviation and leads us to reach this vision for 2050. U.S. 
companies are well positioned to build on discoveries and knowledge 
resulting from NASA research, turning them into commercial products 
that will enable this exciting vision of the future, benefiting the 
quality of life for our citizens, providing new high-quality 
engineering and manufacturing job opportunities, and enabling the U.S. 
to remain competitive in the global economy.

    Mr. Larsen. Thank you, Mr. McBride. I now turn to Ms. Diana 
Cooper, who is a senior VP, policy and strategy, at 
PrecisionHawk, Incorporated.
    Ms. Cooper. Chairman Larsen----
    Mr. Larsen. Recognized for 5 minutes.
    Ms. Cooper. Chairman Larsen, Ranking Member Graves, and 
Ranking Member Graves, members of the subcommittee, thank you 
for calling this hearing and for the invitation to testify on 
behalf of PrecisionHawk. PrecisionHawk is emblematic of the 
current and future state of the growing commercial UAS 
industry. I appreciate the opportunity to appear today on this 
distinguished panel representing the future of American 
aviation.
    I would like to begin by thanking Congress for passing the 
FAA Reauthorization Act of 2018, and for providing the 
necessary funding to the FAA to integrate UAS into the national 
airspace. These measures establish critical building blocks to 
help the U.S. realize the economic, consumer, environmental, 
and humanitarian benefits of drones.
    PrecisionHawk employs 187 people, with offices in North 
Carolina, Virginia, Illinois, and California. We provide 
advanced drone software and services across agriculture, 
energy, construction, insurance, and Government sectors. Our 
algorithms detect plant disease, forecast crop yield, and 
assess storm damage, and our LATAS platform provides safety 
information that supports geofencing technology in roughly 80 
percent of civilian drones in the U.S.
    We pride ourselves in conducting operations that serve the 
public interest. With Booz Allen Hamilton and Concourse, we use 
drones to support an environmental impact study for the 
Department of Veterans Affairs' West L.A. campus. The data 
collected was used to build a digital twin to support master 
planning and redevelopment efforts.
    Last fall PrecisionHawk deployed drone teams to aid in the 
response efforts after Hurricanes Florence and Michael. Working 
with the North Carolina DOT, we used drones to deliver imagery 
and video of impacted bridges, dams, and roads. This enabled 
real-time decisionmaking about road closures and evacuation 
routes. The data collected was also used to support the 
expansion of a Federal disaster declaration to additional 
counties in the State. PrecisionHawk also worked with utilities 
to locate downed power lines and flooded substations to help 
restore power faster. Additionally, we use drones to assess 
storm damage to help process claims to get people back into 
their homes more quickly.
    UAS are having a positive impact on the American workforce. 
The low cost and ease of use of consumer drones has made the 
practice of aviation accessible for the first time in history. 
For some pilots, flying begins as a hobby and later turns into 
a career.
    Drones enable worker safety in the mining, energy, and 
insurance industries. Climbing roofs or utility poles can be 
hazardous tasks. By outfitting workers with UAS, we are helping 
them perform their jobs more safely.
    Drones are also opening up employment opportunities for 
people who face mobility challenges. In rural Missouri, Andrew 
Kuster suffered a tragic injury that left him partially 
paralyzed and confined to a wheelchair. Andrew started his own 
drone business inspecting power lines on rooftops, surveying 
farms and construction sites. Drones provide him with the 
ability to be gainfully employed, doing work that would 
otherwise be impossible.
    The future-use cases of drones are only limited by our 
imagination. By 2050 we will achieve full integration of the 
national airspace at low and high altitudes, including all of 
the vehicles represented today on this panel, and vehicles not 
yet imagined.
    We will break the paradigm of a single drone completing a 
single mission. Drones will also trigger automated actions, 
including inspection, repair, and insurance claims processing.
    Drones will prevent disease outbreaks from happening, and 
will provide early warning signals when plants and animals are 
about to become endangered.
    In 2016 the U.S. took the global lead in establishing 
regulations that govern basic commercial operations. We must 
act today to maintain our leadership by setting the standard 
for remote identification. Remote ID will enhance safety, 
security, and privacy. In 2017 the FAA convened an advisory 
committee to make recommendations on remote ID, but the wait 
for a proposed regulation continues. The Government has made it 
clear that remote ID must be implemented before any additional 
rulemaking for advanced operations.
    We respectfully ask Congress to ensure that the FAA 
publishes proposed remote ID regulations without any further 
delay. It is critical that the Federal Government open the door 
to the promises that UAS are certain to yield.
    Thank you again for the opportunity to appear today. I look 
forward to your questions.
    [Ms. Cooper's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Diana Marina Cooper, Senior Vice President of 
                Policy and Strategy, PrecisionHawk, Inc.
    Chairman DeFazio, Ranking Member Graves, Chairman Larsen, Ranking 
Member Graves, and distinguished members of the Subcommittee, thank you 
for calling this important hearing and for the invitation to testify on 
behalf of PrecisionHawk, Inc. (``PrecisionHawk''). I would like to 
begin by thanking Congress for passing the FAA Reauthorization Act of 
2018 and for providing the necessary funding for the Federal Aviation 
Administration (FAA) to continue integrating unmanned aircraft systems 
(``UAS''), also known as drones, into the National Airspace System. 
Through these measures, Congress has set up critical building blocks to 
help the United States realize the economic, consumer, public safety, 
environmental and humanitarian benefits of UAS.
    PrecisionHawk is a success story for the current and future state 
of the growing commercial UAS industry. We currently have 187 employees 
with offices in North Carolina, Virginia, Illinois and California. We 
provide advanced UAS software and services across a variety of 
industries including agriculture, energy, construction, insurance and 
government. Our algorithms can detect plant disease, forecast crop 
yield, assess storm damage, detect the risk that a solar panel will 
catch fire, and predict the likelihood that a distribution pole will 
fail at a particular wind speed. Our unmanned traffic management 
(``UTM'') platform, known as LATAS, provides safety information that 
supports geofencing technology included in roughly 80% of the drones in 
the United States including airspace maps, runway locations, prisons 
and critical infrastructure. We also have a distributed pilot network 
with thousands of Part 107 operators across the country; they can be 
hired on demand through our national Droners platform to perform 
services in their local communities including in Oregon, Missouri, 
Washington, Louisiana, North Carolina, California, Texas, New York and 
Illinois.
    To date, we have raised $107 million from leading investors \1\ and 
last year we acquired five thriving startups \2\, allowing us to expand 
in new markets. In 2016, the World Economic Forum named PrecisionHawk 
among the Top Technology Pioneers, and in 2017 we were ranked among the 
Top 100 Global Cleantech Companies by the CleanTech Group.
---------------------------------------------------------------------------
    \1\ Intel Capital Corporation, Verizon Ventures LLC, Comcast 
Ventures LP, USAA Property Holdings, Inc., Pioneer Hi-Bred 
International Inc., Constellation Technology Ventures, ClearSky Power & 
Technology Fund I LLC, Third Point Ventures LLC, Syngenta Ventures Pte. 
Ltd., Senator Global Opportunity Master Fund LP, Millennium Technology 
Value Partners II L.P., Indiana University Foundation, Inc., and 
Innovate Indiana Fund I, LLC, among others.
    \2\ PrecisionHawk acquired all or substantially all of the assets 
of AirVid Inc. (assets acquired from Acend, Inc.), Droners L.L.C., 
InspecTools, Inc., Hazon, Inc. and Uplift Data Partners LLC.
---------------------------------------------------------------------------
    PrecisionHawk is dedicated to working with the FAA and other 
agencies in support of UAS integration. We performed ground-breaking 
research on beyond line of sight operations under the FAA Pathfinder 
Program and we received a waiver to fly commercially beyond line of 
sight on the day that Part 107 was implemented. We are also 
participating in the UAS Integration Pilot Program in North Carolina 
and Virginia, in addition to serving on the FAA Drone Advisory 
Committee and the FAA Unmanned Aircraft Safety Team.
            leveraging our capabilities for the public good
    We take pride in conducting operations that are not only 
commercially beneficial but also serve the public interest. In 2018, 
PrecisionHawk partnered with Concourse Federal Group and Booz Allen 
Hamilton to deploy UAS in support of an environmental impact study for 
the Department of Veterans Affairs West Los Angeles Campus (the 
``Campus''). The vast Campus spans 388 acres and provides care for the 
largest homeless veteran population in the United States. Using UAS 
with visual and Light Detection and Ranging or LiDAR sensors, we were 
able to identify and geolocate over 130 species of trees and plants on 
the Campus. We also captured high quality data on building and pavement 
conditions across the entire Campus--in only a few days. The data we 
collected was used to build a ``digital twin,'' which is a 3-D 
rendering of the Campus that depicts environmental conditions. The 
environmental impact study is being used by the Department of Veterans 
Affairs to support the master plan and redevelopment of the Campus to 
facilitate delivery of services and shelter to several thousand 
homeless veterans.
    We have also seen what a powerful tool UAS can be in emergency 
response operations. Last fall, PrecisionHawk deployed UAS teams to aid 
in the response efforts in Hurricanes Florence and Michael. During 
Florence, we worked with the North Carolina Department of 
Transportation (``NC DOT'') Division of Aviation. We used UAS to 
capture and transmit real-time imagery and video of mobility 
infrastructure flood and damage assessments including impacted bridges 
and dams, road wash-outs, and eroded beaches across the south-eastern 
part of North Carolina. The data captured enabled NC DOT to facilitate 
real-time decisionmaking around road closures, evacuation routes, and 
re-opening thoroughfares. The images captured served as a baseline 
record that was used to support the expansion of a Federal disaster 
declaration to additional counties devastated by the storm.
    PrecisionHawk also worked with two large east-coast energy utility 
companies after Hurricane Florence in South Carolina, and Hurricane 
Michael in Florida, to survey outage areas. During these operations, we 
located down powerlines and flooded substations to determine where to 
safely deploy repair crews and what equipment they would need to bring. 
We also deployed UAS to locate safe access points for repair crews and 
to help them avoid using roads that were flooded. These missions helped 
restore power faster to homes and businesses in South Carolina and 
Florida. Even 1 day of energy disruption can cost millions of dollars.
    In partnership with an insurance company, we are working to 
expedite the insurance claims process by using UAS data to assess 
damage to structures after natural disasters. For people who have lost 
their homes or businesses, the emergency continues until after their 
insurance claims are processed and their properties are rebuilt. I 
would like to thank Congress for responding to our request to expand 
the circumstances in which civil operators can benefit from the 
Emergency Certificate of Authorization (e-COA) process in Section 353 
of the FAA Reauthorization Act of 2018 to facilitate claims processing 
and reconstruction efforts. Thank you for sharing our passion to help 
people get back into their homes and businesses in the aftermath of a 
disaster.
  uas are engaging our youth in aviation and creating the jobs of the 
                                 future
    UAS are bringing new excitement and engaging our nation's youth in 
aviation, in a way that we haven't seen in decades. The low cost and 
ease of use of consumer UAS has made the practice of aviation 
accessible for the first time in history. We are seeing more and more 
high schools and colleges integrate UAS into their program offerings. 
For some pilots, flying begins as a hobby and later turns into a part-
time job and possibly a career. At PrecisionHawk, we have hired many 
college students during their summers and they have had the opportunity 
to travel across the country with us and learn to fly. Some of these 
students have stayed on with us after graduation, as employees.
    UAS are also opening up employment opportunities that may not 
otherwise exist, particularly for persons who have mobility challenges. 
For example, in rural Missouri as a young man, Andrew Kuster suffered a 
tragic injury that left him partially paralyzed and confined to a 
wheelchair. His interest in drone technology started as a hobby, but 
before long he figured out how to put the technology to productive 
commercial use. He started a drone business, Tri County Drone, which 
inspects power lines and rooftops, surveys farms and constructionsites, 
and takes action videos of motocross sports, across all of southern 
Missouri. UAS provide Mr. Kuster with the ability to be gainfully 
employed doing work that would be impossible for him to do otherwise, 
and to provide for his family including his young daughter \3\. In his 
own words, Mr. Kuster states that ``Being self-sufficient is something 
I pride myself on''.
---------------------------------------------------------------------------
    \3\An interview with Mr. Kuster is available here: https://
www.youtube.com/watch?v=3LT_CIEl_sE
---------------------------------------------------------------------------
    UAS are also being used across several industries including mining, 
energy, and insurance to enhance worker safety and efficiency. Climbing 
roofs or utility poles can be hazardous tasks--by outfitting adjusters 
and inspectors with UAS, we are helping them perform their work safer 
and faster. We often focus on the risks that UAS may introduce into the 
NAS, and forget to consider the risks that they mitigate in terms of 
worker safety. For example, 34 individuals lost their lives due to 
tower-related incidents between 2013 and 2016.\4\
---------------------------------------------------------------------------
    \4\Occupational Safety and Health Administration: https://
www.osha.gov/doc/topics/communicationtower/index.html
---------------------------------------------------------------------------

                      looking forward: uas in 2050
    The future uses for drones are only limited by our imagination. By 
2050, we will have full integration of airspace at low and high 
altitudes, including a variety of vehicles of all sizes, passenger 
drones, traditional aircraft, and even vehicles we have yet to imagine. 
We will break the paradigm of a single drone completing a single 
mission. In the future, a single drone will conduct multiple missions 
simultaneously. For example, a drone on a mapping mission will also 
monitor traffic during rush hour, detect fires, and automatically 
report accidents to authorities, enabling quicker response times. 
Different drones will also communicate with each other to complete a 
single mission, such as search and rescue, or delivery. Drones will 
trigger automated actions including inspection, repair, insurance 
claims processing, and even the ordering of materials.
    Larger drones will launch smaller drones to perform rapid-response 
missions. They will detect small atmospheric and geological changes, 
and provide us with early warning signals to help us prevent disasters, 
such as mud slides, earthquakes and tsunamis before they occur. By 
monitoring water and food quality and insect populations, drones will 
prevent disease outbreaks. They will monitor the population of animal 
and plant species to give us early warnings before they become 
endangered. Drones of the future will be a combination of aircraft and 
ground autonomous vehicle, roaming the streets to compete missions and 
recharge power, and then flying to a location where they are needed for 
the next mission.
    These applications will all be developed by people who have access 
to UAS technology and use their imaginations to discover solutions and 
push the boundaries of what is possible. The key to unlocking the 
limitless future potential of drones is simple: put in place the 
regulatory building blocks to enable flight in more ways and in more 
places: flights over people, flights at night, flights in controlled 
airspace, flights beyond visual line of sight, and fully autonomous 
flights managed by a UTM system.
    achieving global leadership through forward-leaning regulations
    With the implementation of Part 107 in August 2016, the United 
States took the global lead in establishing a set of reasonable 
regulations to govern basic commercial operations. Those regulations 
have opened up many of the commercial and societal benefits that I have 
mentioned. More than 2 years later, many other jurisdictions, such as 
Canada, Japan, and the European Union, have yet to finalize their basic 
commercial rules.
    The United States must continue to lead with forward-leaning 
regulations. The FAA has the opportunity, right now, to lead the world 
in creating remote identification (``Remote ID'') regulations and 
standards. This is a topic that many of us in the industry spent months 
of time on during an FAA Aviation Rulemaking Committee that spanned the 
summer of 2017, where it was impressed upon us that the need for these 
solutions was urgent. Remote ID is considered essential by national 
security stakeholders in order for the FAA to proceed with any other 
rulemaking for advanced UAS operations, such as flight over people. 
Nearly 2 years later, we are still awaiting a proposed regulation from 
the FAA on this topic. The industry is eager for this to move forward, 
and some companies have even deployed remote identification solutions 
in advance of the FAA's rulemaking, in order to start solving safety 
and security challenges. We respectfully ask Congress to ensure that 
the FAA proceed with the next steps in this process as soon as 
possible, and to also complete the pending rulemaking for flight over 
people and night operations, which will unlock even more beneficial 
operations.
    One way the United States could easily lose its global leadership 
advantage is to pursue policies that create a patchwork of 
inconsistent, confusing, or burdensome UAS regulations that differ from 
state to state, city to city, or even block to block. Proposals in 
Congress over the last 2 years to carve up the airspace arbitrarily, 
and undermine the FAA's exclusive jurisdiction over the safety of the 
skies is the largest regulatory threat our industry faces. Last August, 
I wrote an editorial on this topic \5\. We thank Congress for codifying 
the UAS Integration Pilot Program--which will further an understanding 
on the possible state, local and tribal government interests in UAS--
while maintaining the FAA's exclusive jurisdiction over airspace.
---------------------------------------------------------------------------
    \5\ ''Drone Benefits Are Here to Stay--The FAA's Drone Oversight 
Should Be Too'', Diana Cooper, The Hill (Aug. 24, 2018): https://
thehill.com/blogs/congress-blog/politics/403420-drone-benefits-are-
here-to-stay-the-faas-drone-oversight-should
---------------------------------------------------------------------------
    Congress recently directed the Government Accountability Office to 
prepare a report on fee mechanisms concerning UAS. While we need FAA 
and other agencies to have sufficient resources to support our 
industry, we are just in our infancy. The imposition of new fees or 
other costs could severely damage operators like us. We believe the 
drone industry is worth an investment by the country as a whole, during 
this period, and ask that new fees be deferred until stable and 
repeated sources of revenue are well established, similar to the early 
years of traditional commercial aviation in this U.S. The industry is 
also working hard to shoulder much of the research and development, 
infrastructure, and network costs of technology solutions such as 
Remote ID, the Low Altitude Authorization and Notification Capability, 
and UTM, so that the FAA can be most efficient with the resources it 
has available for UAS programs. Thank you again for the opportunity to 
testify today and I look forward to your questions.

    Mr. Larsen. Thank you for your testimony.
    And I want to turn now to Mr. Eli Dourado, head of global 
public policy and communications of Boom. Thank you.
    Mr. Dourado. Thank you, Mr. Chairman. And thank you to you 
and to the members of the Aviation Subcommittee for hosting 
this hearing, and for the opportunity to share how today's 
advanced civil aviation technology is creating a more 
accessible world through a supersonic renaissance.
    At Boom, our mission is to eliminate the barriers to 
experiencing the planet--time, money, and hassle--starting with 
the long hours spent on long-haul flights. Why do these 
barriers to experiencing the planet matter? Because when those 
barriers are in place, people simply don't travel as often.
    For context, think about the world before jet airplanes. In 
the late 1930s, flying on Pan Am from LaGuardia to Lisbon took 
more than 24 hours. Only 20 years later, at the dawn of the jet 
age, the same flight took only 7 hours. Travel skyrocketed. You 
might think that, since jets were three times faster than the 
airplanes that they replaced, people would spend about one-
third of the time on airplanes. In fact, with the burden of a 
24-hour flight removed, people spent much more time on 
airplanes, because they traveled much more often.
    Speed, therefore, isn't about saving time, it is about new 
possibilities for travel and human connection. While the world 
got a glimpse of another travel speedup in the 1970s with 
Concorde, it wasn't an economically sustainable advance. 
Although the program was a marvelous technical success, only 14 
Concordes saw service, and even though the airlines bought them 
for 1 British pound, they weren't profitable to operate, 
sometimes flying with 75 percent of the seats empty.
    The world has now gone six decades without a lasting 
increase in the speed of long-distance travel. Crossing the 
Atlantic takes as long today as it did in 1959. We believe the 
world is long overdue for a speedup. And in 2019 we have all 
the technology needed to build an economically viable, 
environmentally responsible supersonic airliner.
    Applying technologies developed for the subsonic market to 
a supersonic design, Boom will deliver a Mach-2.2 airliner 
called Overture by the mid-2020s. Overture is designed to 
profitably replace today's transoceanic business-class service.
    With Overture, as with the first jets, faster speeds are 
about new possibilities rather than just less time on 
airplanes. Today, a flight from New York to London takes around 
7 hours and is often flown as a redeye. On Overture, because 
the flight takes only 3 hours and 15 minutes, a New Yorker can 
take a 6 a.m. flight out of JFK, arrive at Heathrow in the 
early afternoon, travel downtown, meet with clients, and take 
them to the pub before catching a 9 p.m. flight home, arriving 
back in New York in time to tuck her kids into bed at night.
    Today a flight from San Francisco to Tokyo takes around 11 
hours, and to attend a Monday morning meeting in Tokyo you 
leave the U.S. on Saturday. With Overture, because the flight 
takes only 5\1/2\ hours, you can leave a full day later, arrive 
on Monday morning, have a full day of meetings, fly home, and 
be back 24 hours after you left. The full trip shrinks from 3 
days to 1 day.
    Importantly, this isn't a science project. No fundamental 
research is necessary. All the technology to build Overture 
exists. And later this year, we are rolling out our supersonic 
demonstrator aircraft, called XB-1, which is now under 
construction in our hangar in Colorado. When XB-1 flies its 
design cruise speed of Mach 2.2, it will earn the distinction 
of history's fastest civil aircraft.
    XB-1 and Overture are only the first steps in achieving our 
mission. To truly make our planet accessible for all, we need 
further to increase speed, reduce costs, increase passenger 
comfort, relaxation, and productivity. We expect to make 
progress on all of these fronts with each airliner model we 
design. Eventually, we see a world in which no trip anywhere on 
the planet takes more than a few hours, fares are lower than 
today's economy prices, and the experience of travel is serene 
and productive. Travelers should look forward to the few hours 
they will spend in an airline seat.
    I look forward to discussing the future of flight with this 
subcommittee, and to working with you all to build a more 
accessible world. Thank you.
    [Mr. Dourado's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Eli Dourado, Head of Global Public Policy and 
                    Communications, Boom Supersonic
    Mr. Chairman, and members of the Aviation Subcommittee:
    Thank you for hosting this hearing and for the opportunity to share 
how today's advanced civil aviation technology is creating a more 
accessible world through a supersonic renaissance. At Boom, our mission 
is to eliminate the barriers to experiencing the planet--time, money, 
and hassle--starting with the long hours spent on long-haul flights. 
Why do the barriers to experiencing the planet matter? Because when 
those barriers are in place, people simply don't travel as often.
    For context, think about the world before jet airplanes. In the 
late 1930's, flying on Pan Am from LaGuardia to Lisbon took more than 
24 hours. Only 20 years later, at the dawn of the jet age, the same 
flight took only 7 hours. Travel skyrocketed. You might think that 
since jets were three times faster than the propeller aircraft they 
replaced, people would spend around a third as much time on airplanes. 
In fact, with the burden of a 24-hour flight removed, people spent more 
time on airplanes because they traveled much more often. Speed, 
therefore, isn't only about saving time--it is about new possibilities 
for travel and human connection.
    While the world got a glimpse of another travel speedup in the 
1970's with Concorde, it wasn't an economically sustainable advance. 
Although the program was a marvelous technical success, only 14 
Concordes saw service, and even though airlines bought them for  1, 
they weren't profitable to operate, sometimes flying with 75% of the 
seats empty.
    The world has now gone six decades without a lasting increase in 
the speed of long-distance travel--crossing the Atlantic takes as long 
today as it did in 1959. We believe the world is long overdue for a 
speedup. And in 2019, we have all the technology needed to build an 
economically viable, environmentally responsible supersonic airliner.
    Applying technologies developed for the subsonic market to a 
supersonic design, Boom will deliver a Mach-2.2 airliner called 
Overture by the mid-2020's. Overture is designed to profitably replace 
today's transoceanic business-class service.
    With Overture as with the first the jets, faster speeds are about 
new possibilities rather than just less time on airplanes. Today, a 
flight from New York to London takes around 7 hours and is often flown 
as a red-eye. On Overture, because the flight takes only 3 hours and 15 
minutes, a New Yorker can take a 6 am flight out of JFK, arrive at 
Heathrow in the early afternoon, travel downtown, meet with clients, 
and take them to the pub before catching a 9 pm flight home, arriving 
back in New York in time to tuck her kids into bed.
    Today, a flight from San Francisco to Tokyo takes around 11 hours--
and to attend a Monday morning meeting in Tokyo, you leave the US on 
Saturday. With Overture, because the flight takes only 5 and a half 
hours, you can leave a full day later, arrive on Monday morning, have a 
full day of meetings, fly home, and be back 24 hours after you left. 
The full trip shrinks from 3 days to 1 day.
    Importantly, this isn't a science project. No fundamental research 
is necessary. All the technology to build Overture exists. And later 
this year, we are rolling out our supersonic demonstrator aircraft, 
called XB-1, which is now under construction in our hangar in Colorado. 
When XB-1 flies its design cruise speed of Mach 2.2, it will earn the 
distinction of history's fastest civil aircraft.
    XB-1 and Overture are only the first steps in achieving our 
mission. To truly make our planet accessible for all, we need further 
to increase speeds, reduce costs, and increase passenger comfort, 
relaxation, and productivity. We expect to make progress on all these 
fronts with each airliner model we design. Eventually, we see a world 
in which no trip anywhere on the planet takes more than a few hours, 
fares are lower than today's economy prices, and the experience of 
travel is serene and productive--travelers should look forward to the 
few hours they'll spend in an airline seat.
    I look forward to discussing the future of flight with this 
subcommittee, and to working with you all to build a more accessible 
world.
    Thank you.

    Mr. Larsen. Thank you, Mr. Dourado.
    I now want to turn to Mr. Eric Allison, head of Elevate, 
Uber Technologies.
    You are recognized for 5 minutes.
    Mr. Allison. Thank you. Mr. Chairman, Ranking Member 
Graves, and members of the subcommittee, it is a privilege to 
be here today before you to discuss the role that Uber will 
play in delivering aerial ridesharing services in the years 
ahead.
    My name is Eric Allison, and I am excited to lead Uber's 
Elevate initiative. Last year Uber changed its mission 
statement to reflect its ambition and purpose: We ignite 
opportunity by setting the world in motion. Elevate is an 
embodiment of this mission. We envision a future where anyone 
can open the Uber app, push a button, and get a flight, setting 
people in motion like never before as we radically improve 
urban mobility.
    To enable this future, we are developing our Uber air 
product, a real-time, on-demand network of short-range 
intracity aircraft that will deliver time savings on a massive 
scale.
    So why is Uber doing this? We know that every year millions 
of hours are wasted in traffic, worldwide. In fact, the Los 
Angeles Times reports that L.A. is the most congested city in 
the world, where residents lose over 100 hours each year to 
traffic. This problem will only get worse as populations grow 
and ground infrastructure is unable to keep up.
    Today around half of the world's population resides in 
urban areas. And the United Nations predicts an additional 2.5 
billion city residents by 2050, overwhelming already strained 
infrastructure. Uber believes that solving these problems is 
core to our business. We can't ignite opportunity when the 
world is stuck in traffic.
    Since publishing our Elevate white paper in 2016, we have 
worked diligently to answer the following questions. Why don't 
people fly in cities today? And what are the barriers to urban 
aviation becoming a large-scale mode of transportation? We have 
identified an approach to systematically tackle each of these 
challenges, and our analysis projects that aerial ridesharing 
is not only feasible, but can be offered at rates affordable 
enough to make everyday flight accessible around the world.
    To achieve this vision, over the next 3 years we aim to 
conduct meaningful demonstrations of all electric vertical 
takeoff and landing aircraft in Texas and California, and 
commence certified commercial operations in 2023. In order to 
deliver on this ambitious timeline, we recognized early on that 
we can't do this alone. Broad-based partnerships with 
Government and industry are critical to achieving our vision. 
We are partnering with companies such as Boeing, Bell, Embraer, 
Pipistrel, and Karem Aircraft. These leading manufacturers and 
innovative new entrants are perfectly positioned to pave the 
way for quiet, safe, reliable, and affordable Uber air taxis.
    The Federal Aviation Administration is another incredibly 
important partner in this journey to make urban aviation a 
reality. We firmly believe that certification of air taxi 
vehicles through the recently revised part 23, which was 
supported by this subcommittee in the form of the Small 
Aircraft Revitalization Act, is the best path forward. We 
encourage the FAA to commit to using part 23 to safely and 
expediently certify these new aircraft, firmly establishing 
United States global leadership in this innovative new 
category.
    In addition to our partnership with the FAA, we are pleased 
to have signed two Space Act Agreements with NASA, one for the 
development of UAS traffic management concepts and 
technologies, and another to explore urban air mobility. UTM is 
paving the way for Uber and other companies to drive innovation 
and develop airspace services that manage vehicles safely and 
efficiently without putting an undue burden on existing air 
traffic operations or air traffic controllers.
    At Uber we are investing in aerial ridesharing because we 
believe in the future of aviation and changing the way the 
world moves. By 2050 we will no longer be discussing our work 
to develop battery technology, our transition from piloted 
aircraft to autonomous, or our ability to fully integrate into 
the urban airspace. Rather, in 2050 we intend to be safely and 
autonomously operating millions of daily flights, fully 
integrated into the National Airspace System, and with zero 
carbon emissions. Working with world-class leaders in the 
aerospace industry and our Government partners, we believe we 
can bring about lasting positive change for the world through 
2050 and beyond.
    In addition to our daily work to advance urban aviation, 
this June we will be holding our third annual Elevate Summit 
right here in Washington, DC, presenting never-before-seen 
developments, and showing exactly how close we are to making 
aerial ridesharing a reality. We want to do this in concert 
with policymakers like yourselves, as we move closer to 
bringing Uber Air to major cities in the United States. We hope 
you will join us for what will undoubtedly be an exciting 2 
days.
    To give you a sense of how users will live this future 
transportation experience, I would like to close with a short 
video illustrating Uber Air. I hope you enjoy this fast-
forwarding to the future, and look forward to answering your 
questions about our vision and approach. Thank you.
    [Mr. Allison's prepared statement follows:]

                                 <F-dash>
Prepared Statement of Eric Allison, Head of Elevate, Uber Technologies, 
                                  Inc.
    Mr. Chairman, Ranking Member Graves, and Members of the 
Subcommittee, it is a privilege to be here before you today to discuss 
the role Uber will play in delivering aerial ridesharing services in 
the years ahead.
    My name is Eric Allison and I am excited to lead Uber Elevate. Last 
year, Uber changed its mission statement to reflect its ambition and 
purpose; we ignite opportunity by setting the world in motion. Uber 
Elevate is the embodiment of that mission statement. Our vision of the 
future provides users an opportunity to substantially reduce their 
commuting time while simultaneously utilizing a carbon neutral option 
that requires minimal infrastructure and can all be summoned through 
the Uber app. The product, Uber Air, will be the result of our 
development of a real-time, on-demand network of aircraft that will 
deliver time savings on a massive scale.
    When we envision aviation in 2050, Uber sees a future that looks 
substantially different from what we rely on today. Autonomous control 
of aircraft and airspace will ultimately enable a fully scaled network 
that can support thousands of flights per hour--over every major city 
in the world. This scaled network is key to Uber Elevate and our vision 
of urban aviation.
    The United Nations predicts that 68% of the world's population will 
reside in urban areas by 2050, up from 55% today. To support an 
additional 2.5 billion residents, something drastic must be done to 
address the transportation problems created by this increased 
population density. The Los Angeles Times reports that L.A., one of our 
pilot markets, is the most congested city in the world, where residents 
spend over 100 hours annually stuck in traffic. This problem will only 
continue to worsen as populations grow and ground infrastructure is 
unable to keep up. Time spent in traffic ultimately represents less 
time with family, fewer hours growing our economies, and more pollution 
in our world.
    As a multimodal transportation platform, Uber believes solving this 
problem is core to fulfilling our mission. Just as cities looked to the 
skies to expand, urban aerial ridesharing will use three-dimensional 
airspace to alleviate transportation congestion on the ground. We 
started this journey in 2016, publishing our Elevate White Paper \1\ to 
answer the following questions: why is urban aviation not a viable form 
of mass transportation, and what barriers must be overcome.
---------------------------------------------------------------------------
    \1\ Uber Elevate: Fast-Forwarding to a Future of On-Demand Urban 
Air Transportation: https://www.uber.com/elevate.pdf
---------------------------------------------------------------------------
    Since 2016, we have worked diligently to answer these questions. 
Our analysis projects that aerial ridesharing is not only feasible, but 
can be launched at affordable prices. Once at scale, we believe we can 
operate at rates that may be cheaper than owning and driving your own 
car, making everyday flight accessible around the world.
    To achieve this vision, we aim to conduct meaningful demonstrations 
over the next 3 years in Texas and California and commence certified 
commercial operations in 2023. We know this timeline may sound 
ambitious, but we believe that big, bold bets require pushing the 
boundaries of what's possible. During our demonstration phase, we 
intend to prove the safety, reliability, and low noise footprint of our 
aircraft while working with the respective communities to ensure we 
receive their feedback on how to best serve their residents. In all 
markets, our service holds the promise of reducing congestion and 
improving quality of life.
    Ultimately, no one company can do this alone. We recognized early 
on that broad-based partnerships with government and industry are 
critical to achieving this vision. Partnering with industry leaders in 
aircraft manufacturing, infrastructure development, battery 
engineering, and forward-thinking regulators will ensure our product 
best serves the community.
    Together with our partners we are actively designing new aircraft 
to lead a revolution in urban aviation in cities around the globe. 
We're proud to be collaborating with these job creators to chart the 
future. Our partners include Boeing, Bell, Embraer, Pipistrel, and 
Karem Aircraft; these leading manufacturers and innovative new entrants 
are perfectly positioned to pave the way for safe, reliable, and 
affordable Uber air taxis.
    The Federal Aviation Administration (FAA) is another incredibly 
important partner in this journey to make urban aviation a reality. Our 
collaborative work to develop this new ecosystem has made us 
increasingly optimistic about the future of air transportation in the 
United States. We encourage the FAA to continue its innovative approach 
to aircraft and operational certification without sacrificing safety. 
Specifically, if we want to see aircraft certified safely and 
expeditiously, we implore the FAA to commit to a certification pathway 
that considers long term operational impacts and does not stifle 
innovation. We firmly believe that certification through the recently 
reorganized Part 23 structure, which was supported by this subcommittee 
in the form of the Small Airplane Revitalization Act (SARA), is the 
best path forward for all manufacturers and operators.
    In addition to our partnership with the FAA, we're pleased to have 
signed two Space Act Agreements with NASA, one for the development of 
UAS Traffic Management (UTM) concepts and technologies, and another to 
explore Urban Air Mobility (UAM). UTM is paving the way for Uber and 
other companies to drive innovation and develop airspace services that 
manage the vehicles safely and efficiently without putting an undue 
burden on existing air traffic operations or air traffic controllers. 
Both of these efforts are essential to achieving fully scaled 
operations by 2050.
    Our plan is to operate our aircraft along precise virtual route 
networks that can be dynamically adjusted to the needs of air traffic 
safety and control, noise and other community considerations as well as 
air traffic demand. These networks will provide high predictability and 
transparency of our operations. In developing these systems, we are 
taking a highly systematic approach to integration and validation in 
simulations and field testing to ensure interoperability with the FAA's 
air traffic systems as well as other UAS service suppliers. These 
partnerships are critical for devising the path for safely sharing the 
airspace amongst all users.
    The FAA and NASA's ongoing investment in the future of aviation is 
partially thanks to committees like this one working to encourage our 
government partners to embrace the future. We ask Congress to continue 
prioritizing this developing ecosystem, and we look forward to 
extending our collaborations with government partners to work on 
aircraft and pilot certification, airspace integration, and air traffic 
management.
    In addition to our daily work to advance urban aviation, this June 
we will be holding our 3rd annual Elevate Summit right here in 
Washington DC, presenting never before seen developments and showcasing 
exactly how close we are to making aerial ridesharing a reality. We 
want to do this in concert with policymakers like yourselves as we move 
closer to bringing Uber Air to major cities in the United States. We 
hope you'll be able to join us for what will undoubtedly be an exciting 
2 days.
    At Uber, we are investing in aerial ridesharing because we believe 
in the future of aviation and changing the way the world moves. We see 
incredible and growing demand across all urban markets for safe, 
reliable and fast transportation services, and our network will be an 
excellent supplement to public and private transit options. In 2050, we 
will no longer be discussing our work to develop battery technology, 
our transition from piloted aircraft to autonomous, or our ability to 
fully integrate into the urban airspace. Rather in 30 years, we intend 
to be operating millions of daily flights; safely, autonomously, fully 
integrated into the National Airspace System (NAS) and with zero carbon 
emissions. Working with world class leaders in the aerospace industry 
and our government partners, we believe we can bring about lasting 
positive change for the world in 2050 and beyond.
    To give you a sense of how users will live this future 
transportation experience, I would like to close with a short video 
illustrating Uber Air. I hope you enjoy this fast-forwarding to the 
future, and look forward to answering your questions about our vision 
and approach. Thank you.

    Mr. Larsen. Thank you. Are we going to run that video right 
now?
    [Video shown.]
    Mr. Larsen. Thank you. I think you also proved how quiet it 
can be in the future.
    [Laughter.]
    Mr. Allison. That is very nice music.
    Mr. Larsen. Thank you. And now I want to recognize Captain 
Joe DePete, who is the president of ALPA, the Air Line Pilots 
Association, International.
    I recognize you for 5 minutes.
    Mr. DePete. Thank you, Chairman Larsen, Ranking Member 
Graves, and the subcommittee for the opportunity to be here 
today.
    Before I begin, please let me take a moment to recognize 
the Ethiopian Airlines and Atlas Air accidents recently. Our 
thoughts are with all those affected, and ALPA is committed to 
helping the industry take every possible action to prevent such 
tragedies in the future.
    Regarding today's hearing, we at ALPA understand the 
economic and societal value of the safe integration of new 
types of operations into the airspace. As a 40-year pilot, I 
can also tell you that airline pilots are very excited about 
flying in the future.
    Wilbur and Orville Wright were original innovators in 
aviation, and the first of many innovators in the United States 
airline industry. With every year innovation has brought 
greater safety to our skies, and I am proud to say that I 
believe that ALPA's work in safety, security, and pilot 
assistance, and our support for technological innovation are 
among the reasons why flying is the safest mode of 
transportation today.
    As head of the world's largest nongovernmental aviation 
safety organization, I can tell you that maintaining one level 
of safety throughout the national airspace is essential to 
fostering the innovation of tomorrow.
    The national airspace is a shared resource for all 
Americans, whether it is passenger and cargo airliners, UAS, 
urban mobility, super and hypersonic flight, or commercial 
space; the same high standards must apply to all who use it, or 
all are at risk.
    The United States owes it to our future to benefit from the 
lessons of the airline industry's past. One lesson we learned 
is that innovation is key to solving the greatest challenges, 
and to keeping flying safe. From developing center-line 
approach lights, to using technology to reduce inflight 
collisions, and helping shift the industry to a proactive 
safety culture to prevent accidents, ALPA is all about 
innovation.
    In fact, one of our industry's most valuable safety tools--
voluntary, nonpunitive safety reporting programs--sets the 
stage for this innovation. These safety reporting programs 
allow pilots and other aviation professionals on the front 
lines of daily operations to report safety hazards before they 
cause accidents. Safety risk issues are then prioritized by the 
commercial aviation safety team, or CAST, and used to improve 
policies, procedures, equipment, and training. Made up of 
representatives from the Government, labor, airlines, 
manufacturers, the CAST is a synergy on a massive scale. And it 
has saved lives.
    Together, CAST representatives focus on reducing U.S. 
commercial aviation fatality risk. The team exceeded its 
initial 80 percent target, and I am proud to say it has reduced 
the current risk rate now today by 91 percent, a remarkable 
achievement by any measure. The CAST model is one of aviation 
industry's best practices, and it shows how U.S. innovation and 
collaboration have created an extremely safe air transportation 
system.
    Another aviation best practice is our recognition that the 
most important safety asset on any commercial passenger or 
cargo airliner are at least two fully qualified, highly 
trained, and well-rested pilots in the cockpit. This lesson is 
critical to consider as many new types of flight operations are 
envisioned to be autonomous, meaning no pilot is involved in 
the flight.
    When it comes to integrating new types of operations into 
the national airspace, we have the opportunity today to do it 
right the first time. Expanded markets and technical 
advancement are creating exciting developments in aviation. 
Accommodating that growth presents regulatory and shared public 
resource challenges. We need Congress to lead our industry, and 
planning for that now. We must be bold. The FAA and the TSA 
must be given the resources to innovate through programs like 
NextGen. And a Government shutdown can never again be allowed 
to stop the FAA's lifesaving work.
    ALPA offers decades of experience, combined with our unique 
perspective from the cockpit. We are committed to collaborating 
with all who share the national airspace to ensure safety. So 
as we consider aviation in 2050, we have an opportunity to 
innovate not only on how we use our national airspace, but how 
we keep it safe. Together we can protect what is most important 
to us all: our passengers, participants, crew, and cargo.
    Thank you very much.
    [Mr. DePete's prepared statement follows:]

                                 <F-dash>
  Prepared Statement of Captain Joseph G. DePete, President, Air Line 
                   Pilots Association, International
    Mr. Chairman and members of the committee, thank you for giving me 
the opportunity to join you today to talk about Aviation 2050, the 
future vision for how our National Airspace System (NAS) evolves to 
serve the changing needs and demands of commerce, transportation, and 
the public at large. But before I share our thoughts on this important 
subset of the industry, please allow me to introduce my organization to 
you.
    I'm the president of the Air Line Pilots Association, International 
(ALPA), which represents more than 61,000 professional airline pilots 
flying for 33 airlines in the United States and Canada. ALPA is the 
world's largest pilot union and the world's largest non-governmental 
aviation safety organization. We are the recognized voice of the 
airline piloting profession in North America, with a history of safety 
and security advocacy spanning more than 87 years. As the sole U.S. 
member of the International Federation of Airline Pilots Associations 
(IFALPA), ALPA has the unique ability to provide active airline pilot 
expertise to aviation safety issues worldwide, and to incorporate an 
international dimension to safety advocacy.
    ALPA has seen incredible change in aviation over our history. We've 
seen airplanes evolve from doped fabric and wood, to carbon fiber and 
titanium alloys. We've seen radial piston engines give way to turbojets 
and, now, to the latest geared turbofans that can run on biofuel. And 
we've seen navigation evolve from spotting landmarks and light beacons 
to satellite-based positioning that can tell you where you are within a 
few feet, even at 600 miles per hour at 39,000 feet over the ocean. 
What is common to all of these changes is that they have moved from the 
realm of bleeding edge technology to being integrated as a routine part 
of operations.
                        aviation safety in 2050
    When I think about aviation in 2050, there is one aspect above all 
others that I sincerely hope continues to improve: aviation safety. It 
is clear that the commercial aviation industry has reached unparalleled 
levels of safety in the United States, and I like to attribute that to 
a couple of key activities.
    First, the efforts of the Commercial Aviation Safety Team (CAST) 
combined with Aviation Safety Information Analysis and Sharing (ASIAS) 
have led to dramatic improvements. Data analysis by CAST and ASIAS has 
resulted in a proactive safety culture that cuts across all airlines 
and stakeholders with unprecedented levels of collaboration, even when 
those same stakeholders often find more than enough to disagree about 
on any other part of industry policy. But safety isn't one of those 
areas. The predictive risk analysis conducted by the CAST and ASIAS 
allows the aviation community to collectively reach heightened levels 
of safety without waiting for a single drop of blood to be shed.
    The second major breakthrough in safety was the improvements that 
Congress introduced and were signed into law as part of the FAA 
Authorization Extension Act of 2010. Unfortunately, these safety 
enhancements came about after four fatal airline accidents in a 
relatively short amount of time, including the crash of Colgan Flight 
3407, which resulted in 50 fatalities. We recently marked the 10-year 
anniversary of that accident with resolve that the events of that night 
resulted in something better. We mourned the loss of those who 
perished, but we took solace in the levels of safety that have resulted 
from the legislation passed soon after that tragic accident. Thank you 
for your leadership and oversight on that law. Since we are discussing 
innovation and technology today, I wanted to highlight the fact that, 
as a result of the legislation, there has been significant innovation 
on pilot training of upset prevention and recovery and extended 
envelope for flight crews.
    As a result of the Colgan Flight 3407 accident, as well as a 
Pinnacle flight that crashed in Jefferson City, Mo., on October 24, 
2004, ALPA promoted innovations in pilot training and has been a 
stalwart advocate and leader in upset prevention and recovery training. 
The requirements for this upset prevention and recovery training, which 
was called for in the FAA Authorization Extension Act of 2010, go into 
effect for airlines this month. The pioneering strategy deployed to 
improve the simulation devices for this training was no small task. 
Improvements on aircraft performance data as well as software 
enhancements to simulators were needed in order to provide pilots with 
this new training. The collective work of many organizations has led to 
better trained pilots in phases of flight that previously could not be 
simulated on the ground.
    Suffice it to say, it is my hope that in 2050 the safety 
improvements directed by Congress in 2010 will still be in place and 
will no longer be the target of those who wish to roll them back. But I 
also hope that by 2050, we will have taken safety a step further and 
will have raised the bar of airline safety so that all commercial 
airline operations are on the same level of safety. Today, Part 121 
commercial all-cargo safety levels are lagging the safety levels of 
Part 121 passenger operations. We must make this a focus area 
immediately, and we need to apply just as much focus on this safety 
issue as we have on passenger airlines.
    While it is way too early to know what caused the Atlas 3591 
accident, we do know that it is yet another fatal Part 121 all-cargo 
accident in a period of time where there has been only a single 
passenger fatality in the United States on U.S. passenger airlines. I 
believe that I can speak for all airline pilots when I say that we need 
to identify the safety gaps in all-cargo airline operations and put a 
plan in place to ensure that the safety levels we have come to expect 
with passenger airlines are also achieved by the all-cargo operating 
community. Our society certainly benefits from the innovations of all-
cargo package delivery operators; we should expect the same level of 
commitment to safety as consumers have come to expect on efficiency.
             new entrants become established nas operators
    It is with this keen eye on safety, that we offer our enthusiastic 
support to those organizations who are diligently looking to deploy new 
capabilities in the NAS. With the knowledge, experience, and 
operational perspectives that ALPA can bring to the table, we also 
extend our offer to help usher in these new capabilities safely.
    As we look toward 2050, we need to recognize that the new entrants 
of today will be just another operator in the future. In fact, the FAA 
is already well underway in laying the foundation for integration of 
both Unmanned Aircraft Systems (UAS) and commercial space operations 
into routine NAS operations. Thanks to FAA leadership, and the 
direction provided by Congress in last year's FAA reauthorization, we 
can already start to envision the day when all UAS operations are 
performed safely and within the law, and space launches occur routinely 
without partitioning or blocking off large sections of airspace. As UAS 
and commercial space transition from new entrants to established NAS 
users, we can see the next opportunities on the horizon: urban 
mobility, the return of commercial supersonic transportation, the 
building of wireless data infrastructure through high-altitude long-
endurance vehicles, and even suborbital hypersonic transportation. As a 
long-time pilot first in the military and then at both passenger and 
cargo airlines, these are exciting concepts that I look forward to 
seeing come to fruition. However, we note that many of these new types 
of operations will not have pilots on-board the aircraft, and most are 
striving for autonomous flight, which means that there will be no pilot 
in command of the flight. Understanding the implications of this 
fundamental change bears careful examination.
                  unmanned aircraft system integration
    ALPA recognizes that UAS represent a significant potential for 
economic and societal benefit. They are uniquely suited for performing 
many types of dangerous flying that can keep pilots out of harm's way. 
ALPA supports robust development of this technology with one single 
overriding condition: integration of UAS into the NAS must be done 
safely, deliberately, thoughtfully, and with full understanding and 
effective mitigation of the possible risks. We must do this right, or 
the enviable safety record we have achieved in airline operations will 
be at risk and, with it, the promise of employing UAS for the benefit 
of the population.
    Recently, a company approached the FAA to obtain exemptions that 
would allow them to bypass more than 200 Federal Aviation Regulations 
(FARs) in order to start a commercial UAS package delivery service 
without any limitations to flying over residential or other populated 
areas.
    Granting this petition for exemption would allow the petitioner to 
bypass the FAA UAS implementation policy of ``crawl, walk, and run'' 
for the introduction of new technology, capabilities, and procedures. 
The FAA has historically established regulations based on accidents and 
incidents to establish the current FARs. Aviation regulations represent 
a safety framework for which commercial for-hire operations are 
conducted. Issuing exemptions to so many of the requested areas appears 
to erode the safety levels established by the FAA through regulation, 
many of which were established as a result of accidents and incidents 
with injury and loss of life to passengers and people on the ground.
    As required under 14 CFR Part 11.35 (b), the FAA withheld 
proprietary company manuals and related material, including the 
petitioner's safety case justification. Therefore, many of the 
exemptions requested could not be thoroughly evaluated by industry 
stakeholders. If successful, we can anticipate that other manned and 
unmanned operators would seek similar exemptions from the same 
regulations included in this Petition for Exemption, awarding them to 
others without a clear safety justification. This is not how UAS 
operations should be implemented in the NAS if the objective is to make 
UAS a standard participant in routine NAS operations.
    As we have for many years, ALPA continues to be an active partner 
with both government and industry in developing standards that will 
lead to safe operation of UAS in the NAS. Concurrently, we recognize 
that these standards are far from complete. Defining a safety framework 
for any new technology is necessarily a painstaking process, and ALPA, 
along with hundreds of extremely talented representatives from across 
aviation, is diligently pursuing that goal.
    While it is tempting to leap-frog this process and accelerate 
approvals for implementation, the only way to ensure safety is to 
methodologically work through each step of risk assessment. We believe 
there may be ways to accelerate the integration, with additional 
resources and innovative use of technology for data collection. But we 
would be concerned if the process were to be accelerated without 
systematically working through all of the risks.
    ALPA believes that safe integration of UAS includes four 
fundamental elements:
    1.  Education: Anyone who plans to fly UAS must understand their 
aircraft, the airspace, and the other aircraft that could be 
encountered while flying.
        In the case of UAS that might be flown for compensation or hire 
in civil airspace, the pilot must hold a commercial pilot certificate 
to ensure he or she possesses the appropriate skill and experience to 
meet safety standards designed to protect the flying public.
        Those flying UAS for recreational purposes must adhere to the 
FAA regulations and guidelines, including potential minimum age 
requirements, keeping the UAS within line of sight, and flying at 
heights under 500 feet.
    2.  Registration: Gathering basic information about the identity of 
the individual purchasing the UAS not only allows law enforcement 
authorities to identify the owner if the UAS were to encounter a 
problem, but it also helps make clear the serious nature of operating a 
UAS in the NAS and the responsibility to safeguard public safety. We 
continue to urge Congress and the FAA to require registration to occur 
at the point of sale of the UAS.
    3.  Technology: If UAS, either intentionally or unintentionally, 
are operated in airspace that airliners use, airline pilots need to be 
able to see them on cockpit displays, controllers need the ability to 
see them on radar scopes, and the UAS must be equipped with active 
technologies that ensure that it is capable of avoiding collision with 
manned aircraft. In these types of operations, technology must enable 
the pilots to control and interact with them in the same manner as if 
the pilot were on board.
        If a UAS is restricted by regulations from operating in a 
particular geographic area and/or altitude, it must have technology 
that cannot be overridden that limits the geographic areas and altitude 
in which it can operate. This may include permanent locations such as 
the White House and all public airports, as well as temporary 
restrictions such as for wildfires or natural disaster areas.
    4.  Penalties and enforcement: UAS pilots must be properly trained 
and understand the consequences of unsafe operations. Anyone flying a 
UAS that is a hazard to other aircraft in the airspace, especially 
those who choose to do so recklessly near airports, must be identified 
and appropriately prosecuted. We support the criminalizing of 
intentionally unsafe operation of UAS and penalties for unintentional 
unsafe UAS operations. If additional funding is needed for this 
purpose, Congress should provide the resources needed without delay.
    ALPA applauds Congress for its clarification of FAA's authority to 
fully regulate all UAS operations in the 2018 FAA Reauthorization (P.L. 
115-254), to include model and hobby operators, who previously were 
exempted from regulation. We are especially grateful for this 
subcommittee and Chairman DeFazio for the dedication to promote safe 
UAS operations. We are also grateful to observe that the FAA has 
already made progress in addressing all four of these elements.
                 urban mobility--another airspace user
    Another new type of operation that is relatively close to earth is 
emerging with tremendous momentum and energy: urban mobility aircraft. 
Several companies have visions for urban mobility that in some cases 
involve an autonomous or remotely piloted aircraft that carries 
passengers. Again, the challenges of certification and economic 
viability are significant, but so are the challenges with integration 
of the airspace. In fact, urban mobility aircraft may need to integrate 
with low-altitude piloted aircraft such as rotorcraft as well as small 
UAS, in airspace managed by Air Traffic Control. But because some of 
their concepts include operations at large air carrier airports, they 
will also need to interact with the traditional national airspace 
system. Because almost all of us had to sit in traffic to get here 
today, I don't think anyone wants progress for this type of aircraft 
operation to be slowed for any reason. And so again, just like with 
other types of innovative operations envisioned for the NAS, ALPA will 
be ready to offer our assistance and knowledge to ensure that this 
integration challenge is successful and safe.
                reducing the impact of commercial space
    Commercial space operations are not new. In fact, it has been more 
than 30 years since Congress established a the Office of Commercial 
Space Transportation in the Department of Transportation (DOT), which 
now resides at the FAA. The industry is mature, and thanks to a series 
of events over the past decade, it is thriving through an expansion in 
proposed spaceports and significantly increased operational frequency. 
I was excited to see that the SpaceX Crew Dragon spacecraft undocked 
from the space station and returned to earth safely in its test run, 
before launching with astronauts.
    These are truly exciting times for America as we experience 
innovation and advancements that are literally blasting off before our 
eyes. However, we must keep commercial aviation part of a discussion on 
commercial space. Future growth and success of U.S. commercial aviation 
depends upon continued safe, dependable, and efficient access to shared 
public resources such as the National Airspace System, air traffic 
management, ground infrastructure, and airport services. The need to 
integrate commercial space operations and commercial aviation 
operations into the NAS is an urgent need that will require careful 
planning and commitment from many different parts of the industry.
    One thing is clear, expanded markets and technology advances in 
space are enabling new commercial companies to access these limited 
resources, which has become a critical challenge for the aviation 
community. Air traffic management, airports, and the NAS are regulated 
and managed according to strict operational and safety regulations, 
which will not sufficiently accommodate the projected growth and 
evolution of space transportation, without enhancements to how space 
flight is accommodated by the NAS. There must be a means to safely 
integrate with existing aircraft operations and infrastructure without 
decreasing the level of safety or efficiency for existing operations. 
Full integration will allow space operations to plan and execute 
launches without extensive coordination like they do now, and full 
integration will also eliminate the need for segregation of space 
operations from commercial airline flights. Bottom line: Commercial 
space integration improves safety and efficiency of the NAS for all 
airspace users. A strategy to fully integrate commercial space 
operations into existing NAS operations is a critical first step to 
achieving this important goal.
    Neither industry would be successful today without the other. Each 
sector generates hundreds of billions of dollars in annual economic 
returns for the United States and immeasurable benefits to society. The 
FAA has coordinated the activities of both airplanes and rockets 
successfully for more than 60 years. In many ways, there is a false 
distinction between the two sectors, since several aircraft types 
travel into outer space, and all space vehicles travel through the 
atmosphere. As spaceflight becomes more diffuse and routine, both 
sectors must cooperate to create policies, regulations, and procedures 
to manage shared national aerospace resources safely and efficiently.
    An important reason to keep the commercial space industry a part of 
the aviation 2050 discussion is that there are going to be innovations 
in safety and efficiency that will likely find their way into 
commercial aviation. For example, Virgin Galactic plans to utilize a 
spacecraft for multiple flights with paying passengers (technically 
speaking, they are participants), and this experience will likely help 
the commercial airlines better understand the interest in hypersonic 
travel and the potential issues that would accompany a transition to 
this type of travel in the future.
    ALPA is very interested in supporting the commercial space 
industry's efforts to advance through the full integration into the 
NAS. To fully articulate the complementary nature of commercial space 
and commercial aviation, we published a white paper that documents the 
role of the government agencies and industry, both historically as well 
as today. That whitepaper can be found at www.alpa.org/whitepapers.
                   super and hypersonic technologies
    ALPA recognizes that super and hypersonic technology will continue 
to advance and provide for the significant potential for economic and 
societal benefit. Although supersonic commercial airline transportation 
itself is not new, it is also not routine. Supersonic technology was 
birthed in commercial aviation in the 1970's with the introduction on 
the Concorde. Pilots of the Concorde routinely logged more supersonic 
time in a year than military pilots logged in their entire military 
career. What few people may remember is that Braniff, an ALPA carrier, 
briefly operated a Concorde on a route from Dallas-Fort Worth to 
Washington Dulles using Air France and British Airways aircraft.
    Although the Concorde is long retired, a new generation of aircraft 
manufacturers is looking to develop supersonic civilian aircraft. Aside 
from the challenges of economic viability and community acceptance of 
noise from possible sonic booms, these aircraft will also need to 
integrate into the NAS. While the aircraft are anticipated to cruise 
much higher than current air transport aircraft, they still must climb 
and descend through congested airspace and take off and land at busy 
airports. Depending on their performance at lower altitudes, this could 
present additional integration challenges to operations and ATC 
automation.
    Supersonic aircraft technologies allow for significant reductions 
in flight times, which is realized on long distance routes. While this 
technology continues to develop, supersonic technology may be quickly 
overcome by hypersonic flight, as the aviation industry saw with the 
microwave landing system. ALPA supports the robust development of this 
technology, but we must ensure that the integration of this technology 
is done safely.
    A step beyond supersonic aircraft is hypersonic or suborbital 
vehicles. Several commercial space companies have already presented 
visions of flights from Asia to the East Coast of the United States 
taking 90 minutes or less. While these spacecraft may have fewer 
concerns when it comes to sonic booms, they still must integrate with 
the rest of the NAS and ATC. Depending on their exact flight profiles, 
this operation may look like a conventional aircraft, a spacecraft, or 
something in between, thus presenting its own integration challenges.
  supersonic and hypersonic certification standards must account for 
                        technology advancements
    This month we celebrated the 50th anniversary of the first flight 
of the Concorde, but when it comes to large transport category 
aircraft, the materials used to reinvigorate such travel are still in 
their infancy. Although the use of carbon composite structure dates 
back before the 70's, it was the Boeing 787, unveiled in 2007, that 
broke world records with the use of carbon composites in more than 50 
percent of the airplane's primary structure.
    Carbon-based and other composite structures bring a great advantage 
to the aviation industry. They are lightweight, easy to configure into 
complex geometries, and can be easy to repair. However, because 
composites are a newer manufacturing technique to the aircraft 
manufacturing industry they are also more difficult and subjective to 
inspect, not standardized similar to metallic materials, and have less 
empirical data providing a clear picture of the their damage tolerance 
and fatigue capabilities, even less so when considering the large 
disparity in operational environments between current large-transport 
aircraft and those operating in a super or hypersonic regime.
    Additive manufacturing, more commonly known as 3D printing, is 
another area in which technological enhancements to materials are 
reinvigorating the exploration of super and hypersonic air travel. By 
printing an aircraft part from scratch, manufacturers have discovered a 
way to reduce material waste, increase part quality, and reduce weight 
while enabling the manufacture of complex parts previously impossible 
to machine. Although ``printed'' rather than forged or cast, these 
parts can be manufactured with the same properties of their parent 
materials. But with any new technological advancement, such strides are 
accompanied by new deficiencies not previously envisioned.
    Printed aircraft parts are, similar to composites, beholden to the 
process under which they are manufactured. And although composites have 
been used for many years, 3D printing only recently became economically 
viable on a large scale. As such, testing and airworthiness guidance 
has not been thoroughly developed, tested, or used. Certification 
standards must now account for the effect process has on the material 
integrity as well as initial part design and continued durability.
    ALPA supports the enhancements that material development such as 
proliferation of composite structures or 3D printed parts can have on 
the aviation industry. To ensure the safety of the NAS and the 
traveling public, this technology must be fully vetted and completely 
mature before it can be used in commercial service.
  super and hypersonic powerplant reliability must be maintained and 
                                improved
    Advancements in propulsion technologies are a huge key to the 
proliferation of super and hypersonic commercial aviation because it 
impacts fuel efficiency, operational costs, environmental impact, and 
safety. This was a primary driver in the retirement of the Concorde 
from commercial service almost two decades ago. A large part of 
increasing fuel efficiency, and thus operational costs, is to reduce 
the weight of the engine. However, to do so, engine tolerances must 
become smaller, which leads to an engine that may be more susceptible 
to failure.
    ALPA continues to be an active stakeholder in ensuring engine 
testing is robust, both from a certification and a continued 
operability standpoint. Although we have certification standards for 
debris ingestion, continued operational power, and contained failures, 
to name a few, we must continue to ensure that engine designs become 
more reliable. The criticality of powerplants cannot be understated for 
commercial aviation, and even more so when operating at super and 
hypersonic speeds.
    environmental impact of super and hypersonic operations must be 
                               addressed
    One of the challenges the Concorde faced was sonic booms. In the 
United States, supersonic flight is restricted to eliminate the impact 
of sonic booms on people and wildlife. Sonic booms can be disruptive to 
wildlife, which is damaging to our ecosystems. Sonic booms are also a 
nuisance to people and can damage property. In recent years, several 
studies have researched the effects of wing shape with the goal of 
developing a wing that will create a softer or nearly imperceptible 
sonic boom. While these technologies are being developed to reduce the 
noise footprint for the sonic boom, the environmental impact of these 
technologies must be fully researched and clear standards developed.
     super and hypersonic operational requirements must provide an 
                       equivalent level of safety
    Super and hypersonic aircraft will, by their nature, be traveling 
much faster than aircraft currently flying today. This type of air 
travel will likely not be replacing today's but rather augmenting it. 
For this reason, consideration must be made of how to safely and 
successfully integrate super and hypersonic transportation into the NAS 
infrastructure.
    ALPA's position is that the foundation of operating an aircraft, 
regardless of altitude and speed therein, in a safe and responsible 
manner must be maintained at the same level of safety. Super and 
hypersonic aircraft operators must be required operate to an equivalent 
level of safety to air carrier operations, and regulations must ensure 
that the unique operational needs are addressed to ensure the safety of 
the NAS and the traveling public. These must include provisions for the 
unique environment that the operations are conducted.
   faa modernization: improved nas capabilities for safe integration
    In addition to robust design standards and safe rules of operation 
for the new aircraft described above, another key for successful 
integration is to improve the capabilities of the NAS itself. This 
might include development and integration of a UAS traffic management 
system that can interoperate in real-time with the Air Traffic Control 
system when necessary or procedures and automation to handle high-
altitude/long-endurance aircraft. For commercial space, capabilities 
include the development of real-time data sharing of spacecraft launch 
and trajectory information with ATC, so that large blocks of airspace 
are not closed for hours at a time but instead can be managed in real-
time.
    Better integration will make it easier for UAS and commercial space 
to meet their operational goals while maintaining the target level of 
safety for pilots, passengers, and the public on the ground.
    An example of a potential near-term NAS improvement with both 
safety and efficiency benefits is Space-Based Automatic Dependent 
Surveillance--Broadcast (ADS-B), or the use of satellites to receive 
position reports from aircraft, and potentially spacecraft, while over 
the ocean. The beauty of this capability is that it does not require 
the aircraft to be equipped with any additional equipment beyond what 
is already required for flight after January 1, 2020. Space-Based ADS-B 
allows ATC to receive position updates every 8 seconds, as compared 
with today's minimum update interval of 14 minutes. One immediate 
improvement to aviation safety is that near-real-time tracking of 
aircraft becomes a reality. This will hopefully make delays in accident 
investigations like Air France Flight 447, in which the main part of 
the aircraft wreckage was not located for 2 years after the crash, a 
thing of the past. It may also help prevent another Malaysia Airlines 
Flight 370 incident, as the location of this aircraft is still unknown.
    Beyond the safety improvement, trials are already planned for 
reduced separation based on this new surveillance improvement. With 
additional improvements in communications capability to go with Space-
Based ADS-B, a revolution in how oceanic operations are performed could 
occur, leading to significant increases in both safety and efficiency. 
The FAA is already evaluating how to incorporate Space-Based ADS-B into 
operations, and ALPA fully supports these initiatives.
    It appears that there is now a need for a broader oceanic airspace 
modernization initiative. For example, in addition to Space Based ADS-
B, we anticipate that improvements in communications between pilots and 
air traffic controllers will also be needed for the continued reduction 
of aircraft separation. Voice communications via satellite relay are 
currently carried out via a third-party relay--it is not like domestic 
VHF radio communications where the pilot and controller speak directly 
with each other using a simple press of their radio button.
    At some point, oceanic communications will limit the extent to 
which reductions in aircraft spacing can be achieved. Today's use of 
voice communications in the oceanic environment is cumbersome, and most 
pilots would say that voice communications are generally inadequate for 
real-time air traffic control communications with flight crews. As 
satellite technologies continue to evolve, the use of direct 
controller-pilot voice communications in a manner similar to domestic 
en route airspace may make oceanic operations significantly safer and 
more efficient. With the ability for controllers to give revised 
clearances quickly, pilots would be able to reduce time spent flying 
through turbulence and avoid hazardous weather conditions, thus 
improving safety for passengers and crews. With the correct planning, 
the airspace over the oceans may not require the use of preestablished 
``oceanic tracks'' for aircraft to navigate. Someday, just like 
domestic airspace, the oceanic airspace may allow airline aircraft to 
fly the most direct and efficient path between departure and 
destination airports. Improvements to the oceanic airspace environment 
may also assist commercial space operators through increased real-time 
access to be able to launch on an orbital trajectory from the 
coastlines of the United States. However, to define and implement these 
visionary concepts by 2050, we must get started right away.
                   nasa contribution to aviation 2050
    When we talk about air and space, the National Aeronautics and 
Space Administration (NASA) is a key research organization that has 
laid the groundwork for many of the innovations we see in commercial 
aviation today. ALPA applauds NASA's past efforts, and we encourage 
NASA to expand the scope of its research to work much more closely with 
the FAA to ensure that new concepts and technology not only work as a 
proof of concept, but also meet the needs of the FAA and industry. This 
will assist the FAA and industry in taking the next steps toward 
integration. Examples of excellent NASA research that would have 
benefited from further maturation and closer collaboration with the FAA 
include use of Automatic Dependent Surveillance--Broadcast (ADS-B) for 
spacing applications as well as its air traffic management automation 
research programs. NASA's goal should extend beyond the research and 
include the collaboration and work necessary to see research through to 
implementation.
    Looking at the UTM concepts, the NASA work does not appear to 
provide FAA with an implementable solution, but rather is a series of 
technology demonstrations that may or may not be usable by the FAA for 
establishment of traffic management at low altitude airspace for UAS, 
rotorcraft, and urban mobility concepts. There is a need for additional 
discussion about the role of the FAA in managing low-altitude airspace, 
as well as public debate on whether the FAA should turn over air 
traffic management in low-altitude airspace to commercial vendors. To 
date, that discussion has not yet occurred, but ALPA believes it should 
begin in earnest.
                        workforce for the future
    As we look toward the future, aviation faces a challenge also seen 
by other technology-focused industries: how to develop and shape 
today's youth to become tomorrow's high technology workforce. The FAA 
is already seeing significant challenges in replacing the Air Traffic 
Controller workforce as today's controllers reach retirement age. ALPA 
sees many opportunities to improve our overall education and training 
system, which will serve aviation and the country well.
    First, to get the sheer numbers of people needed to work in all 
aspects of aviation, we must improve diversity in the aviation 
workforce and harness the limitless talent available in the United 
States, which can be accomplished through easy and affordable access to 
education beginning in elementary and secondary education with a focus 
on developing a passion for Science, Technology, Engineering, and 
Mathematics in our youth. This must be followed by affordable college 
educational opportunities at traditional 4-year institutions, but also 
should include new and expanded use of community colleges and 
vocational or apprenticeship programs. For example, the Community 
College of Beaver County, PA., and Green River Community College of 
Auburn, WA., are just 2 of 36 institutions offering programs that can 
lead to jobs in air traffic control or aviation maintenance technology.
    Taking action now is the only way to ensure a sufficient workforce 
will exist to fly airplanes, control air traffic, maintain aircraft and 
ATC equipment, and develop the new capabilities that will be needed for 
aviation into the future.
    In closing, ALPA sees a bright and exciting future that builds on 
the past century of aviation development. As with the past, the new 
types of aircraft operations we are discussing today will become the 
established operators of tomorrow--and new ideas and technologies are 
already on the horizon to take their place. All of these great ideas 
must be introduced with safety as the top priority to ensure that the 
airline industry can continue to improve upon the impressive safety 
record that we have worked together to attain. This level of safety was 
not created by luck, but by hard work to ensure that current operations 
are safely performed and that new operations can be safely integrated 
with those already in place. To maintain and improve this level of 
safety, we must ensure that this hard work continues and make 
investments now in our workforce so that we have the people with the 
skill, expertise and passion to ensure that the future public can be as 
confident in our aviation system as we are today.
    Thank you for the opportunity to participate in this important 
discussion today.

    Mr. Larsen. Thank you, Captain, very much for your 
testimony and your service to the flying public.
    Mr. DePete. Thank you.
    Mr. Larsen. I want to now recognize Members for Member 
questions. Each Member will be recognized for 5 minutes. I will 
start with myself, and I will start with Mr. McBride.
    I do want to correct your testimony. Your business traveler 
in your example would have flown from Arlington, Virginia, to 
Seattle, and she would have stayed and had her family then fly 
out to meet her, and they would have stayed and not flown back 
here.
    [Laughter.]
    Mr. Larsen. So if you fix that, I think we will be all 
right.
    Now, in your written testimony you state that UAS will be 
fully integrated in the airspace in 2050. In your view, and 
NASA's view, looking at your research, what is the first and 
most important step to make that happen?
    Mr. McBride. Well, the things we are working on with the 
UAS and the NAS activity. NASA has been involved with 
integration of unmanned aircraft for the past 20 years. The 
latest effort is UAS and the NAS.
    The key technologies that we are working on is detect and 
avoid to assure the piloting community and the FAA that UAS can 
detect and avoid autonomously, or with equal acuity as a human 
pilot, other aircraft in flight.
    Mr. Larsen. So in airplanes now there is--we call it detect 
and warn, I suppose, detect and warn the pilot. How advanced 
are we in the detect-and-avoid technology deployment?
    Mr. McBride. The detect-and-avoid technology has come along 
well, good sensors on board with both cooperating and 
noncooperating aircraft. The cooperating aircraft would be 
aircraft with transponders or--broadcasting their location, but 
also with noncooperating flying vehicles, from balloons to 
simple GA airplanes that may not have a transponder on board.
    So making good progress. We did have a good demonstration 
this past summer at No Chase COA with our MQ-9 Ikhana aircraft, 
and that activity was recognized with an Aviation Week Laureate 
award this past week.
    Mr. Larsen. Ms. Cooper, you were on the Remote 
Identification Aviation Rulemaking Committee in 2017 for the 
FAA. Why do you think it has taken so long for the FAA to get 
that rulemaking in place?
    Ms. Cooper. Thank you for your question, Chairman Larsen. I 
can't speak for the FAA, so I am also wondering why it is 
taking so long, since industry as a whole provided great 
recommendations on how to roll out remote identification.
    I understand there are security agencies that also need to 
take a look and weigh in on the rule. I am hoping that this 
committee can help us, you know, unlock the rulemaking for 
remote ID so we can move forward.
    Mr. Larsen. So explain to the Members what moving forward 
means. Why is remote ID, a remote ID rule, needed?
    Ms. Cooper. Thank you for your question. A couple of years 
ago the FAA was ready to put out a proposed rule for operations 
over people, and it was clawed back due to security agency 
concerns.
    The concept was today we understand if we see a drone 
flying over a crowd it is generally--we understand it is 
illegal, so we know that that is a threat we need to take 
action against. But if everyone is generally allowed to fly, 
under a rule, over people on a regular basis it will be very 
difficult to discern a friendly drone--you know, say, operated 
by a news agency--versus a rogue drone looking to do some harm.
    And so the idea is let's implement remote identification 
requirement across the board with UAS operators, so that law 
enforcement can easily identify through the electronic license 
plate who is operating in the airspace, and to understand if 
they are a threat or not.
    Mr. Larsen. Well, thank you. We will look--I think we ought 
to look further into that.
    Mr. Dourado, what is different about Overture, compared to 
SST? What has changed in 30 years in the technology to make 
this project more of a reality?
    Use your microphone, please.
    Mr. Dourado. Thank you, Mr. Chairman. I think there has 
basically been three major advances that make now the right 
time.
    So one is computational methods for design. So hard to 
believe, but Concorde was designed on paper, with slide rules. 
And it is a remarkable achievement, we have discovered. We 
continue to be impressed with what the engineers of that era 
were able to accomplish in designing a Mach-2.0 airliner with 
Concorde.
    With computational methods, we can do sort of a virtual 
wind tunnel test daily, you know, run several in parallel. 
Whereas these wind tunnel tests took, you know, 6 months of 
time and several million dollars for Concorde to do. So we can 
iterate more quickly, and improve the aerodynamics.
    Another huge advance is improvements in materials. So 
Concorde was designed out of aluminum. Aluminum is very 
expensive to tool in a way that has the flowing shapes that our 
aerodynamics require. And it also does not hold--the thermal 
stability is not as high. So Concorde actually would grow over 
a foot in length over the course of each flight, and then 
shrink as it cooled off.
    And then the third major advance is in propulsion 
technology. So jet engines get better at a rate of about one-
half of 1 percent to 1 percent every year, which, over 50 
years, is, you know, a nontrivial improvement in fuel 
efficiency and so on. So, whereas Concorde flew with four 
turbojet engines with afterburners, we are down to three 
engines with modern turbo fans and no afterburners. So it is 
much more fuel efficient, it is quieter, and it pollutes a lot 
less.
    So it is just huge advances applying the subsonic 
improvements of the last 50 years to a supersonic design. And 
we look forward to innovating in the future with supersonic-
specific technologies. But none of those are needed for the 
first model.
    Mr. Larsen. All right, thank you. I have further questions, 
but in fairness to the committee members I will move to Mr. 
Graves of Louisiana for 5 minutes of questions.
    Mr. Graves of Louisiana. Thank you. I want to thank you all 
again for being here and for your testimony. And I want to 
reiterate it is very exciting to be able to think forward and 
be able to plan for what we need to be doing now to prevent 
Government from becoming an obstacle or impediment, but rather 
a partner with you in your innovation efforts.
    I want to ask each of you just to simply answer the 
question. What do you see as being either the biggest 
opportunity or the biggest impediment for Government to step in 
and to help facilitate innovation, to help facilitate some of 
the technologies that particularly the three of you in the 
middle are working on right now? I am curious. Your response?
    Mr. McBride. So I think the biggest opportunity we have 
covers all three aspects that we impart here today, 
advancements in supersonic aircraft that will open up the high 
end of the market; improvements in subsonic aircraft which will 
greatly improve the efficiency of today's aircraft, although 
the picture you presented, Mr. Graves, from 1988 shows a great 
improvement from then to today. There is still room for 
aircraft efficiency, maybe on the order of 50 percent 
improvement yet by this 2050 goal. And then integration of 
unmanned aircraft. That is a market that 5 or 10 years ago we 
didn't see expanding and exploding as it is now, with urban air 
mobility, and the ability to transport packages and people and 
sensors.
    So all three aspects are ripe for commercialization and 
further market improvement.
    Ms. Cooper. Thank you for your question. Unmanned traffic 
management is the biggest opportunity for our industry and for 
our--many of the vehicles represented at this table to be able 
to share the same airspace safely.
    UTM is a concept borne out of NASA's work at Ames, and many 
industry players, including our company, have already developed 
commercial aspects of UTM technology.
    Congress also directed the FAA in the Reauthorization Act 
to figure out a process for rolling out early phases of UTM in 
low-risk areas, so thank you very much for your support with 
that provision. And we look forward to the FAA rolling that 
out.
    Mr. Dourado. For supersonics I think the two opportunities 
are for FAA to continue the two rulemakings that they have 
underway that were in the FAA reauthorization bill. So one is 
to create noise standards for takeoff and landing. No airplane 
can be certified without a noise standard, and none exists for 
supersonic airplanes. So FAA is working to put a standard in 
place.
    And the other is to clarify the testing rules for 
supersonic aircraft over the United States. It is illegal to 
operate supersonically without a special authorization. And the 
way that you get that, or how that is going to work affects our 
ability to test aircraft and to do certification testing and 
production flight testing.
    Mr. Graves of Louisiana. And, of course, NASA is working on 
technology right now that would believe to help--and I guess 
building an aircraft--to help demonstrate a technology where 
you are reducing the sound.
    Mr. Allison?
    Mr. Allison. Yes, thank you for the question. I think in 
general, we all work in this very highly regulated industry. 
And it is going to remain that way, and it needs to remain that 
way to ensure the safety of operations that we all care deeply 
about every time we fly on an airliner.
    But I think that what we need from regulators is clarity of 
pathway, which I think is very--is, essentially, what we have 
all been saying here, that we need to have clarity on the rules 
that manufacturers and operators in these new fields, and in 
these new types of technologies that we are working on, so that 
they can innovate. Because setting the fences--you know, 
clearly defining the fences and allowing the innovators to 
innovate within those boundaries is the best way to unlock the 
speed of innovation that we all want to see.
    And in urban air mobility, in particular, I think what we 
see the FAA doing a good job at is starting to define this 
pathway for certification of the vehicles. And then how does 
the operations come in, as well, because what we are talking 
about is a different type of vehicle and different type of 
operations from the way that the rules have kind of grown to 
be, based on the technology that existed when they were 
written.
    And so we have to see that continued progression toward 
clarity of the rules, so that the manufacturers and the 
operators can innovate within those----
    Mr. Graves of Louisiana. Thank you.
    Mr. DePete. Thank you, Representative Graves. I think the 
biggest opportunity is the success that led us to the safest 
period of time in aviation history--was through collaboration 
and leadership.
    I have never--pardon me while I fall back to my Marine 
Corps days, but I haven't seen a situation that either couldn't 
be solved or better managed through good leadership. And we 
have got that. And, in fact, I think I owe everybody in this 
room a debt of gratitude, because this latest FAA 
reauthorization was just a fantastic achievement. And closing 
the gap with the hobbyists was a fantastic move. You made it 
safer for everyone that flies.
    Having said that, I think some of the biggest challenges 
would be a steady stream of reliable income for the Government 
to stay open. Closing down Government, to have a 5-year FAA 
Reauthorization Act, and to have so many good plans and good 
ideas, and go through the starting and stopping, I just don't 
see how we can achieve our goals efficiently in that manner. 
So----
    Mr. Graves of Louisiana. Thank you.
    Mr. Larsen. Thank you. I recognize Representative Lipinski 
of Illinois for 5 minutes.
    Mr. Lipinski. Thank you, Mr. Chairman. I thank all the 
witnesses for testifying today. It is fascinating to think 
about what the possibilities are that are available, and more 
than, I think, most people know is already possible.
    I wanted to ask Mr. McBride a little bit more about the--if 
you could, expand on the types of testing that NASA and the FAA 
are doing with regard to UTM, and how this is going to change 
as we go forward. There is, you know--is it--I assume it is 
simulation-based testing right now. And what about moving to 
real-world testing, as this progresses, so that we actually 
know that it is going to all work when it gets going?
    Mr. McBride. It is simulation-based testing, but also 
integrating actual UAS or UAV flight tests, and surrogates in 
flight test. We are doing a virtual airspace test for a 
weekend, fly over restricted airspace at Edwards Air Force 
Base, but overlay that data real-time with real traffic in busy 
FAA traffic sectors. So we are flying UAVs in restricted 
airspace with no traffic around it, but the FAA controllers are 
seeing that flight overlaid on top of actual busy traffic.
    We are taking that also to flying our UAVs in busy traffic 
corridors. Again, I mentioned this past summer we did the UAS, 
the NAS No Chase COA, where we flew through the Central Valley 
of California in and amongst air traffic, and air traffic 
controllers saw and spoke to the aircraft, as if it were a 
manned aircraft.
    So we are doing both virtual and simulated, and overlaying 
both of those together to mimic the real airspace.
    Mr. Lipinski. And how do you envision the certification 
working for the new unmanned systems?
    Mr. McBride. NASA is working together with the FAA to 
develop minimum operating procedures and standards to develop 
those basic rules.
    The original starting point for FAA is with a manned pilot 
with detect-and-avoid, as a human eye could detect and avoid 
and maneuver to avoid other aircraft or terrain. And so NASA is 
developing, along with FAA and our partners at DHS and DoD, 
standards that will enable a baseline for that, minimum 
operations standards the industry could then manufacture or 
design to.
    Mr. Lipinski. And I wanted to ask Mr. Allison. You know, 
right now we have a robust network of businesses that support 
aircraft operations, companies that provide ground handling, 
fueling, maintenance, passenger accommodations. How do you see 
all this changing?
    Mr. Allison. Thank you for the question. We have taken a 
very partnership-forward approach in everything we have done 
with Elevate. And so we actually look forward to partnering 
with many of the companies that do various different types of 
operations right now in the current types of typical commercial 
operations, as we develop the Elevate network of air taxis 
going forward.
    So we think there are great opportunities to both expand 
businesses and create new businesses around these types of 
electric aircraft, which will have some new and unique types of 
maintenance and operational considerations, but an opportunity 
to expand existing offerings to partner with us to bring this 
to the world.
    Mr. Lipinski. And where do you envision this--the 
maintenance and all the other ground operations happening? At 
airports as they exist now, or do you envision something else?
    Mr. Allison. So we envision a network of relatively short-
range, all-electric aircraft. So our mission specification that 
we have derived from very extensive simulations that we do of 
existing traffic patterns in cities suggests that an aircraft 
with a range of something like 60 miles, max range of 60 miles 
plus a reserve after that, will then operate within the 
network, kind of in an average trip length of about 25 to 30 
miles. And so they are relatively short-range things.
    And so what we have to do is have, essentially, maintenance 
depots and hubs on the outskirts of the areas where we will be 
operating, where there will be the--kind of the ongoing types 
of maintenance that we hope is actually dramatically less than 
typical aircraft today, because, with all-electric aircraft, 
just as with all-electric cars, the maintenance requirements 
are much, much lower, because the mechanicals are just vastly 
simplified in these vehicles.
    Mr. Lipinski. All right. Thank you very much. I yield back.
    Mr. Larsen. Thank you, Mr. Lipinski.
    Before we move on I just want to remind people we are 
calling folks in the order of seniority at which you were here 
at the gavel. Then if you were here after the gavel, then you 
are put on the list in the order that you were here. So it may 
seem a little random, but it is--there is a method to the 
calling of folks.
    Before calling on Representative Spano from Florida, just a 
headsup that Mr. Allred from Texas will be the next Democrat 
called upon.
    But for 5 minutes, Mr. Spano from Florida.
    Mr. Spano. Thank you, Mr. Chairman, and thank you for 
putting together this meeting together--very, very informative. 
And thank you all for your input today. I am very grateful for 
it.
    One of the things that we talk about a lot--and it is true, 
but we discuss it a lot--is the importance of having people who 
are able and willing and knowledgeable to serve in the economy, 
as we are moving forward, right?
    And so one of the big things--if we are expecting the 
aviation industry to boom, like we hope it will, and expect it 
will, we are, obviously, going to have to have people, young 
people now, that are getting educated, that are excited, that 
are motivated to get into the industry. So I would love to hear 
what your various opinions are, if you can answer just briefly 
for me, each one of you.
    What is it that we can do to encourage this next generation 
of people that are going to be working in the aerospace 
industry?
    Mr. McBride. Well, one thing we do is provide interesting 
and exciting technology for young people to work on. I started 
my career with NASA in 1982, as an intern, as a cooperative 
education student. And that helped me get through college and 
become an engineer. I think what we can do is continue that 
path, and keep providing exciting work in the work we heard 
described here at the table today. It certainly merits and 
would bring on that next generation of students.
    Ms. Cooper. Thank you for your question. Drones provide a 
perfect entry point for the youth to get engaged in aviation. 
The low cost and ease of use of the technology, it is being 
spread through STEM programs across high schools across the 
country, and it is bringing new life into the aviation space.
    So, you know, I think one thing we can do is keep that in 
mind, that often the youth are engaging from a hobbyist 
perspective, and then they will grow to be aviators as a 
career. We need to keep that in mind when we are looking at 
rules that regulate the very young novel users of this 
technology.
    Mr. Dourado. I want to echo what Mr. McBride said, that it 
is, I think, really about inspiring people by the amazing 
things that we can do as an aerospace industry. I think right 
now, when young people look into what career they want to do, 
they don't want to spend their whole career as an aerospace 
engineer designing a slight tweak to a winglet on a subsonic 
airliner. That does not spark joy.
    And I think if we can show that aerospace really can change 
lives and can develop rapidly and can be an exciting field to 
work in, that is how you get people into those fields.
    Mr. Allison. I want to agree with everything he said. I--
thank you for the question. I think it is really, really, 
important to think about this. How do we inspire the next 
generation of both leaders and engineers that will be creating 
this?
    I remember back when I was a young child and the first 
space shuttle was launched, and I remember the National 
Geographic magazine that had the picture of that on the cover. 
And I think that probably was pretty formative, in terms of the 
way I thought about things that I wanted to do.
    And I think that that is why we have placed a pretty heavy 
emphasis on telling the story of what we are doing pretty early 
on, and being pretty public about that, and really trying to 
lean into that, because we think it is really, really important 
to inspire the community, the ecosystem of companies that have 
to exist, but also of dreamers that have to exist to then be 
participating in this to bring the next generation to bear to 
create these amazing technologies.
    Thank you.
    Mr. DePete. Thanks for the question. This is a particular 
area where I feel like ALPA really, truly shines. We have been 
involved in the effort for a really, really long time. In fact, 
our top three strategic plan priorities at the Air Line Pilots 
Association is safety and security, pilot representation, and 
then the future of the profession.
    Last year alone we visited over 15,000 secondary and 
primary education universities around the country. And, in 
fact, a week from now I will be at Embry-Riddle Aeronautical 
University to do the same, to inspire youth. We are also 
heavily invested in promoting STEM programs.
    And so every step of the way we are trying to build a 
future and a pipeline for new pilots to come into the programs.
    But importantly, all those other factors I talked about, 
the safety and the representation end, to maintain a viable 
profession that people would want to come. I mean love of 
flying is great, it is what truly inspires us all. But you have 
to have a viable career along with it all. So it is a package.
    Mr. Spano. Yes. Thank you.
    Mr. DePete. Thank you.
    Mr. Spano. Mr. Chairman, I yield back.
    Mr. Larsen. Thank you.
    Mr. Dourado, five points for the first pop culture 
reference for the day, minus five for your choice.
    [Laughter.]
    Mr. Larsen. I recognize Mr. Allred for 5 minutes.
    Mr. Allred. Thank you, Mr. Chairman, and thank you to all 
the witnesses for being here today.
    Mr. Allison, I will largely be directing my questions to 
you, because I represent Dallas and the northern suburbs of 
Dallas. And we are one of the fastest-growing cities in the 
country, and we are grappling with the traffic congestion 
problems that come along with that growth, and our growth is 
not going anywhere, right?
    And we also have, I think, a rich history of aviation. We 
have a number of great aviation companies and transit hubs in 
our area. And so, you know, I am extremely excited about your 
pilot project in Dallas.
    But while the idea of hopping on an air taxi and being able 
to leave all of that congestion behind sounds great, we 
obviously have to address some of the hurdles and safety issues 
that might come up as part of that. And I want to talk to you a 
little bit about that.
    Uber Elevate has plans to begin flight tests in Dallas next 
year, with commercial operations beginning in 2023. In addition 
to pilots, what types of jobs will these commercial operations 
bring to my area?
    Mr. Allison. Great. Thank you for the question. Yes, we 
intend to, working in conjunction with our partners, who are 
actually building the vehicles, start demonstration flights to 
be able to demonstrate to the communities we are working in, 
like the Dallas metroplex, the value proposition, essentially, 
the quietness, and kind of helping people to understand where 
the technology is going. That is really why we are leaning into 
doing this as early as we can. We won't do it any earlier than 
it makes sense to do it safely.
    And we think that, by moving expeditiously through the 
certification process, it is possible to get to certified 
commercial operations by 2023. But obviously, that depends on 
the regulators and the companies that are working with the 
regulators to kind of move through that process in the right 
way. We can't start operating things until they are certified, 
and we won't start operating them until we are sure that they 
are safe and meet the standards that we think are necessary to 
operate this type of a network.
    So there will be lots of different types of jobs that will 
be created in this type of a service, everything from pilots--
because we believe that these vehicles will be piloted in the 
initial iteration of this type of a service.
    We think in the long arc--when you are thinking 2050, we 
think that there is this long-term trend toward autonomous 
operations, especially for smaller vehicles. It makes a lot of 
sense. But we think that there is every reason to start with 
pilots in these vehicles to get going quickly and operate as 
safely as possible in the near term with them.
    And then there is all the support services. So there is 
both engineering, there is the maintenance repair and overhaul, 
if we are able to develop the network in the way that we think 
the demand will push it from our simulations. There will be 
demand for many, many, many aircraft in this type of a network 
over each of the cities in which we operate.
    And so there is all the corresponding jobs that come with 
that, in terms of the maintenance types of jobs, in terms of 
just operations. So there would be some number of operators in 
each of the sky ports in which we operate from that will be 
very interesting jobs. And these are all very localized jobs, 
too, so it is not like you have to go far from home on a daily 
basis to work in this type of a network. And so that is our 
vision for it.
    Mr. Allred. As part of that, how are you planning to work 
with the city of Dallas on building the infrastructure 
necessary to service this--service you are offering to provide, 
and with other cities, as well? Because, obviously, cities plan 
long term, and they need to have some kind of ability to plan 
for this. And if we are going to really integrate this, how is 
Uber planning to work with cities on that?
    Mr. Allison. Thank you for the question. So we are trying 
to work pretty tightly, coupled with the cities, all the 
different cities in the Dallas metroplex that we are talking 
to, including not just Dallas, but Fort Worth and Frisco and 
others.
    What we are trying to do is make sure that we give them 
early insight into what we are thinking. But we are also 
partnering with private companies, real estate companies, on 
the sky port.
    One of the nice things about this type of a network, 
vertical takeoff and landing aircraft, is that the 
infrastructure requirements are quite small compared to what 
you think if you wanted to put in a new road network, for 
example. It is a really interesting characteristic of these 
types of vehicles and networks that they scale by the nodes, 
essentially. And so you actually put in another--one more sky 
port, and you get connectivity to all the other sky ports, 
which scales much better than roads by the mile, from a cost 
perspective.
    So we are working with private real estate developers to, 
basically, develop in a partnership model these types of sky 
port infrastructure that we need, and keeping the city apprised 
of what we are doing.
    Mr. Allred. Well, thank you, Mr. Allison. My time has 
almost expired.
    You know, obviously, I have some safety concerns, as well, 
that I might be reaching out to you about. And if you could 
submit some written testimony on that, as well, that would be 
great.
    I yield back, Mr. Chairman.
    Mr. Larsen. Thank you, Mr. Allred. I now turn to 
Representative Stauber of Minnesota. And after that Mr. Payne 
will be the next Democrat. Mr. Stauber for 5 minutes.
    Mr. Stauber. Thank you, Mr. Chair and Ranking Member 
Graves.
    I graduated in 1984, and one of my bucket lists was to 
become a private pilot. I can share with you that I am in 43 
hours of the Cirrus SR20 and SR22. This congressional run and 
my current occupation here, serving the public, has stalled my 
training. But I can say the last flight my instructor says, 
``You are ready for solo,'' and I am not there yet. So I have 
been interrupted.
    I would also share with you--you talk about the pilot 
shortage, and what have you. One of my boys is a senior in high 
school. And on March 22nd we will be going to the aviation 
career expo at Lake Superior College in Duluth, Minnesota, a 
very well-respected college that teaches pilots to fly, and 
gets them interested in aviation culture.
    You know, something that I really want to detail--the NOTAM 
system. And this is for Captain DePete, primarily. We know that 
in 2017 in San Francisco the Air Canada bus nearly landed on a 
crowded taxiway, and they mistook it for a cleared runway. 
Information about that runway closure could have prevented 
that. The information was located on page 8 of the 27-page list 
of the San Francisco Airport NOTAMs. NOTAMs also frequently 
state there are birds in the area, what have you. We don't know 
what type of birds, if they are on the runway, in the air, or 
nearby.
    So, Captain DePete, can you please discuss some of the 
issues with the current state of the NOTAM systems, and the 
concerns you have?
    Mr. DePete. Yes, sir. And thank you for that question. I 
shared those same concerns for many, many years during my 40 
years of flying. I haven't seen very many improvements.
    In fact, I was really delighted when I heard the Chairman 
of the NTSB mention the problem. I have seen and heard of 
various efforts underway to streamline it. We have not--and my 
airline, the technology is such that I can use an iPad that 
will actually decipher that. But it is still buried, there are 
still too many.
    You think about the expectation. You are showing up for a 
flight maybe an hour before, and especially if you are flying 
international, and you are literally presented with a paper 
stack about that tall, about that thick [indicating]. And you 
have to weed through that to see what is relevant and what 
isn't. And it is almost--I mean you really have to--you would 
have to show up--and we do, we do whatever it takes to make it 
safe.
    But I share your concern with that, and we are actively 
working to try to fix that. We have got folks that are working 
in the--we have the largest, nongovernmental safety 
organization in the world. We are working with the FAA to 
somehow fix that.
    But again, you know, this really comes down to the funding 
issue again. You know, the FAA is--there is so much coming at 
them from so many different angles, you know, between UAS and 
commercial space. And we are all a part of that effort. But a 
steady, reliable source of funding would be a step in the right 
direction.
    So thank you for the question.
    Mr. Stauber. Thank you, Captain, for that answer. And as 
Ranking Member Graves talks about, aviation is an extremely 
safe way to travel. And we can--we are going to make it safer. 
And I appreciate you talking about the funding, because that is 
why--that is what we are meeting for today.
    So, Captain DePete, I will say this, that I am introducing 
a bill to form a task force to address these concerns with the 
NOTAMs, and I hope you will take part in it. And I think that 
is one of a number of additional safety items we can bring to 
the pilots and the culture in aviation. And I hope you will 
support that.
    Mr. DePete. Absolutely. Thank you very much.
    Mr. Stauber. Mr. Chairman, I yield back.
    Mr. Larsen. Thank you. Before recognizing Mr. Payne for 5 
minutes, just a headsup for Mr. Perry, who will be the next 
Republican. Mr. Payne is recognized for 5 minutes.
    Mr. Payne. Thank you, Mr. Chairman.
    Ms. Cooper, Newark Liberty International Airport is in my 
congressional district. And on January 22nd, 2019, air traffic 
was suspended at Newark due to a drone sighting. Over 40 
flights were held at the gate, while dozens of other planes 
were left circling, including a United Airlines flight from 
Jamaica just minutes away from running out of fuel.
    In addition to being on this subcommittee, I am also a 
member of the Homeland Security Committee, and I am very 
concerned about the use of drones for the wrong reasons, 
reasons such as terrorist attacks, or to cause air traffic 
disruptions like we experienced in Newark.
    Do you have any insight or suggestions about 
countermeasures that would be useful for the FAA to look into 
so that Newark and other airports across America can defend 
against terrorist attacks or other nefarious drone attacks?
    Ms. Cooper. Thank you for your question. There are a couple 
of aspects to your question. So there are the careless and the 
clueless operators, and then the criminal and terrorist 
operators, and we deal with them separately.
    In terms of the careless and clueless operators, 
educational initiatives similar to the Before You Fly campaign 
will help get us there. Remote identification, once that is in 
place and--implemented in a lot of the drones, already 
currently, but once the mandate is in place, that is going to 
go a long way to help with enforcement and additional education 
and compliance activities.
    Our company provides a LATAS software solution. That is 
integrated into about 80 percent of the drones flying 
commercially and as hobbyist drones in the United States. And 
that geofencing solution actually marks where the airports are, 
as well as critical infrastructure, prisons, places that are 
too sensitive for people to fly, generally, without special 
permission. And so that technology is already available today, 
and industry has been helping things move forward to help 
prevent these types of incidents from occurring.
    In terms of the criminal activities, we are going to need 
countermeasures in place, and Congress has acted to extend 
those authorities to a couple of agencies in their 
Reauthorization Act.
    Mr. Payne. OK. And you mentioned the importance of remote 
identification in your testimony. Can you discuss the role that 
remote identification could play in stopping the use of drones 
for the wrong reasons, such as terrorist attacks causing air 
traffic disruptions, or illegal actions like smuggling 
narcotics?
    Ms. Cooper. So remote identification is already implemented 
in a lot of the drones available today. However, there is not a 
legal mandate for operators to comply. Remote ID will help 
solve the needle-in-the-haystack problems. So currently you 
can't tell who is a friend versus a foe when you see a drone 
flying. So this will help with enforcing local laws, as well as 
Federal laws that are already in place that are technology-
neutral.
    Mr. Payne. Well, thank you, and, Mr. Chairman, I will yield 
back.
    Mr. Larsen. Thank you. Before we recognize Mr. Perry, just 
a heads up for Representative Davids from Kansas will be the 
next Democrat. Mr. Perry for 5 minutes.
    Mr. Perry. Thank you, Mr. Chairman, and thank the panel for 
taking the time to travel and be here. My questions 
specifically go to Ms. Cooper.
    The FAA recently published their ANPRM regarding--I think 
it is overflight of people and safety and security. I am just 
interested in your views on the proposed rulemaking.
    In particular, the FAA is asking questions on how an 
unmanned traffic management system should be implemented while 
NASA is completing its R&D work, and the FAA is in the midst of 
a congressionally mandated pilot, UTM pilot program, to answer 
some of these questions.
    I am just wondering if--look, I am glad the FAA is moving 
forward, we all are. And we are very interested in seeing them 
complete a product. But I am wondering if this is--if you feel 
this might be premature, if they are on track.
    Ms. Cooper. Thank you very much for your question, 
Congressman. During the Federal shutdown, as you noted, the FAA 
released two draft rules for operations over people and safe 
and secure operations. We are still working through what was 
provided in those draft rules.
    In terms of operations over people, we believe that the 
kinetic energy limitations that were identified are a little 
bit too conservative and restrictive, and are perhaps not in 
line with the recent research that ASSURE completed on kinetic 
energy. So we would like to see that framework become a little 
bit more flexible, and to also see alternative means of 
compliance with a rule, once it is implemented.
    In terms of safe and secure operations, there are various 
provisions in there. UTM is one of them. I think it is too 
early to be asking for a public comment on UTM, since UTM has 
already been implemented in stages, and there are various 
research programs looking at UTM currently that will help 
inform the draft rule.
    So I think it is too early to ask for public comment at 
this stage, while industry and NASA and FAA are working on UTM 
implementation. Once we get to an actual proposed rule, then 
that would be the time for public comment. Thank you.
    Mr. Perry. All right, thank you for that.
    And further, I think it has been since 2016 since the first 
regulations were issued. I think most of this is contingent--I 
think you already had a discussion with Mr. Payne about 
implementing remote ID.
    Do you know what the--from your vantage point, what is your 
feeling on--what is the holdup on remote ID requirement, and 
that rule? What do you think the holdup is?
    Ms. Cooper. Again, I can't speak for the FAA or for any 
other agencies. From my perspective, there seems to have been a 
disconnect in the discussions between the various agencies that 
need to work to get this rule implemented. And it has been 
difficult for industry to find out who actually holds the pen 
currently and who is the decisionmaker that will help put the 
rule out finally.
    Mr. Perry. So--and I am not going to try and put words in 
your mouth. And I am not asking you to speak on behalf of 
agencies. But I am interested in your opinion. So it sounds 
like it is not a technology issue.
    Ms. Cooper. Absolutely not.
    Mr. Perry. It is not a technology issue. Right? It----
    Ms. Cooper. The technology is already available 
commercially today.
    Mr. Perry. Right, right. And you even spoke about the 
software that your company offers. Probably there is a myriad 
of options there. But it is an issue of coordination and who 
wants to take the lead. Is that----
    Ms. Cooper. That appears to be--that is my best guess.
    Mr. Perry. Is there any--I mean who else would take the 
lead, if not the FAA? Would it be homeland? Who else would take 
the lead?
    Ms. Cooper. The security agencies are the reason why the 
rule needed to be drafted in the first place. And in the 
Reauthorization Act, Congress did direct DHS to identify a 
point person for UAS industry to work with on these types of 
issues.
    Mr. Perry. They--and I was there on the Committee on 
Homeland Security, when we did that, to work with the agency 
when they developed the issues. But it seems to me it is in the 
purview of the FAA. But if I am wrong, and if the industry 
thinks that that is not correct--that is what I am looking for, 
is your perception. Is the FAA, in the industry's perception, 
from your vantage point, the agency to take the lead on remote 
identification for UTM and UAS operations?
    Ms. Cooper. Absolutely. The FAA held their rulemaking 
committee, and they would be the correct agency to move 
forward. Thank you.
    Mr. Perry. Thank you, and I yield.
    Mr. Larsen. Thank you. I recognize Representative Davids 
for 5 minutes.
    Ms. Davids. Thank you, Mr. Chairman. So I am actually going 
to start off with Mr. McBride and Dr. Dourado.
    I am from a district in Kansas that--we--you know, we 
certainly have a lot of high-skilled, high-tech aerospace folks 
there. And we are building strong pipelines of students. And we 
have--in fact, at the Shawnee Mission School District I got a 
chance this year to see some of the students in action. But we 
have got a career and technical education pathways cluster at 
that school, and it allows students to start studying aerospace 
engineering before they head off to college.
    And I heard earlier the Concorde, you know, being designed 
kind of pre-CAD and there were engineers designing this stuff 
before we had the technology that we have now. And so I wonder 
if both of you or either of you can talk to me about what 
should I talk to the students about. You know, what is the 
future going to look like in 2050? And what are the things that 
we can talk to our students about to get them excited and 
engaged in this?
    Mr. McBride. One of the things to talk with the students 
about in aerospace and to get them engaged--that there is a 
bright future, and that aerospace, although it is--there is a 
lot of mature technology in there, mature aircraft for flying, 
there is a lot of opportunities for innovation yet.
    The supersonic aircraft that Mr. Dourado's company is 
building and developing, and the X-59, are two examples of two 
different types of supersonic aircraft. The X-59's purpose is 
to validate NASA's understanding of supersonic sonic boom 
weight mitigation, and the physics of the sonic boom as it 
travels through the air. And it is really an experiment, 
testing people on the ground and their acceptance and ability 
to tolerate sonic booms in overland flight.
    But for students, the message is--in aerospace is there is 
yet a lot of technology to be developed in supersonic, 
subsonic, and unmanned aircraft, as well.
    Mr. Dourado. And I agree with that, and I would say there 
is basically two things.
    Talking to students, you can appeal to the benefits to 
humanity that come from enabling this travel. And I think it is 
remarkable that you can experience--enable people to experience 
different cultures. You can enable policymakers from different 
countries to get in the same room. You can start new businesses 
that employ people in other countries, and domestically.
    So I think there is a huge benefit to improving human 
lives. And I think the other angle is that this is going to be 
a growing industry, in our view. As I testified, as speed 
increases people are going to fly more often. That means more 
planes, more operations, more everything. And so we really see 
aviation becoming a much bigger part of people's lives in the 
next 20, 30 years than it is today, even. So I think this is a 
very good career path to go down.
    Ms. Davids. That is great. And so I am really excited to 
hear that.
    And then, Mr. Allison, as a company that I think probably 
plans on being a place for the young people coming out of my 
district and a lot of our districts, you know, you mentioned 
the number of jobs, and how many--the variety of jobs.
    One of the reasons our aviation space is so safe is because 
we have folks like air traffic controllers, the pilots, the 
flight attendants, who all are, one, treated very well because 
they have unions that help advocate for their safety and public 
safety. I am curious how you envision and what should I tell 
the students about the prospects for their jobs in the future 
when we have, you know, folks like Elevate out there, you know, 
providing these kind of jobs.
    Mr. Allison. Thank you for the question. I think I echo the 
comments that have been made already, that there is just 
incredible potential here, and we are just scratching the 
surface of it, that there is just so much innovation that is 
yet to be done to create whole new sectors of the economy, 
essentially, that aviation will play an incredibly important 
role in.
    And I think that there are many different business models 
that have yet to be explored. As we get, you know, in the next 
few years, that we will start to explore, that others will 
start to explore when these services become closer to launching 
in a commercial way.
    But I think that--but, like all aviation jobs, the demand 
will be huge. And so there is going to be incredible potential 
for the types of work that different young people will want to 
do in the different sectors that I was mentioning before.
    Ms. Davids. Thank you. I yield back.
    Mr. Larsen. Thank you. I recognize Representative Balderson 
for 5 minutes.
    Mr. Balderson. Thank you, Mr. Chairman. My question is 
going to Mr. DePete.
    And everybody has kind of gone around this as I have been 
sitting here listening, regarding the importance of jobs and 
the lack of availability that is out there in people that are 
coming up. But what would you say?
    I mean we have an expected, you know, need of 790,000 
pilots by 2037. What is there for Congress to do to address 
this issue?
    And I, myself, got in a flight simulator. And I want to be 
a pilot tomorrow, because my experience with it was just 
phenomenal. So what can we do, as Congress, to encourage some 
of the things that get people motivated and interested in this?
    Mr. DePete. Well, I think, like I had mentioned earlier--
thank you for the question, by the way. Maintaining a viable 
career is really a key component in attracting people into this 
profession. You know, we have worked very hard and diligently 
over the years to build the type of career that people would 
want to actually come to, they could actually raise their 
families, have viable jobs, be productive members of the 
community. And you know, right now we feel like we have a 
really good, safe system right now to attract people in.
    But I think you have to really look at the fact that right 
now, as it exists, an OMB study, that there are twice as many 
airline transport rating pilots out there than available jobs 
today. So the question would become why aren't they coming 
forward, right?
    And so they--you know, there have been improvements over 
the years, the last several years. So I think if Congress 
focuses on that to understand viability, and looked at the 
threats to our industry, as well--I mean if you asked me what I 
thought one of the biggest threats to the industry is, and to 
this profession, it is unfair foreign competition, you know, 
through the likes of, you know, subsidized airlines and also 
atypical employment models. Because all the wonderful things 
that you worked so hard on to put in FAA reauthorization will 
be meaningless.
    So that is a really--you know, setting--making a fertile 
ground to grow this industry is extremely important for 
Americans and American workers. So thank you.
    Mr. Balderson. Thank you for answering that. And part of my 
followup is what you just went into. Regarding that, what 
technologies can we do to get our students interested in this 
career, or aviation, or having those cargo pilots move forward 
to the next level?
    Mr. DePete. Absolutely, I--you know, and that is why we are 
so heavily invested in our future of the profession 
initiatives.
    STEM programs, if you could support those--in fact, 
recently, several weeks ago, I met with Secretary Chao. And she 
is a very strong proponent of those programs. And building the 
pathways through a good educational system, accessible to all, 
is a clear win. So----
    Mr. Balderson. OK, thank you very much.
    Mr. Chairman, I yield back my remaining time.
    Mr. Larsen. Thank you, Representative Balderson. 
Representative Craig of Minnesota is recognized for 5 minutes.
    Mrs. Craig. Thank you so much, Mr. Chairman.
    Captain DePete, I just wanted to say hello to you. My 
district is home to over 1,000 Delta pilots. I am sure a few 
other airlines live there, as well. And they are proud to call 
Minnesota home.
    Mr. DePete. Great.
    Mrs. Craig. In your testimony you stated that in a future 
with autonomous flight there will be no pilot in command of 
various forms of aircraft. Can you talk a little bit this 
morning about how you think the role of pilots will shift in 
the coming decades? And what skills do you see in the future 
that will be necessary?
    Mr. DePete. Thank you for the question. Yes, you know, I 
have been flying for 40 years, and I have seen the introduction 
of technologies that are assistive and work, and other ones 
that, quite honestly, are just burdensome and we have to work 
around. The level of artificial intelligence capability to 
equate to a human in a cockpit is, in my view, that is a pretty 
far reach.
    I said earlier also in my testimony that the most important 
safety feature on any aircraft is two--a minimum of two, just 
for redundancy purposes, right--well-trained, well-experienced, 
well-rested flight crewmembers. I can give you an example.
    You know, there is--if this was [indicating]--an envelope, 
you know--our acceptable level of risk that we fly in, we like 
to be at the top of the envelope, at the middle of the 
envelope. We don't like when we get to the bottom. But, you 
know what? Sometimes we find ourselves--think about, you know, 
out of the envelope, and think about Sully Sullenberger, what 
happened there. We are trained to deal with those kinds of 
situations.
    So I think, as we envision this brave new world of 
autonomous flight, I think it is going to require also a 
level--and you mentioned Delta, so let me, if I could, just for 
a minute--there was a flight 86 in December of 2017. An engine 
failure had them land in Cold Bay, Alaska, with life-
threatening freezing conditions. They had almost 300 people on 
board an airplane.
    The town that they landed in on this World War II-era 
runway had six parkers. The one restaurant in the community was 
closed for the season. There were few townspeople. There was--
you couldn't even get all the people off the airplane, so they 
had to separate the people from one building to another 
building, and then some on the airplane. The three flight 
crewmembers went out and bought frozen food at a supermarket 
and started to cook for the people on the plane, and the people 
in those other buildings.
    What I am saying here is: autonomous? I would say that that 
emergency began the minute they hit the ground, it continued. 
And, you know, think about the level of infrastructure that 
would be necessary to sustain that model, to really build--to 
make that model truly what we are--you know, we talk about we 
are as safe as 10 to the minus 9, right? You know, 1 billionth.
    And so we have the safest system, and it has been made 
through leadership, collaboration. And what I would like to 
see, in terms of--you know, particularly in drones and the new 
technologies, is a little--it needs to be a multistakeholder 
approach, because we all share this airspace, right?
    And so if we could continue, we have the secret sauce, we 
know how to do this right. We are a perfect example of how to 
make it work, so--but thank you for that.
    Mrs. Craig. Thank you so much.
    Mr. DePete. Yes, I appreciate that.
    Mrs. Craig. I want to follow up with a question that isn't 
related to today, but certainly related to the sentiment, and 
that is safety.
    We are seeing this morning that the 737 MAX 8 fleet is 
being grounded in other countries. Do your flight--do your 
pilots feel safe right now flying that airplane?
    Mr. DePete. Here in the U.S. they have been--FAA has been 
extremely proactive. And, you know, I am always reticent to 
want to comment on any, you know, investigation that is 
currently underway, because we really don't have the facts of 
the recent Ethiopian accident right now.
    And, you know, as tough as it is--and it is terrible. I 
mean my heart goes out to all the families of the passengers 
and the crew. But we have to really avoid speculation at this 
point. But in general, answering your question, you know, we 
were--ALPA was very proactive, and so was the FAA, and so was 
Boeing, for that matter, to provide our crews here, which are 
highly trained crewmembers with minimum standards that don't 
necessarily truly exist in the rest--parts of the world, that 
gave us a methodology by which to deal with that safety of that 
airplane.
    Now, things are changing really rapidly. I wouldn't be 
surprised if when we are done with this hearing, that there 
could be more news. So----
    Mrs. Craig. I appreciate your response to that. Thank you.
    Mr. DePete. Thank you.
    Mrs. Craig. Mr. Chairman, I yield back the remainder of my 
time.
    Mr. Larsen. Thank you. I recognize Representative Smucker 
of Pennsylvania for 5 minutes.
    Mr. Smucker. Thank you, Mr. Chairman, Ranking Member 
Graves. Thank you for holding this hearing. It is fascinating 
to envision how air travel will change, and change our lives 
over the next few decades. So it is great to be part of this. I 
do specifically want to talk with Mr. Allison about urban air 
travel, and the potential there.
    You have described it even as an entire new ecosystem. And 
I would be interested in hearing how you envision that will 
roll out and how it will develop. You already mentioned in 
answer to a previous question that you expected the average 
trip would be about 25 miles. Are you--do you envision that 
would start as travel from city to city, or within a city?
    And then you also mentioned, I think, what you called a sky 
port. And I am interested in how much space that would take to 
develop that. And do you--at this point I guess it would be a 
point-to-point transportation, almost like a tram or a subway. 
But do you envision at some point that would be flying from 
building to building, or things of that sort?
    Mr. Allison. Thank you for the question. Yes, so when I 
talk about an ecosystem, I mean that there are a number of 
technologies that have to all come together in different ways, 
through different forms of partnership with other players in 
the industry to make it happen. And so there are vehicles, and 
we have vehicle partners that I mentioned that we are working 
with. There is infrastructure. We have infrastructure partners, 
big real estate firms around the world that we are working 
with.
    And then there is the network and the operations. And we 
are building a lot of that ourselves, because we think that is 
where our core competency lies. And so--but all these pieces 
have to come together in the right timeframe and in the right 
way to make this possible.
    We envision this being a true multimodal journey. So that 
means that, through our back-end technologies, when you press a 
button to get a ride and to get a flight, that we will provide 
the--whatever the best form of transportation is to get you to 
the sky port, whether that is a car or an autonomous car or a 
bike or a scooter, as we are introducing in many different 
markets right now, to get you to the sky port, transition to 
the air vehicle, to the remote sky port, and then on--the same 
thing on the other side. And I am automatically provided with 
the right form of transportation to get you to your final 
destination, so you can minimize the number of sky ports that 
you need in a network to serve the area.
    And so we think that is actually really important, to kind 
of make sure that the investment is correct, and to roll out 
these networks, to make sure that each sky port has the maximum 
effect, in terms of increasing connectivity to the rest of the 
network.
    We do see this starting as a small network, thinking--we 
have talked publicly about something like five sky ports in an 
urban area to start with, like the Dallas metroplex, which is 
one of our launch markets. And then the--envision--way the 
network would work is that any vehicle could fly from any sky 
port to any other sky port. So they would be within kind of the 
range constraints of the vehicles, so that you have true one-
to-many connectivity, though, between the sky ports, which 
makes the whole network work much better.
    And then the size of the sky port depends on the scale of 
operations. We envision them starting out very modest, maybe 
perhaps a retrofit of a parking garage top deck. And we 
actually see, with the broader trends in the transportation 
industry, of the reduction in use of privately owned cars in 
different markets, that parking garages are becoming 
underutilized in certain areas. We think this actually provides 
a very----
    Mr. Smucker. I am going to jump in, I don't have a lot of 
time. But I agree with you there is potential here. And my next 
question was exactly that, you know, we could solve a number of 
problems: parking would be one of them, congestion would be 
another. That is all dependent on the scale and, frankly, the 
pricing, the way the model could work.
    Do you see this would initially be sort of a--maybe a 
luxury, only a few people could afford it, and gradually prices 
would reduce? What do you think it would take to get to the 
point of using it as mass transportation, maybe a daily 
transportation by folks?
    Mr. Allison. We see this in three stages. We see initial 
launch in these small networks as--on a per-seat-mile basis, 
similarly priced to our UberBLACK product in many markets. So 
something like $5 to $6 per seat mile. We think that, with no 
changes to the vehicle but only with operational efficiency and 
higher utilization and load factor, we can get down to 
something like $1.50 per seat mile within a couple years of 
driving utilization.
    We think that, ultimately, with the introduction of 
autonomy and the reduction in cap-ex of building these vehicles 
by applying automotive-type manufacturing technologies, we can 
get to something that is close to the marginal cost of car 
ownership per seat mile, which is something like 45 cents, I 
think, that AAA----
    Mr. Smucker. And I don't have much time, but I agree with 
what Ranking Member Graves said earlier, you know. We here, our 
role is not to try--to sort of drive various technologies. Our 
role is to try to envision what the future could look like, and 
be sure that we have gotten out of the way so companies can 
innovate.
    So I would be interested in continued discussion with you 
at some point in regards to what you think--what changes need 
to be made here to ensure that innovation could be driven not 
only by your company, but by others that are operating in this 
space. So thank you.
    Mr. Allison. Thank you.
    Mr. Larsen. Thank you. The next three Members I have in 
order will be Representative Carbajal, Representative Katko, 
and Representative Titus. I recognize Representative Carbajal 
for 5 minutes.
    Mr. Carbajal. Thank you, Mr. Chair. And thank you to all of 
you for being here today.
    Mr. Allison, thank you for sharing a little bit about what 
aviation might be like in year 2050. There has been a lot of 
exciting and innovative technology and design that no doubt 
will have a major change in our transportation system in the 
future, advances to engine and commercial space vehicle designs 
such as hybrid electric and all-electric engines or alternative 
fuel sources, which could make flight operations more 
sustainable and environmentally friendly.
    Could you please speak further on what this might look like 
for your industry?
    Mr. Allison. Thank you for the question. Absolutely. We 
actually view the transition and technology to--the 
introduction of electric power trains into vehicles as one of 
the key enablers to make this whole industry of urban air 
mobility possible.
    And so the key--the way this plays out is that with 
electric propulsion technology, the same types of technology 
that go into electric cars that enable them to be much simpler 
and cheaper to operate, allows you to create new topologies of 
aircraft that can take off and land vertically, like a 
helicopter, but can transition to a wing and fly much more 
efficiently and quietly.
    And so you can reduce the energy cost dramatically in these 
types of vehicles by using electric technology, and that 
actually enables, then, this whole market to open up. But the 
key enabler is electric propulsion applied to aircraft to let 
them take off and land vertically in a quiet and safe way.
    Mr. Carbajal. ``The Jetsons'' come to mind.
    [Laughter.]
    Mr. Allison. That is right.
    Mr. Carbajal. Thank you.
    Captain DePete, thank you for your testimony before our 
committee, as well. Some of the concerns I have heard from my 
constituents as we continue to develop new technologies are how 
do we maintain a competitive workforce for the future. What are 
some opportunities or recommendations you would propose to meet 
these challenges? One. And two, in your testimony you mentioned 
improving diversity within the aviation workforce. Can you 
explain further what this would look like?
    Mr. DePete. Absolutely, thank you. And we are intimately 
involved in every aspect of diversity across the board, 
including participation now with the new requirement for the 
women in aviation working group that is going to take place. 
And we have already placed a person on that to represent us. 
There are 14 members, I believe, on that.
    But this all comes under our efforts of what we call a 
professional development group in that area that I told you 
earlier was the future of the profession. So we are really 
heavily invested in encouraging people to come forward and get 
involved in studies that would help facilitate a career in 
aviation.
    Of course, I was a poli sci major, I will say that. But I 
still got in. But having said that, I think that anything that 
Congress can do to help facilitate and support that kind of an 
educational process, as well as the career aspects that I 
mentioned earlier to make it a viable career, and to protect 
the industry as a whole--because if we lose the industry 
through unfair foreign competition, we lose everything.
    So that would be my----
    Mr. Carbajal. Thank you very much.
    Mr. DePete. Thank you.
    Mr. Carbajal. And semper fidelis.
    Mr. DePete. Thank you. Thank you, I appreciate that.
    [Pause.]
    Mr. Carbajal. Mr. Chair, I yield back.
    Mr. Larsen. All right.
    Mr. Carbajal. I forgot to say that.
    [Laughter.]
    Mr. Larsen. I think we are all more than happy to sit here 
in silence for 1 minute and 30 seconds.
    I recognize Representative Katko for 5 minutes.
    Mr. Katko. Thank you, Mr. Chairman, and thank you all for 
being here. It is truly fascinating. I finished a book recently 
about the Wright brothers. And when they started out they were 
bicycle shop owners, and they just started fiddling with the 
audacity of air travel. And by the end of their lives, one of 
them was riding on commercial airlines. So it is really 
amazing, what can happen in a lifetime. And so everything you 
are talking about sounds kind of out there. But, quite frankly, 
it did to the Wright brothers, too. So go at it and have it at, 
man.
    But the question I have is on drone technology. In my 
district and my neighboring district we have one of the premier 
drone technology research corridors in the country. And, you 
know, I am vitally concerned about the amount of vehicles that 
are going to be in the air in 2050, and the amount of unmanned 
aerial vehicles that are going to be there. Package deliveries, 
all the things--lord knows what is going to be there.
    But I would like to just kind of hear your opinions as to 
what you think is additionally needed in order to affect that. 
Obviously, geofencing and all those types of things we are 
going to need to keep those unmanned vehicles out of air 
traffic, commercial airspace is of vital concern. So anything--
wide open, you guys. I want to hear what your thoughts about 
drone technology, where you think it is going to be, and what 
you need, what we need to be doing with it right now.
    Ms. Cooper. Thank you for your question.
    Mr. Katko. We take you, Ms. Cooper, first. Go ahead.
    Ms. Cooper. As the drone member on the panel, I will kick 
this one off for us.
    As I mentioned earlier in my testimony, remote ID is sort 
of the next thing that we need to work on together. And once 
that is implemented, you know, we can deal with any concerns 
that are cropping up, perhaps in your district and others, in 
terms of privacy, trespass, and other laws that we already have 
in place that can deal with this new technology and all of its 
concerns. We just currently don't have a technological means to 
enforce those laws. And remote ID will help us get there.
    Mr. Katko. Great, great. Anybody else?
    Mr. McBride. I have been working with the FAA and our 
industry partners to help establish the standards for 
performance and certification of these vehicles is going to be 
one of the key components to moving forward.
    Mr. Katko. Yes. And obviously, I also wear a terrorism hat 
from the Committee on Homeland Security, so I am also vitally 
concerned about weaponizing these unmanned vehicles, whether 
they are airplanes, or what have you. And also, from a 
cybersecurity standpoint, the ability to hack into some of 
these systems and maybe take over an airplane and weaponize 
that, as well.
    So if you want to comment on that, as well, I would like to 
hear about that.
    Mr. DePete. Thank you. And I would like to thank you 
personally for all the help that you have given us, in terms of 
the security aspects in relation to cargo.
    Mr. Katko. Yes. And more to go, though.
    Mr. DePete. Yes, we have a bit of a way to go. But your 
interest and support in that has been very appreciated.
    To answer your question, you know, a member of the joint 
advisory committee subcommittee, and we worked on looking at 
what type of infrastructure would be necessary. So right off 
the bat I would have to say sufficient funding, right, for the 
FAA, consistent funding.
    And earlier, before you joined us, I had mentioned we had 
made so much progress in the FAA Reauthorization Act in terms 
of the 5-year plan, but yet we had to deal with a Government 
shutdown, and that was pretty--so I am really supportive of 
H.R. 1108, and like to see--so could we keep steady progress 
going.
    But I think, if we focus on infrastructure and also on a--I 
happened to draw the lucky straw and get the funding model to 
try to figure out how we were going to pay for all this, you 
know.
    And I think what we have to be careful about is we have to 
do this right. We have an opportunity to do this right the 
first time. Because if something doesn't go well, if we 
introduce risk too quickly and it is uneven, where other 
operators, you know, abide by a certain set of standards and 
the other ones don't, it raises the risk for everyone in the 
system.
    Mr. Katko. Oh, that is what happened with respect to the 
internet.
    Mr. DePete. Absolutely.
    Mr. Katko. I mean it was introduced before they understood 
what cybersecurity was, and cyber vulnerabilities.
    Mr. DePete. Absolutely.
    Mr. Katko. It is the same thing, yes.
    Mr. DePete. I couldn't agree more. And what it will do is 
it will set back the industry for the folks that are trying to 
do it the right way.
    Mr. Katko. For sure.
    Mr. DePete. So we do have a unique opportunity here. We 
just have to figure out how to fund it.
    Mr. Katko. Well, I encourage all of you to continue to look 
around the corner and think boldly, because that is how 
progress is made in this country. And--but to try--when you are 
doing that, also try and anticipate better than we did with--
the internet is a great example of the vulnerabilities that are 
going to be there. And with unmanned aerial vehicles, there are 
tons of vulnerabilities. It is highly complicated, and we got 
to get it right.
    If you get it right, I think the technology is going to be 
amazing for us in the next couple of generations. And--but we 
have got to be very mindful of the drone--the misuse of drones, 
misuse of unmanned vehicles, and we have got to do a better--we 
have got to anticipate that upfront.
    So anything else anyone want before I yield back?
    OK, I yield back, Mr. Chairman.
    Mr. Larsen. Thank you.
    Mr. Katko. Fourteen seconds ahead of time. That is a first 
for me.
    Mr. Larsen. I appreciate that very much, yes. We can all 
leave earlier. Thanks, Representative Katko.
    Representative Titus for 5 minutes.
    Ms. Titus. Thank you, Mr. Chairman. You know, in the 2 
hours that we have been sitting here, listening to all the 
exciting new technology and what we need to do and how we can 
be safer, all the developments that can be made, our President 
has tweeted out something pretty interesting. Airplanes are 
becoming far too complex to fly, pilots are no longer needed, 
but rather computer scientists from MIT. I see it all the time 
in many products. Always seeking to go one unnecessary step 
further, when often old and simpler is far better. All of this 
for great cost, yet very little gain. I don't know about you, 
but I don't want Albert Einstein to be my pilot.
    I have a hard time interpreting anything the President 
says, but I don't know if this is a knock at Boeing, or if it 
is a knock at pilots, or if it is a knock at Einstein, or 
just--he is just a Luddite, and it is a knock at technology, 
general. But it doesn't seem to be the right attitude at this 
moment, and certainly not in this hearing.
    I want to ask a general question. I believe we still have 
an Acting Director of the FAA and an Acting Deputy Director. Do 
you all find that this is a problem in trying to get advances 
made in this field? Has it put up obstacles? Or is there a 
reluctance by the agency to move forward because we don't have 
somebody in place? Anybody?
    Mr. McBride. Well, from NASA's perspective, I think we have 
a great working relationship with the working-level people in 
the FAA. So progress continues to be made at the engineer-to-
engineer and management levels at the agency. I can't really 
speak to higher levels of the agency.
    Ms. Titus. How about from the industry's standpoint.
    Mr. Allison. Thank you for the question. We are part of the 
IPP, the integration pilot program, with the San Diego team. 
And we have been incredibly pleased with the way the FAA has 
been working with us. And we couldn't have a--it is just going 
extremely well. So kudos to them for really leaning in and 
engaging with industry in a very meaningful way to really try 
to do things right, but also try to move very quickly.
    And so we have been incredibly pleased with how the FAA 
leadership has been working with their teams to get that done 
very, very effectively.
    Ms. Titus. That is good to hear.
    Ms. Cooper. I agree with Mr. Allison's comments. Under the 
Acting Administrator's leadership, the FAA has rolled out 
several programs, including the IPP, very successfully, to 
date; the UPP, which was recently announced; and the proposed 
rules that we talked about that were dropped during the 
furlough. So I think they are doing a great job, and we look 
forward to continuing to work with them.
    Ms. Titus. We usually hear that they are pretty hidebound 
and very slow to respond, and they come along after the 
industry, which puts us behind the rest of the world. But 
perhaps maybe there has been some improvement, so that is good 
to hear.
    I have a more specific question that is related to the UTMs 
that some of you mentioned, and how they can tie to the testing 
centers that exist in several States, including my State of 
Nevada. I know we are eventually going to develop a system that 
will be applicable to what I am going to mention. But in the 
meantime I wonder if you could give me some advice on what we 
might do to allow this to happen.
    Some of the commercial users, like utility companies who 
have rights of way on the ground, would also like to have 
rights of way in the air to be involved with things like remote 
wires that are in areas of Nevada that you can't get to very 
easily, or perhaps fixing railroads or pipes. Is there any 
possibility, working with the testing centers, that we might 
develop some kind of airways that--where the drones can go that 
are tied to other infrastructure projects where they might have 
right-of-ways?
    Mr. McBride. Well, that is certainly in our plans at NASA 
to work with the FAA. The established test centers at Edwards 
Air Force Base, where I am from, is located--we are in a 
restricted airspace. A lot of our initial work happens there 
without the need for FAA authorization to fly.
    I did mention in my testimony the grand challenge activity, 
moving forward. The initial grand challenge is planned for our 
facility at Edwards in southern California, but we are looking 
at the Nevada test site as a potential alternative location to 
move some of our mobile facilities to, and do some of the grand 
challenge work there, as well.
    Ms. Titus. So do you think that the FAA should kind of 
carve out or create these restricted fly zones or corridors 
that parallel critical infrastructure?
    Mr. McBride. That is going to be something for the FAA to 
decide. But certainly that is within the capability of UAS, to 
do monitoring of critical facilities and infrastructure like 
railroads, power lines, transportation throughways.
    Ms. Titus. How about you, Ms. Cooper?
    Ms. Cooper. Thank you for your question. Congress directed 
the FAA, under the Extension Act, to set up, under section 
2209, a process for a critical infrastructure facility owners 
and operators to seek no-fly-zone designation. That is another 
provision that we are still waiting for the FAA to implement, 
so that we can move forward and help protect critical 
infrastructure.
    Ms. Titus. Well, maybe since they are doing better, they 
will move forward quicker.
    Ms. Cooper. I hope so. Thank you.
    Ms. Titus. Thank you. I yield back.
    Mr. Larsen. Thank you, Representative Titus. I recognize 
Representative Stanton for 5 minutes.
    Mr. Stanton. Thank you very much, Chair Larsen. And thanks 
for this great panel. It has been so important that Congress 
take the time to do meetings like this, to hear from leaders 
thinking about the future. We so often deal with the immediate 
challenges, sometimes crises right before us, so this is a 
very, very important thought process. And to have these thought 
leaders before us is very much appreciated.
    I come to this committee as a new Member of Congress, but 
having spent many years as a mayor, mayor of a big city, 
Phoenix, Arizona, where I was, I guess, the chair of the board 
of Phoenix Sky Harbor Airport, and had a great working 
relationship with the airlines, the industry as a whole, a lot 
of the great employees that make up the industry.
    I was also a champion of a major infrastructure investment 
initiative that we undertook in our city, transportation 
initiative, and a lot of the investment went to light rail and 
to improving our bus system. And many people challenged me and 
said, ``Why would you invest in those old technologies, or 
those old systems, when transportation is going to look so 
different in the next 50 years? Are we going to need light rail 
in the future, when we have driverless vehicles or the 
ridesharing companies are taking over transportation?''
    My response was, of course, that a great city has to have 
as many transportation options as possible. It is not an 
either-or proposition. And so we need to continue to invest in 
outstanding transportation options like light rail.
    I am looking at this with very much the same mindset. I am 
excited about these new technologies and what they might mean 
for the American economy and American technological leadership 
in the world. But also, at the same time, hoping to get out of 
this committee a proposal for a major infrastructure investment 
act for the United States of America, and maybe ask your advice 
about what infrastructure investments should we be looking at 
differently, in light of some of the technologies that you are 
talking about, or some add-ons to the potential infrastructure 
investment that we recommended through this committee?
    What does infrastructure look like differently, as a result 
of some of these exciting technologies? And that is open to 
anybody.
    Captain, please?
    Mr. DePete. Thank you, Representative Stanton. That is a 
great question. You know, we envision, you know, an airspace 
with multiple users, all trying to share that. So collaboration 
is really a key here.
    And I am always a believer that if you have a goal in mind, 
and you crystalize that, you have a pathway now, instead of 
meandering back and forth. So I think an open, transparent, 
collaborative process, with the help of Congress in every way 
it possibly can to protect the industry, like I said earlier, 
and facilitate that dialogue--you see what goes on in the 
commercial aviation safety team that I mentioned earlier, that 
risk-predictive model is a very useful tool.
    And it goes hand in hand with success, right, because if 
something goes wrong, or if you go a little too fast and you 
try to cut a corner, then it affects the whole thing, and it 
changes the perceptions to the public. So I think anything 
along those lines would be--but that is what it is going to 
look like, and including commercial space.
    The Air Line Pilots Association--I was at a COMSTAC meeting 
last year, and when they said the mic is open, I grabbed it and 
I said, ``You know, from what I am hearing from everyone, it 
sounds like we could all benefit from''--because there was some 
concerns, right, between commercial aviation and commercial 
space.
    It is not like they are a new entrant, like, say, drone 
users or anything like that. They just have an enhanced 
capability now, due to--but the methodology that we are using 
right now of, you know, segregating vast pieces of airspace, 
when we really--there is some low-hanging fruit right now that 
we can more dynamically manage that airspace. But that requires 
cooperation and leadership and--so anything along those lines 
helps----
    Mr. Stanton. That is great advice.
    Mr. Allison, how about your technology with Elevate? You 
talked a little bit about the infrastructure necessary. I am 
fascinated by the opportunities, the technology, and--as 
leaders on the infrastructure side, what should we be thinking 
about?
    Mr. Allison. Yes, we actually envision--and thank you for 
the question--envision a combination of both private and public 
infrastructure that will develop over time to support this type 
of a network. And not just, like, physical, on-the-ground 
infrastructure, but the digital infrastructure, as well, that 
in order to do the right kind of collaborative aerospace 
management, kind of built up out under that UTM construct, 
there has to be the digital infrastructure that is run by the 
FAA to facilitate that. And we think that is incredibly 
important.
    Mr. Dourado. Congressman, I think as the flights--as 
flights get faster--so from Phoenix to Tokyo in, say, 6 hours, 
people are going to be more sensitive to the amount of time 
that they spent getting to the airport, right, which is where 
Mr. Allison's company comes in. But then also, the time that 
they spend at the airport, and going through security, and all 
the hassles, and so on.
    So as wonderful as Sky Harbor is, I don't think everybody 
wants to spend most of their day there. And so speeding along 
the process of working through the airport and getting on the 
flight and so you can get on with your trip is----
    Mr. Stanton. That is great. Sky Harbor is not perfect, we 
are just better than any other airport in America.
    Mr. Dourado. Right.
    [Laughter.]
    Ms. Cooper. Thank you for your question, Congressman. As 
Congress considers what should be included in a broader 
infrastructure investment package----
    Mr. Larsen. Excuse me, his time is up.
    Ms. Cooper. Sorry.
    Mr. Larsen. Sorry. Thank you, though. We are going to go to 
a second round of questions. Because I have a few questions to 
ask, a few more followup questions to ask. But we will 
recognize Representative Stanton as having a fine airport.
    [Laughter.]
    Mr. Larsen. So back to Captain DePete on commercial space. 
And the truth of it is we are going to have about the number of 
commercial launches this year that we had last year. But 
presumably, there is an increased interest in commercial space, 
both for tourism, as well as for traditional uses.
    Can you describe the effect it might have on commercial 
airline travel, and maybe concerns, as well as what steps might 
be taken to accommodate commercial space?
    Mr. DePete. Absolutely, and thank you for the question. And 
that is the opportunity that I think I saw. And right now, ALPA 
is really trying to facilitate that dialogue between commercial 
aviation and commercial space to work out those problems.
    Because I think, you know, we are going to learn from one 
another, right? We have this incredibly great aviation 
ecosystem with all these multiple moving parts, and this 
elegant little dance it does, and with the end result of being 
very, very safe. And we think there is a lot that we can share, 
in terms of the data collection you have through the aviation 
safety information analysis and sharing program, a similar type 
approach that could be quite possibly helpful to them. But at 
the same time, their advancement in, like, suborbital flights, 
clearly is going to translate over to the airlines.
    But the real key is going to be this coexistence in the 
airspace right now, and how they--since more and more launches 
will take place, how do we dynamically manage that airspace so 
we don't create undue burden for other users of the airspace 
during the launches.
    There is a plan. I mean we can do this. It will take 
increased funding, of course. You know, there is a SDI, the 
space data integrator tool, that is available. That would help 
air traffic controllers manage some of that space. 
Unfortunately, there is no automatic link to the systems that 
the air traffic controllers use. It is manually--the 
information is manually taken from the SDI and brought over to 
the controller.
    So just--there are steps that we could take right now, but 
we need a short-, medium-, and long-term vision, and a funding 
process along the way to achieve it. But I--it is an exciting 
time.
    Mr. Larsen. Thanks.
    Ms. Cooper, I want to now give you a chance to answer 
Representative Stanton's question.
    Ms. Cooper. Thank you, Chairman. In terms of the broader 
infrastructure investment package that Congress will be 
considering this year, I believe drone technology could be 
incentivized as a tool for master planning and redevelopment, 
similar to the work that I included in my testimony that we 
conducted with the VA.
    Drones can help monitor existing infrastructure and help us 
understand how to best recapitalize that infrastructure, as 
well as help new projects stay on track and under budget. Thank 
you.
    Mr. Larsen. Mr. Dourado, have you all thought through the 
impact that Overture will have on airport infrastructure? Do 
you think there will be necessary changes? Can we use existing 
infrastructure as-is?
    Mr. Dourado. Thank you, Mr. Chairman. We are designing 
Overture as much as possible to work with the existing airport 
infrastructure. So it will use narrow-body gates, it will be 
able to take off and land in the same way that airliners can 
today.
    The one thing where we are looking at an opportunity for 
improvement is in steep approach capability at a number of 
airports. So using GLS as an upgrade from the existing ILS 
systems at most airports it is possible to have different glide 
slopes for different airplanes. And the opportunity with 
Overture and with supersonic airplanes in general is to come in 
at a steeper angle, and further reduce the community noise on 
approach. So we would like to see airports upgrade to have GLS 
systems that could enable something like that to exist, and 
further reduce noise exposure into communities.
    Mr. Larsen. All right. Thank you.
    I yield back and recognize Representative Graves for 5 
minutes.
    Mr. Graves of Louisiana. Thank you.
    Ms. Cooper, in your testimony you made mention of concerns 
regarding a regulatory patchwork for the use of unmanned 
aircraft related to different cities and States and others. 
Would you mind submitting--and I am not going to ask you to do 
this from memory, but would you mind submitting to the 
committee in writing some examples of where that has happened, 
or just where some of your concerns are, so we can better 
understand, I guess, how that has thwarted or prevented some 
opportunity for your industry? Does that make sense?
    Ms. Cooper. Absolutely. I will do that for the record, 
thank you.
    [The information follows:]

                                 <F-dash>
 Post-hearing response from Diana Marina Cooper, Senior Vice President 
of Policy and Strategy, PrecisionHawk, Inc., to request for information 
                     from Hon. Graves of Louisiana
    According to the Consumer Technology Association (CTA), which 
tracks state and local UAS laws and bills, there are around 150 state 
laws that have been enacted to date that regulate UAS. At the state 
level, there are approximately 250 UAS related bills considered each 
year. Additional laws have been enacted at the local level, which are 
difficult to track without obtaining local counsel across each city or 
county. Due to the complex patchwork of bills and laws targeting UAS, 
our company (and many others across the industry including large public 
companies engaged in UAS activity) rely on weekly updates from CTA and 
other associations including AUVSI and the Small UAV Coalition so that 
we can attempt to keep pace with the ever changing landscape governing 
our operations. If this patchwork continues to spread across the 
country, UAS operations will be severely hampered and startups like 
ours will be particularly harmed by the increased cost of ensuring 
legal compliance with conflicting rules.
    Legislation was also proposed in Congress in recent years that 
would allow state and local regulation up to 200 feet, which would 
compromise the longstanding Constitutional principle of federal 
preemption. These measures raised strong opposition across virtually 
the entire UAS industry as they would prevent many operations from 
occurring.
    The following provides a few examples of laws and bills, enacted or 
proposed, that threaten the UAS industry by imposing harsh or 
duplicative restrictions.
North Carolina
    State law requires UAS operators to complete a North Carolina test 
on UAS safety, and to obtain a state permit to operate, which may 
require fees in the future. These measures are duplicative of the FAA 
testing and permitting system and impose additional burdens on 
commercial operators in the state.
McAdenville, NC
    A town ordinance prohibits the operation of UAS within the town 
limits during the month of December.\1\ This ordinance prevents many 
beneficial operations from taking place including utility inspection 
and claims processing.
---------------------------------------------------------------------------
    \1\ https://www.mcadenville-christmastown.com/visitors.htm
---------------------------------------------------------------------------
Oklahoma
    Senate bill 304 introduced in 2019 seeks to prohibit recreational 
operation of UAS over agricultural property without consent. This bill 
would effectively restrict recreational operations in the majority of 
the state, which includes 78,000 farms covering 34.2 million acres.\2\ 
This large scale restriction encroaches on the FAA's exclusive 
jurisdiction over airspace. Although there is a commercial exception in 
the bill, as noted in my testimony, many commercial operators begin as 
recreational operators who turn towards commercial enterprise once they 
hone their skills. The proposed restriction could also open the door to 
future restrictions on commercial operations over agricultural areas.
---------------------------------------------------------------------------
    \2\ https://www.farmflavor.com/oklahoma-agriculture/
---------------------------------------------------------------------------
California
    California senate bills proposed in recent years would have 
restricted UAS operations below altitudes as high as 350 feet over 
private property without permission of the property owners. These 
restrictions would leave only 50 feet available for UAS operations 
(under FAA rules), forcing UAS traffic closer to manned air traffic, 
creating an increased safety risk.
Newton, MA
    A 2016 ordinance was enacted prohibiting UAS flight under 400 feet 
without the permission of property owners, and requiring local 
registration of UAS. The impact on commercial operators was so severe 
that one operator based in Newton sued the city, and prevailed in court 
on preemption grounds. Commercial operators should not have to file 
lawsuits against their state, county or city governments in order to 
reaffirm the FAA's jurisdiction over aircraft operations. A 
congressional grant of authority to localities would have the 
devastating consequence of encouraging these types of unreasonable 
restrictions that impede commercial UAS operations.
Boulder City, NV
    A proposal in Boulder City sought to impose a fee in the amount of 
$100 per UAS per day for commercial operations within the city limits. 
For independent contractor pilots on our Droners platform, these fees 
could make their operations economically infeasible, in particular in 
the early stages of building their business.
Washington
    Washington introduced senate bill 5137 in 2019 which would impose 
an excise tax on commercial UAS operations. Such taxes would create an 
unnecessary financial burden for UAS operators.

    Mr. Graves of Louisiana. All right, Mr. Allison, I see some 
head-shaking over there. You want to add something? You good?
    All right. You just recognized that that is a concern, as 
well? Got it, thanks.
    Another question. Mr. McBride, you made mention of some of 
the coordination that you are doing with the FAA related to 
research and development. I made mention earlier to the sonic 
booms as one example. But obviously, there is a lot of 
technology crossover. Can you talk about how that relationship 
works, and sort of how you--you made mention to your--doing 
this from memory--is it RTTs that--and just how you basically 
commercialize or transfer some of your solutions for private-
sector opportunity.
    Mr. McBride. Yes, NASA does fundamental or initial research 
in air traffic management software methods, working with the 
experimental FAA sites, and transitions that software to the 
FAA, like ATT 2 and Mac software, which allows a better 
integration of aircraft coming into airports, and better 
coordination with FAA controllers.
    Mr. Graves of Louisiana. Can you talk specifically about 
how you all have worked together to actually improve the NAS 
and any technologies that have resulted from some of the R&D 
you have done?
    Mr. McBride. I can take that one for the record and get you 
some written responses on--with specific examples how we have 
matured the technology on those on-ramps over the last few 
years.
    Mr. Graves of Louisiana. OK. And I am curious, Mr. Dourado 
or Mr. McBride. One of the big concerns with the overland 
regulations that you cite in your testimony, or--I think maybe 
both of you do--can you talk about the state of research 
related to that, and where we are in regard to being able to 
actually move forward on a regulatory change there?
    Mr. McBride. Yes, the FAA currently restricts overland 
supersonic flight outside of restricted airspace or supersonic 
corridors.
    The X-59 is leveraging on research that NASA has been doing 
since we had the first aircraft sonic boom in 1947, and our 
understanding of sonic boom shockwaves and how they coalesce 
off the aircraft and transition or transport down to the ground 
and impact people and things on the ground. So we are taking 
that understanding and putting that into tools which are 
helping to inform the design and the outer mold line, the 
shape, the engine placement of the X-59 aircraft, which, again, 
isn't a test vehicle as a prototype for a future transport 
aircraft, but is an experimental aircraft designed to test 
people and things on the ground.
    We already know how to make aircrafts, high-performance 
aircrafts, and aircraft go fast and make sonic booms. The goal 
with the X-59 is to make a sonic boom--and the sonic boom 
doesn't go away, but to make a sonic boom soft enough that it 
is not annoying to people or things on the ground.
    And so once we clear the envelope and assure that the 
aircraft is safe to fly, then we will fly over communities and 
monitor people's responses. We have been doing some initial 
work in coastal areas like Galveston and in Florida, where we 
can put partial sonic booms onto people. But the heavy sonic 
boom goes out over the water, you know, to measure their 
acceptance of the sonic boom and how it impacts them and their 
families.
    Mr. Graves of Louisiana. Is that also going to help stop my 
car from vibrating and shaking when someone next to me has a 
radio on that is too loud?
    Mr. McBride. Probably not help that.
    Mr. Graves of Louisiana. Mr. Dourado, is there anything you 
would like to add there?
    Mr. Dourado. Yes, of course. So we are designing our 
Overture for--primarily for over-water operations, not over 
land. But we do--we are working very closely with NASA and with 
FAA and the international community on international rules for 
overland supersonic flight. And we expect those rules to come 
into place in the mid-2020s, right, when--you know, when we 
have delivered Overture, and we will be working designing our 
next planes.
    So we expect future planes to have that technology. We do 
think it is important that the standard be written in a way 
that it is accessible to airliner, specifically, and Mach 2-
plus airliner, because that is really what you need to get to 
fit into the airliner schedules.
    So it is important that the standard does not be too strict 
that we can't meet it.
    Mr. Graves of Louisiana. Great, thank you.
    Mr. Larsen. Thank you, and I recognize Representative Lynch 
of Massachusetts for 5 minutes.
    Mr. Lynch. Thank you, Mr. Chairman and Ranking Member 
Graves, for your holding this hearing. I want to thank this 
distinguished panel, as well, for your insights.
    Captain DePete, good to see you, sir. So I am a former 
union president myself, with the iron workers. I know you 
represent the Air Line Pilots Association. And for my men and 
women I was always nervous about their safety.
    So I have got some nervous constituents this morning, and I 
actually represent a section of the city of Boston where the 
departing flights from Logan for a large commercial airline--
basically, we live underneath that path. And so we have had the 
Lion Air crash and also the Ethiopia crash, both on takeoff. So 
not just the people who were flying in the planes, but the 
people who live under those flight paths are very nervous.
    And, look, I know this is not--this was not what you signed 
up for this morning, but because my constituents are nervous, I 
am nervous. And it would be a dereliction of duty not to ask 
you about this if you have any insight on--in terms of how your 
pilots might feel about this, and what their perspectives are.
    I do want to note that, as of this morning when I came in, 
there were 25 airlines that had stopped flying the 737 MAX. And 
at least two countries--I believe Australia and the U.K. have 
basically refused overflights of this aircraft.
    So maybe you could--I don't want to spend a whole lot of 
time on this, but I have to ask you, you know, if--what are 
your views?
    Mr. DePete. No, it is quite all right, and I really did 
sign up for this, so----
    Mr. Lynch. Oh, OK, fair enough.
    Mr. DePete. In that email, right? And so, you know, we have 
the integrity of a process that we have had for a very, very 
long time, right?
    So right now, you know, ever since the first accident 
involving a 737 MAX, you know, very engaged with Boeing, very 
engaged with the FAA, and they created some airworthiness 
directives that helped some of our pilots, you know, who are 
very experienced. You know, we don't have any 200-hour pilots 
sitting in the seats any more----
    Mr. Lynch. Right.
    Mr. DePete. You know, no on-the-job training any more. So 
we are very proud of that process.
    And with that process, though, the difficulty with this is, 
right, is that we are closely monitoring the situation. It is--
like you said, it is changing by the second.
    Mr. Lynch. Yes.
    Mr. DePete. But the process that we have, that integrity of 
that process right now, where during an ongoing investigation 
it is, you know, speculation because we don't really have all 
the facts from the most recent accident, from Ethiopian 
Airlines.
    So once we get all that--but I think the--you know, the 
certification standards that were set up with the--and the 
discussions with the FAA and Boeing, and the information that 
was passed to our pilots, I feel like we can adequately fly 
that airplane very safely. But if we hear differently--I 
understand there is some new changes in software and----
    Mr. Lynch. Right.
    Mr. DePete [continuing]. Programs that are going to begin 
to implement. And, quite honestly, we knew about that as early 
as November.
    So I think it will be--I think we have to, you know, rely 
on the data, and rely on the process that has gotten us to the 
point where this is the safest--you know, there has been a lot 
of sensationalism, and rightfully so, I mean, this is a 
tremendous loss of life here.
    Mr. Lynch. Right, absolutely.
    Mr. DePete. And, you know, we--and we don't want to have 
that happen again. But the process we need to follow, as 
difficult as it is, will help us prevent that in the future.
    Mr. Lynch. Right. Well, I just hope that your pilots are 
keenly involved.
    Mr. DePete. They are.
    Mr. Lynch. Obviously.
    Mr. DePete. Yes, sir.
    Mr. Lynch. I do have great confidence in Boeing. I think 
they are a wonderful company, and they have been a real success 
story. I want to make sure that all of their sort of review is 
being done as it should be.
    Mr. DePete. Right.
    Mr. Lynch. Make sure we are working this through. You know, 
I am just concerned. If there were ever--so we have had two 
strikes here.
    Mr. DePete. Right.
    Mr. Lynch. Strike 1 in Lion Air and strike 2 in Ethiopia. 
If we lost another passenger aircraft----
    Mr. DePete. Right.
    Mr. Lynch [continuing]. Large, commercial airliner, you 
know what the repercussions of that would be. It would be a 
complete loss of trust in----
    Mr. DePete. Yes.
    Mr. Lynch [continuing]. That aircraft, and it will go much 
further than that. So I just want to make sure we get it right 
for the safety of the flying public, and all of our pilots, 
right?
    Mr. DePete. Absolutely. And we share that concern. And, you 
know, it isn't lost on me that we are talking about a lot of 
technology developments here.
    Mr. Lynch. Yes.
    Mr. DePete. And how important it is to have a well-trained 
crew on board the airplane.
    Mr. Lynch. Right.
    Mr. DePete. Thank you, though, for the question.
    Mr. Lynch. Thank you, sir.
    Mr. DePete. It is----
    Mr. Lynch. Mr. Dourado, you did talk about sort of shifting 
flights over the water with your earlier remarks. That is one 
of the things I am trying to get done in Boston. We designed 
our airport and laid out our runways back in the 1920s, and we 
were trying to--we had very weak aircraft, very limited thrust, 
and we were just trying to maximize the wind direction. And now 
we have got very powerful aircraft that could easily take off 
over the water. But we have left our runways where they are.
    Is there anything that you see might help us move in that 
direction of, when possible, like it is in Boston, to maximize 
the use of over-the-water flights?
    Mr. Dourado. Certainly with Overture, we will have a lot of 
excess thrust available on takeoff and landing. And so we are 
planning to use that to minimize exposure to communities, and 
to design airport-specific procedures into the flight computer, 
so that the pilot can fly very easily a procedure that reduces 
the exposure to the community.
    Mr. Lynch. Thank you for your indulgence, Mr. Chairman. I 
yield back.
    Mr. Larsen. Thank you, Representative Lynch, I appreciate 
that.
    Any further questions from members of the subcommittee?
    Seeing none, I want to thank the witnesses today for your 
testimony. Your contribution to today's discussion has been 
informative, and it has been helpful. I think we moved at least 
10 years into the next 30 years. As a result, I think we have 
established a good record for this subcommittee about what the 
future of aviation and aerospace is for us to build upon in the 
future, as well.
    I want to, for the record, remind that Members will be 
going to the FAA Technical Center at the end of the month to 
look at some of this technology that has even been mentioned 
here today. And this hearing has given us much to think about.
    I ask unanimous consent the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may have been submitted to them 
in writing, and unanimous consent the record remain open for 15 
days for any additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    If no other Members have anything to add, the subcommittee 
stands adjourned.
    [Whereupon, at 12:19 p.m., the subcommittee was adjourned.]



                       Submissions for the Record

                              ----------                              


  Statement of Hon. Sam Graves, a Representative in Congress from the 
State of Missouri, and Ranking Member, Committee on Transportation and 
                             Infrastructure
    Thank you Chairman Larsen and Ranking Member Graves for holding 
this hearing.
    I would also like to express my condolences to the friends and 
families of those who perished as a result of the aviation accident in 
Ethiopia over the weekend.
    While things are quickly developing in aerospace and aviation, we 
must never stop working to ensure the safest system possible. As a 
pilot, I appreciate both the importance of safety, as well as the 
opportunities that lie ahead for aviation businesses, consumers, and 
aviators.
    The air transportation system of the future promises great advances 
in the way we move people and goods across town, around the globe, and 
into space. It will also allow us to better connect small and rural 
communities with the rest of the country and world.
    But it is essential that safety be at the forefront of everyone's 
mind. We can allow for innovation while maintaining a safe and 
efficient air transportation system. That is the balance that must be 
struck in order to be successful.
    Fostering innovation and incorporating advancements in technology 
into our infrastructure network is one of my top priorities.
    Advances in aircraft and launch vehicle technologies will change 
the way we live. In 2050, air travel could be a completely different 
experience. Imagine working in D.C., but going home to Missouri, 
Louisiana, Oregon, or Washington every night.
    Focusing on what the system will look like in 30 years, and how to 
allow for new developments will ensure the United States remains the 
world's leader in air transportation. Just as important, it will create 
the environment for American ingenuity and job creation.
    I am excited to hear about some of the newest users of the 
airspace, including drone operators, and commercial space 
transportation providers. I also look forward to hearing about how air 
taxis and the reemergence of supersonic flights will change air travel. 
As I said in the beginning, these are exciting times; the possibilities 
are limited only by our imagination.

                                 <F-dash>
Statement of Mark Baker, President and CEO, Aircraft Owners and Pilots 
          Association, Submitted for the Record by Hon. Larsen
    Chairman Larsen, Ranking Member Graves, Members of the 
Subcommittee, thank you for the opportunity to provide the Aircraft 
Owners and Pilots Association's (AOPA) perspectives on our future air 
transportation system. AOPA represents more than 300,000 of America's 
pilots and aviation enthusiasts. We were founded in 1939 with the 
simple mission: to give a united voice to what was then called 
``miscellaneous aviation''. Through the decades, we have been faithful 
to our core missions--promoting safety, preserving the freedom to fly, 
and building the next generation of pilots.
    Since AOPA was founded 80 years ago, aviation has gone through many 
changes and the advent of unmanned aircraft has been among the most 
dramatic. In 2017, AOPA stayed true to its values when we launched a 
new line of membership options created for unmanned aircraft pilots for 
the common purpose of safe integration of all users of the National 
Airspace System (NAS). Our members collectively operate over 85% of all 
general aviation (GA) aircraft in the United States and represent two-
thirds of all pilots, making AOPA the largest civil aviation 
organization in the world.
    Our testimony is focused on the safe integration of unmanned 
aircraft into the NAS, while maintaining our excellent safety record. 
Over the last several decades, the general aviation total accident rate 
has decreased by more than 85%. Preliminary National Transportation 
Safety Board (NTSB) statistics show that in 2017 (the most recent data 
available), for the fourth straight year, the overall GA fatal accident 
rate has declined to below one fatal event per 100,000 flight hours.
    While technology, education, and training will lower this number 
even further, the stellar safety record reflects the productive 
oversight by this Committee and the constant work by the Federal 
Aviation Administration (FAA) and industry by putting safety first and 
producing results.
            economic impact of manned and unmanned aviation
    The general aviation industry has a large economic impact in the 
United States. It has a total annual economic output of over $219 
billion and contributes more than $109 billion each year to the US GDP. 
The industry is made up of aircraft manufacturers, avionics and parts 
providers, fueling and service providers, maintenance shops and many 
more diverse businesses. There are over 1.1 million jobs directly or 
indirectly attributed to the general aviation industry.
    The economic impact of unmanned aircraft integration is 
significant. According to the Alliance for Drone Innovation, the 
economic impact of unmanned aircraft into the NAS will total more than 
$13.6 billion in the first three years of integration and will grow 
sustainably for the foreseeable future, cumulating to more than $82.1 
billion and more than 103,000 jobs by 2025.
                  aopa engaging with unmanned industry
    As an organization representing the freedom to fly for all users, 
AOPA believes that safely integrating unmanned aircraft can be achieved 
by engaging collaboratively with the entire aviation community, 
ensuring all users have an appropriate level of aeronautical knowledge, 
and using technology to minimize safety risks. Our long-term vision for 
unmanned aircraft is for routine operations to take place in harmony 
with other NAS users including general aviation.
    To facilitate this vision, AOPA serves on a multitude of government 
and industry committees dedicated to the safe integration of unmanned 
systems. As AOPA President, I represent AOPA on the FAA's Drone 
Advisory Committee (DAC). The DAC is a broad based, long term advisory 
committee that provides the FAA with recommendations on key unmanned 
aircraft integration issues by helping to identify challenges, 
prioritize improvements, and create broad support for an integration 
strategy. Additionally, AOPA actively supports safe integration by 
participating in numerous FAA sponsored Aviation Rulemaking Committees 
(ARC), including UAS in Controlled Airspace ARC, Micro UAS ARC, 
Commercial Space ARC, Airspace Access Priorities ARC, and others. AOPA 
is also active on the ASTM International committees that are developing 
standards for detect and avoid, remote ID and Unmanned Traffic 
Management (UTM).
    Additionally, AOPA has submitted a letter of interest in response 
to the National Aeronautics and Space Administration (NASA) Aeronautics 
Research Mission Directorate (ARMD) Urban Air Mobility (UAM) Grand 
Challenge Request for Information. AOPA shares ARMD's UAM vision for a 
``safe, efficient, convenient, affordable, environmentally friendly, 
and accessible air transport system''.
    AOPA also supports the FAA's formation of an Unmanned Aircraft 
Safety Team (UAST), modeled after the very successful Commercial 
Aviation Safety Team (CAST). The group's mission is to collect and use 
UAS operational data to identify safety risks, and then develop and 
voluntarily implement mitigation strategies to address those risks.
    Through the work of the above committees and other activities, the 
FAA and industry have demonstrated that by working collaboratively, we 
can make significant progress toward integrating unmanned aircraft into 
the NAS. Efforts to date have produced results. In 2016, a rule for 
Registration and Marking Requirements for small UAS was published, 
which applies to UAS weighting more than 0.55 pounds and less than 55 
pounds. In June 2016, the FAA Part 107 small UAS rule was published, 
becoming effective in August 2016. This rule enables routine small UAS 
operations conducted within visual line-of-sight (VLOS). Prior to the 
finalization of the small UAS rule, the FAA only authorized commercial 
unmanned aircraft flights on a case by case basis for operation in the 
NAS.
              unmanned aircraft implementation priorities
    AOPA believes there are a handful of key implementation priorities 
that must be addressed to facilitate the safe integration of unmanned 
aircraft into the NAS: Beyond Visual Line of Sight (BVLOS) operations, 
airspace and air traffic management, airport infrastructure, and 
growing the pilot population.
Beyond Visual Line of Sight (BVLOS) Operations
    This effort will require Detect and Avoid (DAA) and Command and 
Control (C2) technical solutions for unmanned aircraft. These two 
capabilities must be implemented to keep unmanned aircraft at a safe 
distance from other aircraft and ensure the pilot can control the 
unmanned aircraft.
    While manned aircraft accomplish see and avoid through visual 
means, unmanned aircraft operating BVLOS are unable to rely on the 
vision of the pilot. To support BVLOS, minimum DAA performance 
standards must be developed. The C2 link between an unmanned aircraft 
and its pilot is critical to ensuring that the pilot can safely control 
the unmanned aircraft during normal and emergency situations. The C2 
link enables the pilot to maintain control, comply with air traffic 
control (ATC) instructions and avoid other aircraft. Because the C2 
link is critical to safety, minimum performance standards are necessary 
to ensure the link performs safely and reliably.
Airspace and Air Traffic Management (ATM)
    Air Traffic Management requires the FAA to work collaboratively 
with industry in developing operational ATM concepts for unmanned 
aircraft in the NAS. In low altitude airspace, typically below 400 feet 
AGL, where FAA air traffic services are not provided, the FAA must work 
with industry to develop operational requirements that enable routine 
small UAS operations at low altitudes.
    The FAA currently envisions a low altitude Unmanned Traffic 
Management (UTM) concept for unmanned operations as not under the 
control of the FAA, but as a separate but complementary component to 
the FAA's Air Traffic Management system. This concept must integrate 
small unmanned aircraft at low altitude with manned aircraft that also 
operate in this airspace. UTM development will ultimately identify 
services, roles and responsibilities, infrastructure, and performance 
requirements for enabling the management of low-altitude unmanned 
operations where the FAA does not typically provide separation 
services. AOPA supports the development of a phased approach building 
from rural to urban and from low-density to high-density airspace.
Airport Infrastructure
    Our nation's airport ecosystem must continue to support all sectors 
of aviation, including potential new entrant urban mobility aircraft 
and the challenges faced by high volume, low-altitude operations.
    With new advances in electric and electric-hybrid vertical takeoff 
and landing (eVTOL) technology, aviation will be more accessible than 
ever before, and airports will be a cornerstone of the infrastructure 
these new aircraft will need.
    Airports are already economic engines for the communities they 
serve and those who live around existing airports will be far more 
likely to realize the benefits that will come with eVTOL aircraft. Uber 
understands that existing airports are important parts of the coming 
eVTOL ecosystem. According to their whitepaper on ``Uber Elevate'', the 
numerous airports located in and around metropolitan areas will serve 
as maintenance and support locations for eVTOL aircraft.
    General aviation airports are already populated with aviation 
maintenance facilities and personnel. They have space available to host 
a substantial number of eVTOL aircraft. AOPA expects eVTOL operators to 
plug into this existing infrastructure as their market develops.
    Please take a moment to watch our video of what eVTOL technology 
and local airports means for transportation and the economy. https://
www.youtube.com/watch?v=OtpCldGVSSg&feature=youtu.be. It is now more 
important than ever for Congress to ensure a strong and vibrant airport 
ecosystem for today's aviators and for the future.
                   addressing the future of aviation
Growing the Pilot Population
    Getting the next generation of Americans interested in aviation and 
aerospace is a key component of the aviation industry's future. The FAA 
estimates that 1.3 million unmanned aircraft pilots will need to be 
certified for commercial operation by 2020.
    Safe integration of unmanned aircraft requires an investment in 
training, certification and ongoing safety education of unmanned 
pilots. For example, Uber has published ``Uber Elevate'', a detailed 
vision of small, electric air vehicles capable of vertical takeoff and 
landing and distributed across urban centers in huge numbers. While the 
long-term vision includes autonomous operation, the authors of the Uber 
paper expect that building the system will require pilots, and many of 
them. Autonomous flight is likely to be years, if not decades down the 
line.
High School Aviation STEM Program
    AOPA is a leader in developing our future workforce. We are already 
working to rebuild the pilot population and the aviation industry from 
the ground up through AOPA's High School initiative to get young people 
interested in aviation careers.
    By providing high-quality STEM-based aviation education to high 
school students nationwide, AOPA is opening the door to aviation 
careers for thousands of teens. The courses are designed to capture the 
imagination and give students from diverse backgrounds the tools to 
pursue advanced education and careers in aviation fields.
    Working with professional instructional designers, AOPA is offering 
a four-year high school aviation STEM program that falls along two 
tracks--pilot and unmanned aircraft systems or drones.
    The program conforms to math and science standards and, in keeping 
with career and technical education best practices, will lead to a 
certification or industry-accepted test, such as the FAA Private Pilot 
knowledge test or a Part 107 drone pilot certification.
    As of February 2019, the curriculum is being used by an estimated 
2,190 ninth-grade students at 80 schools in 26 states. There are 
another 402 students at 25 schools testing the tenth-grade curriculum 
with additional grade-level curriculums to be introduced in the coming 
years.
    We are already seeing a dramatic improvement in diversity 
demographics when comparing students using the 9th curriculum compared 
to today's aviation workforce. Below is a chart comparing AOPA 9th 
grade students to employed pilots and flight engineers. 

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Congress, and this Committee specifically, has also recognized the 
need to support aviation workforce development programs by authorizing 
two new grant programs to recruit and train the next generation of 
pilots and aerospace workers as part of the Federal Aviation 
Administration Reauthorization Act of 2018 (Public Law 115-254).
    The pilot education grant program would support the creation and 
delivery of curriculum designed to provide high school students with 
meaningful science, technology, engineering, math and aviation 
education and encouraging our nation's youth to become the next 
generation of commercial, general aviation, drone or military pilots. 
The aviation technical workforce grant program includes scholarships, 
apprenticeships, establishing new training programs, purchasing 
equipment for schools and supporting career transition for members of 
the armed forces.
    While these two programs are authorized for $10 million per year 
over the next five years, it is imperative that Congress provide full 
funding in FY20 to help ensure the future of our nation's aviation 
industry will have the pilots and aviation technical workforce needed 
to meet the growing demand for a well-trained aviation workforce.
    Each sector of aviation, civil, commercial, and military face 
significant challenges in preparing for the future. There are hundreds 
of programs and projects being undertaken today to address these 
challenges whether they be workforce, technology, environmental, 
commercial space, air redesign, unmanned aircraft, and several others. 
More coordination and knowledge sharing are seriously warranted in 
these areas.
    Private and governmental organizations working together to address 
the development and sustainability of the aviation workforce, 
conducting and coordinating research activities and developing new 
aviation materials, training programs, and procedures, and leveraging 
the knowledge of organizations and federal agencies are all vital to 
protect and grow the aviation industry.
                               conclusion
    AOPA and its members are committed to serve and grow general 
aviation, including the unmanned aircraft community, as they safely 
integrate into our Nation's airspace. We will continue to serve as the 
chief advocate and support of all pilots and continue our work to 
ensure our skies are safe and accessible to everyone who dreams of 
flying.

                                    
</pre></body></html>
